<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2017 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-658, Part 6]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 114-658, Pt. 6

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION


                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 6

                               PERSONNEL

                               ----------                              

                             MARCH 8, 2016
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              



                             


         Printed for the use of the Committee on Armed Services
         
         
         
         
         




DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
      2017 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 6  PERSONNEL
      
      
      
      
      
      



                                                 S. Hrg. 114-658, Pt. 6
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION


                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 6

                               PERSONNEL

                               __________

                             MARCH 8, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        

               


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
                            ________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-938 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001             
        


                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman          JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                 BILL NELSON, Florida
JEFF SESSIONS, Alabama                    CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi              JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire               JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                     KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                      RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota                 JOE DONNELLY, Indiana
JONI ERNST, Iowa                          MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina               TIM KAINE, Virginia
DAN SULLIVAN, Alaska                      ANGUS S. KING, JR., Maine
MIKE LEE, Utah                            MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                               
                                     
                     Christian D. Brose, Staff Director
                    Elizabeth L. King, Minority Staff Director
             
                              ____________

                       Subcommittee on Personnel

                 LINDSEY GRAHAM, South Carolina, Chairman
             
ROGER F. WICKER, Mississippi        KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                CLAIRE McCASKILL, Missouri
THOM TILLIS, North Carolina         RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                ANGUS S. KING, JR., Maine
                                     
                                     
                                     

                                  (ii)

  


                           C O N T E N T S

                              __________
                              
                             March 3, 2016

                                                                   Page

Military Personnel Posture.......................................     1

McConville, Lieutenant General James C., USA, Deputy Chief of         3
  Staff for Personnel, United States Army.
Moran, Vice Admiral William F., USN, Deputy Chief of Naval            8
  Operations for Manpower, Personnel, Training, and Education, 
  United States Navy.
Brilakis, Lieutenant General Mark A., USMC, Deputy Commandant for    15
  Manpower and Reserve Affairs, United States Marine Corps.
 Grosso, Lieutenant General Gina M., USAF, Deputy Chief of Staff     23
  for Manpower, Personnel, and Services, United States Air Force.
Roth-Douquet, Kathy, Chief Executive Officer, Blue Star Families.    49
Raezer, Joyce W., Executive Director, National Military Family       57
  Association.
Bousum, Scott, Legislative Director, The Enlisted Association of     80
  the National Guard of the United States.
Davis, Joseph E., Public Affairs Director, Veterans of Foreign      112
  Wars.

Questions for the Record.........................................   130

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                         TUESDAY, MARCH 8, 2016

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

                       MILITARY PERSONNEL POSTURE

    The subcommittee met, pursuant to notice, at 2:40 p.m. in 
Room SH-216, Hart Senate Office Building, Senator Lindsey O. 
Graham (chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Graham, Wicker, 
Tillis, Sullivan, Gillibrand, Blumenthal, and King.

         OPENING STATEMENT OF SENATOR LINDSEY O. GRAHAM

    Senator Graham. The committee meets this afternoon to 
review the military personnel defense authorization request for 
fiscal year 2017 and future years defense programs.
    We are fortunate to have two panels of distinguished 
witnesses joining us today. On the first panel, we have 
Lieutenant General McConville, Vice Admiral Moran, Lieutenant 
General Brilakis, and Lieutenant General Grasso. On the second 
panel, we have Ms. Kathy Douquet, Chief Executive Officer of 
Blue Star Families; Ms. Joyce Raezer, Executive Director of the 
National Military Family Association; Mr. Scott Bousum, 
Legislative Director of The Enlisted Association of the Nation 
Guard of the United States; Mr. Joseph Davis, Public Affairs 
Director of the Veterans of Foreign Wars.
    As we consider this year's military personnel defense 
authorization request, we must continue to ask ourselves what 
impact these authorizations and requested changes in policy 
will have on our servicemembers and their families. We must 
also balance that with the reality of sequestration and the 
need to preserve the readiness of our Armed Forces.
    This subcommittee is primarily concerned with modernizing 
the military health care system this year. As I have stated 
publicly many times, our goal is to reform the health care 
system to deliver higher-quality care, to improve access to 
high-quality providers, and to ensure a strong focus on combat 
casualty care. I hope that both panels of witnesses today will 
address military health care reform.
    In the last year's NDAA [National Defense Authorization 
Act], this committee, along with our House colleagues, acted 
upon recommendations of the Independent Military Compensation 
and Retirement Modernization Commission. The reforms made will 
vastly expand the military retirement benefits to reach more of 
those who served. We owe it to those members to reward them for 
their service to this Nation.
    To this point, I find it particularly concerning that the 
Department of Defense has proposed legislation that would 
dramatically decrease the number of servicemembers who are 
eligible for the thrift savings plan contributions from the 
Government. It was an intentional choice by this committee to 
set eligibility to 2 years and 1 day of service. The Department 
came over last year and asked us to modify that by pushing the 
eligibility date further into a servicemember's career. We 
unanimously rejected that call last year, and we will continue 
to reject requests from the Department of Defense that would 
delay Government contributions until 5 years of service. We 
believe that the new retirement system should benefit more 
servicemembers. Let me be clear. It is our commitment to the 
many servicemembers who go out on deployment before reaching 
their fifth year of service that they too have earned some 
retirement.
    I am also concerned that the Department's proposal that 
would continue to suppress military pay raises misses the mark. 
For the last 3 years, this administration has failed to allow 
servicemembers' pay to keep up with the private sector wage 
growth. This is the fourth year in a row where the Department 
is shortchanging servicemembers. The personnel budget came over 
to us as neutral. This means that savings the Department took 
from giving a lower pay raise and delaying Government 
retirement contributions went to other benefits within the 
personnel budget. This money did not go to readiness. Instead, 
this money went to pay the costly fringe benefits as part of 
the focus of the future.
    To all the witnesses, I hope today you will tell us what we 
can do to make your job more efficient, better serve those 
under your care, and find a way to make health care not only of 
a higher quality but sustainable in terms of cost.
    With that, I will turn it over to the ranking member, 
Senator Gillibrand.

           STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND

    Senator Gillibrand. Thank you, Mr. Chairman. I join with 
you today in welcoming our witnesses to review the Department's 
fiscal year 2017 budget request.
    As we begin our review of DOD's [Department of Defense's] 
budget and programs, I applaud the Department's progress in 
opening all service positions, including combat positions, to 
women. I believe this change will strengthen our military over 
time because it will provide access to the full spectrum of 
talent available for military service by allowing anyone, man 
or woman, who can meet the standard for service to compete for 
those positions.
    It is important that we now turn our full attention to 
successful implementation of this change, and I look forward to 
hearing from our witnesses about their plans to achieve success 
in this area.
    I am also committed to making our military justice system 
the best in the world, and I would be interested to hear 
specifically from the Navy regarding the changes that have been 
made to create a specialized career track for litigators. 
Specifically, how has this specialized training improved 
litigation on sexual assault cases?
    I continue to be concerned about how we support families 
with children and other dependents with special needs such as 
children with autism and other developmental difficulties. I am 
concerned about the availability of support services for these 
families, how they are assigned, what happens to the family 
when the member deploys, and whether these programs are fully 
funded in the budget. I would like to hear more about each 
service handles this very vulnerable population and in what 
ways this subcommittee might be helpful.
    Finally, I understand the Department will again propose 
measures to slow growth of personnel costs, including health 
care, within the Department. I remain concerned, as I was the 
last 2 years, about the cumulative impact these proposals have 
on the most vulnerable servicemembers, our junior enlisted and 
their families. I would like to hear the witnesses' views as to 
whether the services can continue to recruit and retain 
America's very best for military service with the benefits 
package they would provide under this budget, especially in 
light of an ever-improving civilian economy. Recruiting 
talented individuals for service and retaining them and their 
families is the ultimate test of the fairness and adequacy of 
our military compensation system. I believe that policies that 
support military families will ensure we are able to attract 
and retain the best individuals for our Armed Forces.
    Again, I thank our witnesses, and I look forward to your 
testimony.
    Thank you, Senator Graham.
    Senator Graham. Thank you very much.
    General McConville?

   STATEMENT OF LIEUTENANT GENERAL JAMES C. McCONVILLE, USA, 
    DEPUTY CHIEF OF STAFF FOR PERSONNEL, UNITED STATES ARMY

    General McConville. Thank you, sir. Chairman Graham, 
Ranking Member Gillibrand, distinguished members of this 
committee, I thank you for the opportunity to appear before you 
on behalf of the United States Army. I have submitted a 
statement for the record and would like to highlight a few 
points from it, if I could, now.
    The Army's people and our soldiers, civilians, families, 
retirees, and veterans are our greatest asset. We are the most 
formidable ground combat force on earth, and we must stay that 
way.
    Readiness is our number one priority, and manning the Army 
is the key component of readiness. As the Army draws down from 
2010 wartime high of 1.13 million soldiers to 980,000 soldiers 
by 2018, we will have the smallest Active Army end strength 
since before World War II.
    Commensurate with the military drawdown, we are also 
drawing down our civilian workforce. With an Active force this 
size, we must sustain the highest quality force possible. The 
drawdown we are executing is performance-based, and we have 
done everything we can to deal with our soldiers with the 
utmost compassion and care and remain committed to our 
soldiers, give them the benefits they have earned and the 
respect they deserve as soldiers for life.
    As the G1 of the Army and the father of three soldiers, I 
take this responsibility very seriously. It breaks my heart 
that we have to involuntarily separate soldiers who have served 
so honorably during this time of conflict.
    While we are doing the drawdown, we also need to shape the 
future force. We still need to recruit resilient and fit 
soldiers of character. We must also continue to retain the most 
talented soldiers and noncommissioned officers who have the 
experience and skills that we need to meet our future needs.
    To build this high quality Army that is trained and ready, 
we must leverage all the available talent to ensure every 
individual can get on the field and play their position both 
home and away.
    To accomplish this, we are moving from an industrial age 
personnel management system to a modern talent management 
system that will fundamentally change the way we manage all 
three components called IPPS-A [Integrated Personnel and Pay 
System-Army].
    Diversity is important to our Army. Through our outreach 
and marketing efforts, we have focused on increasing diversity 
of the force in under-represented branches and occupations. We 
are committed to giving all soldiers who can meet the standards 
of military occupation specialty the opportunity to serve in 
that specialty. Opening all the military occupations provides 
increased opportunities for our women and increases the talent 
pool for the Army.
    We are focused on personal resiliency, sexual harassment 
and assault response and prevention, and suicide prevention, 
and we remain fully committed in all these areas.
    Additionally, we are helping our soldiers who are 
transitioning out of the military find quality employment. We 
consider all soldiers soldiers for life, and we believe they 
deserve our sincere gratitude for their enduring recognition of 
their service. Today's soldiers will not only influence the 
next generation of young people to join the Army but will 
connect communities across the Nation with this Army.
    So at the end of the day, the Army is people. The men and 
women who serve our Nation today, along with their families, 
and all those who have served in the past are our most 
important asset. As a Nation, we must ensure they have the 
required resources they need so they are ready when we ask them 
to fight and win our Nation's wars.
    I thank you all for your continued support of our all-
volunteer Army. I look forward to your questions.
    [The prepared statement of General McConville follows:]

      Prepared Statement by Lieutenant General James C. McConville
    Chairman Graham, Senator Gillibrand, Distinguished Members of this 
Committee, I thank you for the opportunity to appear before you on 
behalf of the United States Army.
    The Army is people and our soldiers, civilians, retirees, veterans, 
and families are our greatest asset. We are the most formidable ground 
combat force on earth, and our missions today include fighting 
terrorists around the world; training Afghan and Iraqi Army Forces; 
peacekeeping in the Sinai Peninsula and Kosovo; missile defense in the 
Persian Gulf; security assistance in Africa and South America; 
deterrence in Europe, the Republic of Korea, and Kuwait; rapid 
deployment global contingency Forces; and response Forces for the 
Homeland. The Army currently has approximately 190,000 soldiers in 
support of U.S. Geographic Combatant Command missions and deployed to 
140 countries.
    Readiness is our number one priority and manning the Army is one of 
the key components of readiness. As the Army draws down from the fiscal 
year 2010 wartime high of 1,133,000 to 980,000 by fiscal year 2018, we 
will have the smallest Active Component Army end strength since before 
WWII. Our Total Army end strength currently stands at approximately 
1.03 million with the Active Component (AC) currently at approximately 
483,000, the Army Reserve (USAR) at approximately 200,000, and the Army 
National Guard (ARNG) at approximately 348,000. We forecast our Total 
Army end strength to be approximately 990,000 by the end of fiscal year 
2017 with 460,000 AC, 195,000 USAR and 335,000 ARNG. With an Active 
force this size, we must sustain the highest quality force possible.
    Achieving an AC 450,000 end strength by fiscal year 2018 requires a 
40,000 reduction, of which approximately 14,000 will be involuntary. 
The Army has already involuntarily separated of approximately 4,400 
soldiers (1,100 enlisted and 3,300 officer) from Active Duty since the 
start of the drawdown. This drawdown is performance based, and we have 
strived to conduct separations with the utmost compassion and care, and 
remain committed to giving soldiers the benefits they've earned and the 
dignity and respect they deserve. The separating soldier's chain of 
command is actively involved in the transition process and Transition 
Assistance Programs are available to ensure a smooth takeoff.
    A primary difference between this drawdown and the drawdown after 
the first Gulf War is our use of involuntary separation boards. Our 
involuntary reduction programs focus on quantity by grade and skill and 
on quality by assessing a soldier's potential for future service. We 
only use involuntary separations when necessary because we recognize 
there are qualified and committed soldiers who will be asked to 
separate from Active Duty. We are encouraging qualified soldiers who 
must transition from Active Duty to continue to use their skills in the 
USAR or the ARNG.
    Simultaneous to the drawdown and to shape the future force, we 
still need to recruit resilient and fit soldiers of character who can 
become competent, committed, agile and adaptable leaders in the 
Profession of Arms. This effort starts with comprehensive, focused 
national and local marketing strategies. Marketing efforts this year 
alone have resulted in increases in the number of prospects who are 
willing to consider Army service. Despite a challenging recruiting 
environment, where fewer than one in three U.S. youths are qualified to 
serve and only one in eight have a propensity to enlist, the Army 
achieved its fiscal year 2015 AC recruiting mission of 59,000 with more 
than 95 percent of enlistees holding high school diplomas. The ARNG 
successfully recruited to meet end strength and the USAR was in 
striking distance of its fiscal year 2015 recruiting mission. We are 
aggressively working to achieve fiscal year 2016 Active and Reserve 
component recruiting goals, and we are focused on bringing in high 
quality recruits to reduce first-term attrition.
    The Army must continue to retain the most talented soldiers and 
non-commissioned officers with the experience and skills necessary to 
meet our future needs. Even with current challenges, persistent 
conflict, continued drawdowns and budgetary uncertainty, the AC, USAR 
and ARNG each achieved their fiscal year 2015 retention missions and 
are on track to successfully meet their respective fiscal year 2016 
retention missions.
    Commensurate with the military drawdown, we have drawn down our 
Civilian Workforce from a wartime high in fiscal year 2011 of 284,000 
(238,000 Army appropriations) to 247,000 (206,000 Army appropriations) 
in fiscal year 2015, with a projected workforce of 240,000 (196,000 
Army appropriations) by fiscal year 2017. As the Army evolves, and the 
Civilian Workforce is reduced, we are continuing to make improvements 
in how we recruit, manage, develop and evaluate our Civilians. Ongoing 
initiatives are designed to institutionalize career programs, 
leadership training, individual development and senior leader talent 
management, which ensures civilian leaders are developed on par with 
their military counterparts.
    The Army Civilian Training and Education Development System Intern 
Program provides for a strategic succession plan to replenish the 
Civilian workforce while maintaining the requisite skills required for 
functional proficiency. Program re-engineering efforts have resulted in 
improved hiring execution, with program goals to hire 1,000 interns 
annually. Fifty percent of the intern hires are within science, 
technology, engineering and mathematic fields, and about half of our 
intern hires are veterans.
    Diversity is important to the Army. Through our outreach and 
marketing efforts, we are focused on increasing diversity of the force 
in underrepresented branches and occupations. We've seen improvements 
in representing the diversity of America's talent in our officer corps. 
The United States Military Academy (USMA) increased the number of 
female cadets from 16 percent in the class of 2016 to 22 percent in the 
class of 2019. The Reserve Officer Training Corps (ROTC) experienced 
similar growth in female enrollments from 21 percent in 2016 to more 
than 27 percent women in class of 2019. Further, the officer corps has 
had an increase in African American Accessions--15 percent in USMA 
class of 2019 are African American versus 8 percent of the class of 
2016, and 13 percent will commission through ROTC in 2019, versus an 
average of 11 percent from 2012-2016. Through marketing and targeted 
recruiting and retention efforts, we remain committed to sustaining a 
high-quality All-Volunteer Force of the future that represents the 
diversity of America.
    The Army is committed to giving all soldiers who can meet the 
standards of a Military Occupational Specialty (MOS) the opportunity to 
serve in that MOS. From May 2012 to October 2015, we opened more than 
95,000 positions to women. Pending approval of our implementation plan, 
we will open approximately 125,000 additional positions to women in 
Infantry, Armor and Field Artillery as well as approximately 13,000 
positions in Special Forces. Opening all military occupations provides 
increased opportunities for women and more talent for the Army.
    To build a Total Army of Active, Reserve and National Guard Forces, 
as well as Civilians, who are trained and ready to take on the 
challenges of the future, we must leverage and manage all available 
talent and ensure every individual is able to get on the field and play 
his or her position. Our goal, is complete visibility of all of our 
knowledge, skills, abilities and behaviors to ensure the right person 
is in the right job at the right time. To accomplish this, we must move 
from a personnel management system to a talent management system. We 
are actively pursuing the Integrated Personnel and Pay System--Army 
(IPPS-A). IPPS-A is a Human Resources Information System (HRIS) that 
for the first time, will allow the Army to manage the AC, USAR, and 
ARNG on one HRIS, providing visibility of the knowledge, skills, 
abilities and behaviors of the Total Force. Next, it will allow us to 
manage talents and match them to Army requirements. Finally, it will 
provide us an audit capability to ensure personnel and pay are 
compliant with the law.
    The Army's prioritization on readiness and taking care of soldiers 
has resulted in reducing our non-deployable soldier population from a 
high of 17 percent Active Component Brigade Combat Team non-deployables 
in April 2011 to approximately 10 percent of the Total Army in December 
2015. To ensure soldiers get the benefits they have earned, the Army 
continues to reduce the time it takes for a soldier to process through 
the Integrated Disability Evaluation System (IDES). Active component 
averages approximately 220 days and Reserve component approximately 269 
days. Similarly, we've reduced the IDES inventory from about 17,000 
soldiers in December 2014 to just under 13,000 soldiers in December 
2015. We've also reduced the Temporary Disabled Retired List from 
approximately 17,000 in December 2014 to 8,816 soldiers in December 
2015.
    Personal resiliency is fundamental to readiness. At our 25 
Resilience/Performance Training Centers, we've certified 35,000 Master 
Resiliency Trainers who are resident in company level formations to 
help train on 14 resiliency skills. Every trainee receives two hours of 
resiliency training in Basic Combat Training. This year, we've also 
piloted a teen resiliency program for seventh to twelfth-graders that 
develops self-awareness, self-regulation, and helps to build character 
and social connections. We continue to field the Commander's Risk 
Reduction Dashboard to help unit commanders better see the level of 
resiliency in their formations. We continue to use the Global 
Assessment Tool (GAT), a self-awareness tool for soldiers to measure 
their personal resilience by assessing their own physical, 
psychological, social and spiritual readiness. In fiscal year 2015 
alone, more than 781,000 soldiers completed the GAT.
    Sexual Harassment/Assault Response and Prevention (SHARP) remains a 
top priority for our Army. Sexual violence goes against everything we 
stand for as soldiers. The ``Not In My Squad'' Campaign, led by the 
Sergeant Major of the Army, stresses the importance of trust at squad 
level and the basic leadership traits of competence, character and 
commitment. Through this effort and continued leader emphasis, we will 
improve command climates to ensure every soldier is treated with 
dignity and respect.
    While reports of sexual harassment and assaults have increased in 
the past year, prevalence has decreased. Prevalence is the percentage 
of Active Duty servicemembers who have indicated they experienced 
unwanted sexual contact within the past 12 months. In fiscal year 2014 
the Army received 2,606 reports (2,072 were reported by soldiers). This 
marks a 12 percent increase from fiscal year 2013 and is 60 percent 
higher than fiscal year 2012 (1,572). Prevalence is down from 8,800 in 
fiscal year 2012 to 7,300 in fiscal year 2014. An increase in reporting 
reflects increased trust in the chain of command. Our Sexual Assault 
Response Coordinators, Victim Advocates, Program Managers and Special 
Victim Counsels continue to provide support to victims through more 
than 12 resource centers. This concerted effort and emphasis on the 
victim--now fully instituted on our installations--has allowed us to 
programmatically shift to prevention from reaction in the coming year. 
The SHARP Academy is a best practice in this prevention effort, having 
trained 230 personnel in fiscal year 2014 and 395 in fiscal year 2015.
    Suicide remains a serious concern for our Army. With the number of 
deaths by suicide in the AC at the lowest in the last six years, and 
suicide rates in the USAR and ARNG, within historical norms, the Army 
remains committed to combating suicide with a multi-disciplinary, 
holistic approach to suicide prevention. Key to this approach is 
getting the soldiers' family, squad leader and buddies sensitized to 
the indicators, difficult life transitions and high risk behaviors that 
could lead to a suicide, and then having the required behavioral health 
care at the point of need.
    Key to suicide prevention is decreasing the stigma associated with 
seeking behavioral health care. Behavioral health encounters for the 
Total Army grew from approximately 700,000 in fiscal year 2003 to 
approximately 1.6 million in fiscal year 2014, indicating greater trust 
in the system. Active Duty soldiers using behavior health services 
increased from 5.7 percent in fiscal year 2003 to 15.6 percent in 
fiscal year 2014. Reserve component soldiers using behavioral health 
care increased from 2.5 percent in fiscal year 2003 to 7.2 percent in 
fiscal year 2014. Family members using behavior health services 
likewise increased from approximately 300,000 in fiscal year 2003 to 
1,300,000 in fiscal year 2014. In addition to reducing the stigma 
associated with seeking help, the Army has provided more timely care. 
In 2014 more than 90 percent of soldiers were seen by a privileged 
mental health provider within thirty days--this is an increase from 25 
percent in fiscal year 2011. Embedding services with brigade combat 
teams is a proven best practice--one that we've recently leveraged for 
the Army Substance Abuse Program, by aligning services under MEDCOM.
    In addition to taking care of soldiers and their families while 
they are in the Army, we are committed to helping them transition into 
the civilian world. We know that only 10 percent of enlisted soldiers 
and 30 percent of officers stay in the service for 20 years, the point 
where they are eligible for retirement. It is clear that we must focus 
on preparing our soldiers for life after their service. Every year 
about 120,000 soldiers transition from the Army and we must ensure they 
have a smooth transition to civilian life with quality employment.
    VOW Act compliance across the Army was 88 percent--the Active 
Component at 90 percent, ARNG at 85 percent and USAR at 75 percent. 
Compliance numbers increased sharply over last year with an 18 percent 
increase across the Total Army. The compliance rate in the Active 
Component was up 7 percent; ARNG produced the largest increase of 39 
percent; and USAR recorded a 24 percent improvement.
    We consider all soldiers to be ``Soldiers for Life'' who deserve 
our enduring gratitude and recognition of their service. Today's 
soldiers will not only influence the next generation of young people to 
join the Army but will connect communities across the Nation with its 
Army.
    In addition to building strong relationships with Government, non-
Government and private sector entities, we have synchronized our 
efforts to provide post military service career opportunities by 
enabling collaborative efforts with the Departments of Veterans Affairs 
and Labor to bring Transition Summits to installations worldwide. 
Soldier for Life continues to leverage our interagency partners, the 
private sector and non-profit philanthropic organizations connecting 
soldiers and their Families with opportunities across the country 
assisting their reintegration into civilian society.
    At the end of the day, the Army is people. The men and women who 
serve our Nation, along with their families, are our most important 
asset. As a Nation, we must ensure they have the required resources so 
they are ready when called upon to fight and win our Nation's wars. I 
thank all of you for your continued support of our All-Volunteer Army.

    Senator Graham. Admiral?

 STATEMENT OF VICE ADMIRAL WILLIAM F. MORAN, USN, DEPUTY CHIEF 
  OF NAVAL OPERATIONS FOR MANPOWER, PERSONNEL, TRAINING, AND 
                 EDUCATION, UNITED STATES NAVY

    Admiral Moran. Thank you, Mr. Chairman, Ranking Member 
Gillibrand, Senator King. It is great to be here this 
afternoon, and I am honored to represent the over 600,000 men 
and women of our U.S. Navy, Active, Reserve, and Navy 
civilians.
    Over the years, your stalwart support on behalf of them and 
their families has had a profound effect on the health of our 
force today. It is a diverse, strong force, blessed with 
unparalleled talent and selfless commitment to serve.
    But there are reasons to pay very close attention to 
potential challenges and risks ahead for all of us. An 
unpredictable economy, a declining veteran population, a legacy 
personnel system, and growing competition for high-tech schools 
threaten our future. So we need to consider every dimension of 
our operating environment in order to reduce the risk to 
replenishing our workforce with very high-quality people.
    Fortunately, our current healthy manning in the fleet has 
given us an opportunity to boldly look to transform our 
personnel system and set the table for the next 30 years in the 
Navy. Its policies, analytic tools, and supporting 
infrastructure will hold us back unless we upgrade this system. 
Our workforce is anxious for this change. They expect greater 
transparency and responsiveness, and they expect a system that 
speaks to them.
    So we are on a path to modernize and have begun setting the 
conditions to match their expectations. Sailors who are driven 
by tenacity, consumed with passion for excellence and the will 
to win, who understand and appreciate that there is no better 
place to be and no more rewarding life to live than to serve--
that is who builds a great Navy. That is the Navy we have and 
the Navy we intend to keep. As military professionals, we have 
a covenant with our sailors and the American people to do 
nothing less.
    I really appreciate the opportunity to be here, Mr. 
Chairman. I look forward to your questions.
    [The prepared statement of Admiral Moran follows:]

          Prepared Statement by Vice Admiral William F. Moran
                            i. introduction
    Chairman Graham, Ranking Member Gillibrand, and distinguished 
members of the Committee, I am honored to appear before you to review 
Navy manpower, personnel, training, education and family support 
programs and priorities for fiscal year 2017.
                  ii. a ready and capable global navy
    From providing kinetic strike options to commanders leading the 
fight against ISIL (Islamic State of Iraq and the Levant), to 
monitoring developments in the South China Sea, worldwide naval 
presence matters now more than ever. With 40 percent of our ships 
underway, and forward deployed Forces all around the globe, your Navy 
is truly America's away team. Our ability to perform our mission 
depends first and foremost on our Navy Team--sailors, both Active and 
Reserve, Navy Civilians, and their families.
    Strengthening the Navy Team is a key element of Navy's A Design for 
Maintaining Maritime Superiority. Some of the biggest impacts that we 
can make on our warfighting capability do not involve a lot of money, 
but instead are changes to how we do business. Recent results from the 
Optimized Fleet Response Plan (O-FRP) have reinforced the value of 
properly manning our ships, submarines and aviation squadrons, both in 
terms of numbers and with the right skill sets. As our platforms 
continue to become more technologically advanced, and the missions 
become more complex, the demand will grow for recruits with a high 
aptitude who can learn faster on the job, innovate naturally, and 
master new, complex skills over a career. At the same time, competition 
for skilled labor will intensify, which requires an agile personnel 
organization that can recognize challenges and opportunities and 
quickly respond with effective solutions. My organization is in need of 
an upgrade, akin to modernizing any weapons system. Our sailors operate 
at the speed of warfare at sea and in the air, and expect that same 
opportunity for involvement, for frank dialogue and for choices when it 
comes to their career decisions. Our sailor 2025 program, funded in 
this budget, is a dynamic set of initiatives, process improvements and 
management tools that address many of the challenges we face in 
building a more competitive personnel management system. The three 
pillars of this program are Personnel System Modernization, to better 
identify and reward talent while expanding career choice and 
flexibility; Ready, Relevant Learning, to deliver tailored learning 
solutions along a sailor's career continuum; and Enriched Culture, to 
enhance empowerment and trust at all levels by improving sailor and 
family resilience and health.
    To move forward on ``Strengthening our Navy Team for the Future'', 
the Navy Manpower, Personnel, Training & Education (MPT&E) enterprise 
has focused on three complimentary lines-of-effort--Force Readiness and 
Manning, Force Management, and Force Resiliency. My guiding principles 
are to maintain trust, balance our limited force to meet future 
challenges, and provide stability for the lives of sailors, Navy 
civilians, and families. There are limits to even our most thoughtful 
investments in platforms and technologies--but unbounded potential when 
we design for and make smart investments in our people.
    We must maintain a ready and capable naval force comprised of 
ships, submarines, squadrons and units, appropriately manned and 
trained to carry out their warfighting missions. To accomplish this, we 
will continue to develop and implement policies that facilitate 
delivery of highly trained and fully qualified personnel to fill 
billets at sea. Since December of 2012, we have filled nearly 11,000 
gapped at-sea billets. We must balance filling deploying units' 
critical billets with qualified personnel while maintaining healthy 
ship-to-shore cycles for our sailors. To help in this effort, Navy has 
expanded the O-FRP from its inception in 2014 to provide more capacity 
and predictability in maintenance and training, while providing 
stability for our deploying Forces and their families.
    Healthy warfighting communities, with an understanding of 
tomorrow's force structure and battle plans, are the underpinning of a 
ready force. Manning our units with the right number and type of 
properly trained and experienced sailors is a critical element of 
readiness. In the proposed fiscal year 2017 budget request, Navy end 
strength is properly aligned with force structure in support of mission 
requirements. While we project a reduction in end strength as a result 
of a decrease in military personnel requirements--primarily driven by 
one less Air Wing and the efficiencies associated with the start of a 
more modern and efficient training effort--those reductions will be 
achieved through natural attrition. Navy continues to attract the best-
qualified candidates to serve, who often present creative solutions to 
our most vexing operational and even foreign policy challenges--and we 
want to keep it that way. Our success in retaining and developing 
talent and our high quality work force depends on our ability to 
provide excellent quality of service for our sailors, civilian 
employees and families.
    We ask an incredible amount of our sailors and their families. In 
return, we are inherently responsible for providing them with the level 
of support, positive working environments, and care commensurate with 
their personal sacrifices. Navy has implemented a continuum of harm 
prevention strategy to provide coordinated and complementary efforts to 
improve sailor resilience and readiness--including sexual assault 
prevention and suicide prevention. This strategy recognizes the common 
factors in destructive behaviors, such as alcohol abuse. It recognizes 
the value of fostering a positive command climate, the need for peer-
to-peer intervention training, and the importance of addressing all 
wrong behaviors, even those that seem relatively minor. Navy's 21st 
Century sailor Office integrates, under one umbrella, the programs that 
sustain and instill resilience and fitness in sailors. The 21st Century 
Sailor Office provides a focusing lens and overarching policy support 
to these critical programs and is embarked on a comprehensive campaign 
to engage the fleet and expand resiliency programs. We are continuing 
our efforts to promote a healthy, efficient, and professional work 
environment, continuing outstanding support of families, and fulfilling 
our promise to aid servicemembers that transition to civilian life.
                   iii. force readiness and manning:
    We continue our efforts to maintain required manning and readiness 
levels by attracting highly qualified men and women to serve in the 
most effective and technologically advanced naval force in history. We 
will develop, train and educate a ready force to deliver the right 
person with the right skills in the right job at the right time--a 
metric we call ``fit.'' We are also taking deliberate steps to forecast 
future operating environments and ensure we are prepared to meet 
emerging challenges. These plans support our goals to retain our most 
talented sailors and maintain readiness to meet fleet requirements. To 
remain operationally effective, we will deliver technical training and 
advanced education throughout a career.
    Fleet Manning: We continue to make considerable progress in 
improving fleet-manning and warfighting readiness. In fiscal year 2015, 
we reduced the number of gaps at sea to approximately 1,800, a 
reduction of 3,900 gaps. We filled 98.7 percent of all enlisted sea 
duty billets; Sailors in the proper seniority and possessing the 
appropriate skill level filled 91 percent of those same billets. In 
support of the Optimized Fleet Response Plan, we will man deploying 
units earlier in the training cycle to ensure a more cohesive team upon 
deployment. We are meeting these objectives by modernizing our enlisted 
distribution systems with a Billet-Based Distribution (BBD) capability 
that will modernize our legacy distribution programs, and which will 
provide a more detailed enlisted demand signal to more efficiently, and 
accurately, meet enlisted manning requirements.
    Retention: We continue to monitor retention behavior closely across 
the Navy. End of fiscal year 2015 enlisted retention was 98 percent of 
goal for sailors with up to six years of service, 99 percent of goal 
for sailors with 6-10 years of service, and 105 percent of goal for 
sailors with 10-14 years of service. While we anticipate meeting 
aggregate enlisted retention goals in fiscal year 2016, we continue to 
experience retention challenges and inventory shortfalls within some 
communities, such as Information Warfare, Nuclear Field, Special 
Warfare, and Advanced Electronics. Targeting junior enlisted personnel 
possessing these unique skills with increased incentives will remain 
critical for achieving required retention and sustaining a healthy 
force into the future. After experiencing strong retention in fiscal 
year 2014 and fiscal year 2015, current economic indicators suggest a 
greater pull from the civilian workforce for our top talent over the 
next couple of years. Getting ahead of this impending change requires 
focused targeting of bonus programs, particularly Selective 
Reenlistment Bonuses among high-demand critical skill sets and less 
technical skill sets that an improving economy may adversely affect. We 
must focus on retaining sailors in the right mix of ratings and pay 
grades to position Navy to meet future mission requirements.
    Continuum of Service initiatives permit us to retain valuable 
skills and experience of sailors transitioning from Active Duty to the 
Reserve Component, while also providing opportunities for Reserve 
Component personnel with certain skills to reduce shortfalls in the 
Active component. We offer some qualified Reserve Component sailors the 
opportunity to convert to permanent Active Duty careers and compete for 
advancement while on Active Duty, and we continue to grant High-Year 
Tenure waiver requests for sailors who fill critical gaps at sea.
    Officer continuation remains at historically high levels due, in 
large part, to targeted incentive pays and bonuses, improved mentoring, 
recent efforts to add flexible career options, and increased emphasis 
on life-work integration initiatives. However, specific Active Duty 
control-grade officer inventory shortfalls remain in select 
Unrestricted Line, Restricted Line and Staff Corps communities, 
including Aviation and nuclear-trained Surface Warfare Officers. We are 
actively attacking these shortfalls through targeted incentives and 
other retention tools.
    Recruiting (Enlisted): The sailors we have in the Navy today are 
the best we have ever seen. Our success is largely due to inclusive 
diversity recruiting practices and Science, Technology, Engineering, 
and Mathematics (STEM) outreach. Strategic partnerships with STEM-
related affinity groups, and engagements with high school and college 
students, have heightened awareness of Navy service as a highly 
desirable career option, inspired the next generation of technically 
capable sailors, developed centers of influence that contribute to 
recruiting efforts, and further diversified the Navy. We remain 
vigilant as the unemployment rate drops below six percent, mindful of 
our limited marketing and advertising resources, and with an eye toward 
our ability to continue meeting all goals in an improving economy.
    Recruiting (Officer): In fiscal year 2015, we achieved our Active 
component general officer recruiting goal. We continue to face 
challenges in achieving Reserve component general and medical officer 
recruiting goals, in part, due to strong Active Duty retention that 
significantly reduced the prior service pool--the source of most 
Reserve component accessions. In addition to the medical community, we 
face Reserve component challenges in aviation, Naval Special Warfare, 
Intelligence, and the Judge Advocate General Corps.
    We continue to see significant interest in opportunities to serve 
through the United States Naval Academy (USNA) and Navy Reserve Officer 
Training Corps (NROTC), with the number of highly qualified applicants 
vastly exceeding the number of available appointments. All our officer 
accession sources continue to attract the finest applicants and 
graduate technically competent leaders for commissioned naval service.
    Training: A pillar of our sailor 2025 initiative, which we call 
``Ready Relevant Learning'', transforms our legacy training 
architecture into an agile continuum of learning that supports an 
increasingly complex Fleet and our future sailors. While our current 
training is working, we see changes that will stress its continued 
effectiveness. First, the combination of emerging threats, complex 
missions and new technologies demand a growing number of recruits with 
high aptitude who can learn faster on the job and master new skills 
over a career. Second, in order to attract a diverse and educated work 
force, we must provide training opportunities delivered at the point of 
need, when and where a sailor is ready to learn. Finally, we must be 
more efficient with a sailor's time by delivering training when they 
have the context and experience to apply the learned skills. Ready 
Relevant Learning delivers the right training at the right time--
continual training in a mobile, modular environment to help ensure that 
knowledge is refreshed, renewed, and relevant to changing platforms or 
technologies. This provides Navy with the best-qualified and skilled 
personnel through resourcing efficiency and at a reduced time-to-train.
    Education: Education offers an asymmetric advantage in developing 
leaders and instilling in them attributes necessary to innovate, adapt, 
and succeed today and in the future. As a strategic investment that 
enhances force effectiveness and supports fleet global operational 
excellence and dominance, education provides sailors with relevant 
knowledge, skills, and abilities; ties educational opportunities to 
leader development; and supports a career continuum framework of 
technical experts, joint warfighters and strategic leaders. Our 
education strategy explicitly links resource allocation to education 
investments in the highest priorities supporting operational primacy, 
and encompasses both on-duty and voluntary off-duty education 
opportunities. The development of critical thinking skills and problem-
solving in complex environments are key components in achieving our 
education goals.
    Professional Military Education: U.S. Naval Postgraduate School 
(NPS) and U.S. Naval War College (NWC) are designed to develop a 
resilient, knowledgeable and adaptable force. Both institutions develop 
members to meet future intellectual demands, and the diverse mix of 
Navy, other service, civilian and international students help build 
long-term relationships. NPS offers resident and non-resident degree 
and non-degree programs that develop a range of critical skills 
essential to winning in combat, engaging in peace and building the Navy 
of the future. NWC provides resident and non-resident Navy-specific 
Professional Military Education (PME) with embedded Joint Professional 
Military Education (JPME) that produces strategically-minded, 
critically thinking leaders who are skilled in maritime and joint 
planning and operations, and who are prepared to meet the demands of 
the uncertain and dynamic contemporary international security 
environment. Both institutions develop members of the force for the 
intellectual demands they will encounter, and assist in building key 
relationships through a diverse mix of students. The Navy Leadership 
and Ethics Center (NLEC), established at NWC in 2014, maintains 
responsibility for Leadership and Ethics development across the Navy. 
By charting the course for Navy leader development, NLEC sets the 
standard within the naval profession of arms. We demand our leaders to 
have self-reliance and independence, humility and integrity, discipline 
and resourcefulness, and trust and confidence. Leaders at all levels of 
our Navy must set the example by providing the purpose, direction, and 
motivation essential for successful mission accomplishment.
    Voluntary Education/Tuition Assistance: Navy voluntary education 
provides excellent opportunities for academic, technical, intellectual, 
personal, and professional development of sailors and contributes to 
their overall readiness as well as to the quality of life for sailors 
and their families. The Tuition Assistance (TA) Program remains a top 
priority in support of Navy's overarching Education Strategy, funding 
100 percent of demand in fiscal year 2015 for sailors pursuing 
education while serving on Active Duty. Participants are encouraged to 
pursue education with a clear path to a degree or credential, and are 
expected to complete in-rate qualifications, exhibit Navy core values, 
maintain physical fitness, while achieving their education goals.
    The Post-9/11 GI Bill is a U.S. Department of Veterans Affairs (VA) 
education benefit for qualifying veterans, Active Duty, and Selected 
Reservists. Members may transfer this benefit to eligible family 
members in exchange for a service obligation. The ability to transfer 
unused portions of the Post-9/11 GI Bill to dependents is a highly 
recognized benefit and contributes to the morale of our force.
    Credentialing and Licensure: The Navy Credentialing Program and 
Navy Credentialing Opportunities On-Line (COOL) website integrate 
closely with other Navy, Department of Defense, and Department of Labor 
(DoL) programs, including Defense Activity for Non-Traditional 
Education (DANTES) credentialing program, United Services Military 
Apprenticeship Program (USMAP), and Department of Veterans Affairs (VA) 
GI Bill, to help sailors meet license and credentialing requirements.
    The Navy and Marine Corps Credentialing Opportunities On-Line 
programs recently merged to form the Department of the Navy (DON) COOL 
website, which averages 4.2 million hits per month and benefits both 
sailors and marines. DON COOL offers the opportunity to earn civilian 
certifications and licenses corresponding to their Navy ratings, 
designators, collateral duties, and out-of-rating assignments. Earning 
credentials assists sailors in successfully transitioning into the 
civilian workforce. Every Navy occupation has at least one professional 
credential available and we currently pay for over 14,000 credentials 
per year awarded to about 7,000 sailors.
                          iv. force management
    We will shape the force to ensure we excel in the operational 
environment of today and tomorrow and remain within fiscal bounds. We 
want to retain our best and brightest--the Personnel System 
Modernization pillar of the sailor 2025 initiative will enable us to 
expand career choice and flexibility and better recognize sustained 
superior performance. While independent of the Department of Defense's 
Force of the Future initiatives, both create policies and career 
opportunities to attract and retain a highly talented workforce. The 
Enriched Culture pillar of sailor 2025 also seeks to create an 
inclusive culture to attract a force that reflects the society we 
serve, and builds toward a more family-friendly life-work balance, with 
the enablers to allow sailors to stay Navy. Effective force management 
includes continued growth of efforts to leverage diversity and support 
our women in service for a mission ready fleet.
    End Strength: The President's fiscal year 2017 budget request 
supports Active end strength of 322,900 and selected Reserve end 
strength of 58,000. We have maximized efficiencies within the military 
billet base and seek to stabilize Active component end strength at 
approximately 323,100 Active, and 58,900 Selected Reserve by 2021, as 
the appropriate end strength for Navy's projected force structure. We 
are carefully monitoring force management efforts to ensure that we 
meet end strength requirements within fiscal constraints, as we 
continue to fine tune the health of the force.
    In the current environment, the demand for Navy operating Forces 
and Navy Active component manpower, capability and capacity are not 
abating. In many cases, there have been significant increases in demand 
for Naval Forces. We strive to continue to meet fleet demand, while 
delivering proper force balance/mix, and improving Sea/Shore balance. 
Ready Reserve sailors are Navy's primary source of mobilization 
manpower and surge operational support. Maintaining the appropriate 
levels and types of sailors in the Reserve Force allows for the needed 
operational capacities and strategic depth to meet Total Force 
requirements. Our flexibility, responsiveness, and ability to serve 
across a wide spectrum of operations enhance the Navy Total Force.
    Compensation: We demand much of our sailors, and in return, they 
receive appropriate compensation. Over the past 13 years, pay raises, 
elimination of out-of-pocket housing expenses, TRICARE for Life and 
enactment of the post-9/11 GI Bill, have yielded the most generous 
total military compensation package in history and compares favorably 
with the private sector. This has allowed the Navy to continue to 
succeed in recruiting and retaining the high quality, All-Volunteer 
Force, despite over a decade at war.
    However, in the current fiscally constrained environment, reducing 
personnel costs is essential to achieve a proper balance of 
compensating the force, with costs for training and equipping them. We 
expect to meet recruiting and retention requirements, despite slowed 
growth in regular military compensation, as we continue judiciously 
applying targeted special and incentive pays.
    Women in Service: America's All-Volunteer Force requires that the 
U.S. military have access to every talented American who can add 
strength to the force. To be effective in our mission against today's 
and tomorrow's threats, we have to be postured to benefit from the best 
people our nation has to offer. For that reason, the Navy did not 
request any exemptions to the Department of Defense policy on opening 
combat positions to women; all Navy occupations, including previously 
closed Sea, Air, Land (SEAL) and Special Warfare Combatant-Craft 
Crewmen (SWCC), are open to women.
    We believe that everyone should be offered the chance to serve in 
any occupation in the Navy--regardless of gender--as long as they are 
able to meet the standard. With women representing 18 percent of our 
Navy force, they will become an even more critical part of our 
warfighting team, serving side-by-side in the most challenging combat 
roles. The Navy has successfully integrated women into aviation, 
surface ships, submarines, and riverine Forces, as well as other small, 
high-risk operations teams like Explosive Ordinance Disposal and Navy 
Divers. We know how to integrate--it starts on day one of training with 
leadership reinforcement of team building behaviors. Our goal is to 
ensure that the best-qualified and most capable sailors carry out our 
mission. The Navy is the best we have ever seen. We aim to make it even 
better.
    Leveraging Diversity: As the world becomes increasingly globalized 
and our nation more diverse, our ability to attract, recruit, develop, 
employ, and retain talent and experience from the entire population is 
essential to mission success. The 2010 U.S. Census projects that by 
2020, racial/ethnic groups, other than white non-Hispanics, will 
comprise over 40 percent of the recruiting market, with increasing 
minority representation over time. Navy's ability to access and retain 
the talents of every component group in our society has a direct impact 
on mission success at home and abroad. We want men and women who are 
right for the right job, regardless of race, gender, sexual 
orientation, creed, or hometown. It is important that we not think, 
act, and look the same. The strength of our service is our diversity--
it is our asymmetric advantage.
                          v. force resiliency
    Under the Enriched Culture pillar of sailor 2025, we continue to 
focus efforts on improving sailor toughness while promoting a culture 
of respect and total fitness to prevent destructive behaviors. Our 21st 
Century sailor initiatives make clear the value we place on the well-
being, safety, and health of sailors. We will create and maintain a 
positive command climate where sailors have access to the services they 
need from the Navy. Most importantly, we will continue to care for our 
sailors and their families--the foundation on which our Navy is built.
    This year, we launched our ``Chart the Course'' training campaign 
to emphasize and reinforce positive behaviors, personal responsibility 
and peer support. This training uses scenario-based videos and 
facilitator led discussions to provide engaging, interactive discussion 
among peer groups. Among many topics included in the training are 
sexual assault and harassment, alcohol awareness, and retaliation 
against sailors who report or are victims of destructive behaviors. Our 
best sailors want to be held accountable, and this training reinforces 
that.
    Suicide Prevention and Operational Stress Control: Combating 
suicide is an all hands evolution, all the time. Suicide Prevention 
efforts empower sailors to be psychologically healthy, adaptive, and 
mission ready by providing information, training, tools, and policies 
to reduce suicide risk. A comprehensive four-prong approach envelopes 
training, intervention, response, and reporting, to ensure a support 
network and skills needed to thrive, not just survive. Navy Operational 
Stress Control is the foundation of our suicide prevention initiatives, 
supporting the fleet with resources to navigate the stressors and 
challenges commonly associated with Navy life, to help sailors build 
resilience and maintain personal readiness. We are currently managing 
six Operational Stress Control mobile training teams, which deliver 
resiliency lessons to ships, squadrons, and submarines before overseas 
deployment. We also hired resiliency counselors to deploy with our 
largest concentration of sailors onboard `big deck' ships. These 
counselors are civilian, credentialed, clinical professionals who go to 
sea alongside extant teams of chaplains, behavioral psychologists and 
other medical professionals who proactively assist sailors each day. In 
addition, we have another program of credentialed, clinical, civilian 
counselors that make up the Psychological Health Outreach Program 
(PHOP) that ensures our Navy Reserve sailors have full access to 
appropriate psychological health care services, to increase resilience, 
and to facilitate recovery, which is essential to maintaining a ready 
military force. We want to create a Navy culture that rewards 
preventative actions, recognizes seeking help as a sign of strength, 
and reintegrates those treated for stress-related issues back into the 
command.
    Sexual Assault Prevention and Response (SAPR): We are committed to 
reducing, with the goal of eliminating, sexual assault from within our 
ranks. In fiscal year 2015, we continued efforts at creating a 
culturally aware and educated sailor in an environment intolerant of 
sexual assault, supported by a well-defined prevention, reporting, 
investigation, military justice, and victim advocacy program. This 
year, the Chief of Naval Operations announced five new initiatives to 
advance our efforts of eradicating sexual assault in the Navy. They 
include:

    1.  A Shipmate is not a ``bystander.'' If you see something wrong, 
do something right.
    2.  Establish Counselors within the Fleet and Family Support 
Centers as a resource for victim support.
    3.  Improve our personnel management practices and procedures, 
following a sexual assault experience.
    4.  Continue our efforts to educate sailors and reduce alcohol 
abuse in the Navy, particularly binge drinking.
    5.  Better utilize technology to remove cultural barriers and 
stigma associated with reporting a sexual assault or seeking advice and 
counsel.

    In addition to these initiatives, Navy is part of a team effort 
that includes the other Services to attack retaliation by better 
understanding the prevalence of the types of retaliatory behavior, 
including reprisal, ostracism, and maltreatment.
    Command Climate: Every sailor deserves to work in an environment 
free of discrimination, sexual harassment, fraternization, and hazing. 
Sustaining a good commend climate is vital to achieving and maintaining 
mission readiness and is an essential element of commander 
accountability. Yet providing a positive command climate in the Navy is 
not only the commander's responsibility, but also the responsibility of 
every sailor within that command. Sailors are trained and encouraged to 
intervene where good order and discipline is breaking down, giving them 
ownership of the type of environment in which they want to work.
    Alcohol and Substance Abuse Prevention: Navy Alcohol and Drug Abuse 
Prevention (NADAP) programs support enhanced Fleet, Family, and 
Personal Readiness through aggressive alcohol abuse and drug abuse 
prevention. Substance abuse puts lives and missions at risk, undercuts 
unit readiness and morale, and is inconsistent with Navy's ethos and 
core values of Honor, Courage and Commitment.
    The ``Keep What You've Earned'' campaign seeks to encourage 
responsible drinking among sailors by celebrating the achievements in 
their Navy careers. Through recognition of their hard work and 
dedication, sailors see their accomplishments and how much they have to 
lose if they make poor choices.
    Navy's policy on drug abuse is ``zero tolerance.'' Detection, 
deterrence, and prevention are key elements in combating drug abuse. We 
recently expanded our urinalysis program to detect prescription drugs 
and synthetic drugs. As a result, detections of wrongful prescription 
drug use have climbed, while positive synthetic drug results have 
declined. In response, Navy launched the ``Prescription for Discharge'' 
campaign to educate sailors on the proper use of prescription drugs. 
Our goal is to provide sailors with the support network, health care, 
and skills needed to overcome adversity and make responsible decisions.
    Fleet and Family Support: Fleet and Family Support programs are a 
critical component in enhancing mission readiness and Navy's 21st 
Century Sailor initiative. Family support programs assist commanding 
officers, sailors and their families to manage the unique demands of 
the military lifestyle, balancing military commitment with family life. 
Navy Fleet and Family Support Centers ensure military families are 
informed, healthy, and resilient through robust programs to include 
relocation assistance, non-medical and family counseling, personal and 
family life education, personal financial management services, 
information and referral services, deployment assistance, domestic 
violence prevention and response services, exceptional family member 
liaison, emergency family assistance and transition assistance. Navy 
child and youth programs provide the highest quality childcare, ranked 
number one in the nation for quality standards and oversight. Navy 
morale, welfare, and recreation programs provide core fitness and 
recreation for sailors and their families to enhance quality of life 
and encourage life-long positive and healthy leisure pursuits. As part 
of the Navy Talent Management Initiative, we are extending our hours of 
operation at fitness centers and child development centers to retain 
our most talented sailors and maintain readiness to meet fleet 
requirements.
    Transition Goals, Plans Success (Transition GPS): Transition GPS 
replaced the 20-year-old Transition Assistance Program (TAP). The 
development and implementation of this initiative to extend the 
continuum of care to retirement, and well beyond, was a collective 
effort involving all military services. Created by the Office of the 
Secretary of Defense, with full participation by the Department of 
Veteran's Affairs, Department of Labor, and the Small Business 
Administration, Transition GPS increases sailors' abilities to overcome 
challenges they may face in pursuit of their chosen civilian career 
path. Participation is mandatory for all Active and most Reserve 
component members separating after having served 180 days or more of 
continuous Active Duty. Commands are required to document participation 
and completion of core elements via the Defense Manpower Data Center 
on-line tool.
                             vi. conclusion
    Our mission remains to attract, recruit, develop, assign, and 
retain a highly-skilled workforce for the Navy. The President's fiscal 
year 2017 budget request supports the critical programs that will 
continue to support Navy MPT&E programs, and support programs that 
bolster sailors and their families and increase their resilience. I 
look forward to working with you as we continue to shape the Navy to 
meet current and emerging requirements. On behalf of the men and women 
of the United States Navy, and their families, thank you for your 
sustained commitment and unwavering support.

STATEMENT OF LIEUTENANT GENERAL MARK A. BRILAKIS, USMC, DEPUTY 
  COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES 
                          MARINE CORPS

    General Brilakis. Chairman King--excuse me--Chairman 
Graham, Ranking Member Gillibrand, Senator King--sir, I just 
did not want to leave you out.
    [Laughter.]
    General Brilakis. It is my privilege to appear before you 
today to discuss your marines. Marines are the foundation of 
the Marine Corps. They are the Corps' most sacred resource and 
always will be. Marines are recruited, educated, trained, and 
retained in order to answer the Nation's call to fight and to 
win. Everything we do in the Marine Corps must contribute to 
their readiness and combat effectiveness.
    The Marine Corps is in the final year of our drawdown. We 
have accomplished this drawdown primarily using voluntary 
separation authorities, and we appreciate the support of 
Congress and especially this subcommittee for those 
flexibilities that you have given us.
    Overall, recruiting and retention are strong. We are 
bringing in and keeping young men and women of character whose 
past service and future potential makes the Corps stronger.
    These marines are supported by our civilian workforce, 
approximately 95 percent of whom do not work in Washington. 
They work on our bases, stations, depots, and installations. 
They serve alongside our marines throughout the world in every 
occupation and at every level. Our civilians have truly showed 
themselves to be semper fidelis as they keep our marines and 
their families forefront in their actions and efforts. For that 
they have my personal admiration.
    It is imperative that we continue to keep faith with our 
military and civilian workforce, else we risk losing enormously 
talented and dedicated professionals. By ensuring that we take 
care of all marines and their families and our civilian 
personnel, we fulfill our responsibility to keep faith with the 
honor, courage, and commitment they have given to this Nation.
    Thank you very much for the opportunity to present this 
testimony. I look forward to answering your questions.
    [The prepared statement of General Brilakis follows:]

       Prepared Statement by Lieutenant General Mark A. Brilakis
                              introduction
    Chairman Graham, Ranking Member Gillibrand, and distinguished 
Members of the Subcommittee, it is my privilege to appear before you 
today to provide an overview on Marine Corps personnel.
    Since our founding in 1775, Marines have answered our Nation's 
call, faithfully serving the American people and maintaining a world 
class standard of military excellence. Your Marine Corps is, and will 
continue to be, our Nation's expeditionary force in readiness. We will 
be ready to rapidly respond to crises around the Globe to ensure the 
continued security of the American people and to protect the interests 
that underpin our Nation. Marines will be always faithful to the trust 
which the American people have vested in them.
                               our people
    Marines are the foundation of the Marine Corps. They are the Corps' 
most sacred resource, and always will be. Your marines are recruited, 
educated, trained, and retained to win our Nation's battles. They are 
smart, resilient, fit, disciplined, and able to overcome adversity. 
Recruiting high quality youth and retaining those whose past service 
and future potential makes the Corps stronger is our highest priority. 
Everything we do in the Marine Corps must contribute to their combat 
readiness and combat effectiveness.
                              end strength
    Your Marine Corps is in its final year of drawing down Active 
component end strength from a high of 202,000 in 2010 to a steady-state 
strength of 182,000. We have accomplished this drawdown using primarily 
the voluntary separation authorities you have granted us. We appreciate 
the support of Congress, especially this Subcommittee, for those 
flexibilities. They have been instrumental in enabling us to ``keep 
faith'' with our marines. We have used only a few targeted involuntary 
measures and only for individuals who were eligible for early 
retirement. We do not foresee needing any additional force shaping 
authorities.
    Even though our end strength goals plan for a steady-state 182,000 
force, most of the force shaping authorities you have given us will 
remain relevant and utilized. These measures will continue to help us 
right-size MOSs (Military Occupational Specialities), reduce promotion 
pin-on times, and eliminate grade stagnation.
                         marine corps reserves
    The Marine Corps Reserve is nearing completion of its drawdown. The 
plan is to reduce Reserve end strength to 38,500 marines by fiscal year 
2017; we foresee no challenges in meeting this fiscal year 2017 goal. 
In fact, the Marine Corps Reserve has grown stronger despite the end 
strength reduction.
    Our Reserve unit personnel readiness stands at its highest level in 
a generation. Higher enlisted retention rates have been integral to our 
success. Retention has increased by 3-percentage points over the past 
five years--that equates to approximately 250 more marines per year. 
Better retention has helped fix many of our staffing shortages across 
Marine Forces Reserve. For example, our Staff NCO (non-comissioned 
officers) manning has increased from 66 percent in September 2013 to 82 
percent as of January 2016.
    While these are welcome and positive trends, we always look for 
ways to improve personnel readiness. We have implemented a 
comprehensive manpower management plan to provide full service support 
to our Reserve officers and Staff NCOs for their career management. 
Beginning in fiscal year 2017, we will expand this plan to provide 
full-service manpower management support for the entire Selected 
Reserve. This is a talent management initiative that will help our 
NCOs, Staff NCOs and officers transition between commands and provide 
our Active and Reserve units with the ``right marine, at the right 
place, at the right time.''
    Our Reserve officer staffing is healthy as well. In fact, it 
reached a record high of 88 percent in February 2016. This increased 
staffing has been driven by two major sources: officers transitioning 
from the Active Component and the Reserve Officer Commissioning 
Program. Bonuses and incentives have been effective in attracting more 
marines from the Active Component. For instance, our Aviator Retention 
Pay incentive has had a direct and positive impact on our squadron 
staffing rates, which have increased by 14 percent since 2013. 
Additionally, the Reserve Officer Commissioning Program has produced a 
total of 1,107 lieutenants for the Marine Corps since its creation in 
2006. As a result, our ground company grade officer strength has 
increased from 21 percent in 2013, to 90 percent today.
                               recruiting
    All recruiting efforts for the Marine Corps (officer, enlisted, 
regular, Reserve, and prior-service) fall under the purview of the 
Marine Corps Recruiting Command. Operationally, this provides us with 
tremendous flexibility and unity of command, facilitating all efforts 
to meet accession requirements. The Marine Corps applies, evaluates, 
and refines proven, time-tested officer and enlisted recruiting 
policies and procedures that enforce and maintain high mental, moral, 
and physical standards of our applicants, such as SAT (Scholastic 
Aptitude Test), ACT (American College Testing), and ASVAB (Armed 
Services Vocational Aptitude Battery) testing; pre-enlistment physical 
screening and fitness tests; and background checks and pre-enlistment 
screening.
    Last fiscal year, we successfully achieved all enlisted and officer 
recruiting goals for both the Active and Reserve Components, and 
completed the year with a fiscal year 2016 start pool of nearly 55 
percent.
    For fiscal year 2016, our enlisted mission is 30,500 regulars 
(active component) and 5,105 reservists. We expect to achieve our 
annual recruiting `shipping' mission (i.e. new accessions sent to 
recruit training) and quality goals. The Department of Defense requires 
90 percent of enlistees to have a high school diploma or equivalent; 
last year, the Marine Corps achieved 99.9 percent and expects to be at 
or near this level for fiscal year 2016.
    Our officer accession mission for fiscal year 2016 is 1,500 Active 
Duty and 90 Reserve officers. We are well on our way toward these goals 
and foresee no issues meeting them.
    Incentives, such as our enlistment bonuses, allow us to ship new 
recruits at critical times to balance recruit loads at the depots and 
meet school seat requirements. It is important to note that only eight 
percent of new Marine Corps recruits receive an enlistment bonus. We 
appreciate Congress' support for these priority programs that assist 
our keeping high quality marines.
    To meet future challenges in the current recruiting environment, it 
is imperative that we maintain our high standards both for our 
recruiters and those who volunteer to serve in our Corps. Recruiting 
quality youth ultimately translates into higher performance, reduced 
attrition, increased retention, and improved readiness for the 
operating Forces. Our actions, commitment, and investments today in 
recruiting ensure a high state of readiness in our Corps tomorrow.
                               retention
    As the Marine Corps draws down to a steady-state 182,000 force, 
competition for retention will continue. We will retain the very best 
marines capable of fulfilling our leadership and operational needs. 
This is accomplished through a competitive career designation process 
for officers and a thorough evaluation process for enlisted marines, 
both of which are designed to measure, analyze, and compare our 
marines' performance and accomplishments.
    Marine Corps retention models, systems, policies, and processes 
emphasize consistency of leadership, personnel stability, and sustained 
readiness across the force. Officer career designation incorporates a 
board system that enables leadership to examine officer records and 
accomplishments. After designation, the promotion process continues the 
evaluation of marine officers. It is a primary tool by which retention 
of only the best and most qualified is achieved.
    Tiered rating system for enlisted marines takes into account a 
number of quantifiable performance factors and includes both immediate 
and higher leadership input. It helps to set achievable goals for 
marines as they compete for retention. After initial reenlistment, the 
evaluation and continued retention of high quality enlisted marines is 
supported by a detailed and continual performance evaluation system 
which is fully integrated with the promotion process. Those marines 
with the best proven records are promoted and retained.
    Incentive pays remain critical to our retention effort, allowing 
the Marine Corps to fill hard to recruit positions, such as cyber 
security technicians and counter intelligence specialists. Similarly, 
Selective Reenlistment Bonuses (SRBs) allow us to shape our career 
force. SRBs target critical MOSs and supports lateral movement of 
marines to these MOSs.
                        marine corps integration
    As our Commandant recently testified, executing a successful gender 
integration plan will be a key to sustaining readiness, as well as 
ensuring we give all marines the greatest opportunity to succeed as 
valued members of the Corps. The issue of gender integration is not 
about ``women in combat,'' since women in our Corps have clearly 
demonstrated their outstanding service in combat, most recently in Iraq 
and Afghanistan. Our current efforts are about placing the best and 
most fully qualified marines where they can succeed and make the 
strongest contribution to the missions the Marine Corps executes as the 
Nation's expeditionary force-in-readiness.
    During the last two years, the Marine Corps undertook a 
comprehensive research effort to better understand the impacts of 
gender integration on combat effectiveness and health of the force. Our 
research analyzed the performance of individual marines in our formal 
MOS-producing ground combat arms courses. As a result, we developed, 
refined, and implemented improved occupation-specific physical 
standards and the associated screening tools for obtaining these MOSs.
    But the individual is only one aspect. The Marine Corps fights in 
teams--as units--in an arena where strength and speed win and second 
place is truly an unforgiving prize. Therefore, we studied both gender 
integrated and non-integrated units, operating as squads, teams, and 
crews; and we did this under live-fire conditions that most closely 
replicate actual ground combat conditions. This is the first time this 
level of research has been conducted. Our study was peer-reviewed by 
three well-respected, independent organizations to ensure diversity and 
depth of feedback regarding the research methodology. The female 
volunteers for this study were quality marines in every respect; 
physically, they were well above the average female marine in the 
fleet. The most significant findings were the large disparity in 
performance during movement under load--both marching and firing 
weapons.
    Currently, the Marine Corps is stepping out smartly to facilitate 
the integration of all qualified marines into previously closed ground 
combat MOSs and units. Integration will be executed in a well-planned 
and responsible manner. The framework of our research was--and 
continues to be--viewed through three interrelated lenses: first and 
foremost, the combat effectiveness of our marine units; second, the 
health and welfare of our individual marines; and finally, with an eye 
toward the best talent management of our total force--both today and 
into the future. I continue to have concerns in all three areas, but am 
confident that our assessment and subsequent adjustments during 
implementation will help us find the best way forward. Our readiness 
and combat effectiveness will remain the guiding focus as we implement 
our plan.
                            civilian marines
    Our civilian marines support the mission and daily functions of the 
Marine Corps and are an integral part of our Total Force. They 
exemplify our core values; they embrace esprit de corps, teamwork, and 
pride in belonging to our Nation's Corps of Marines. Serving alongside 
our marines throughout the world, in every occupation and at every 
level, our civilian appropriated funded workforce remains by far the 
leanest of all services, with a ratio of one civilian to every ten 
Active Duty marines.
    Approximately 95 percent of our civilians do not work in the 
Washington, DC, region. The vast majority reside at our bases, 
stations, depots, and installations. Sixty-eight percent are veterans 
who have chosen to continue to serve our Nation; of those, thirteen 
percent are disabled veterans. Our civilian non-appropriated funded 
workforce steadfastly continues to provide vital support to our 
marines, Reserve marines, their families, and our wounded, ill and 
injured.
    Already lean, we are in the midst of reducing our 17,500 civilian 
marine appropriated fund workforce to 15,800 by fiscal year 2017, and 
are working to implement the Management Headquarters Activities 
provision in the fiscal year 2016 NDAA. We are actively seeking ways to 
achieve these goals through attrition and various voluntary workforce-
shaping flexibilities; our intent is not to implement any service-wide 
reduction in force (RIF).
    The last few years have not been easy on our civilian marines, with 
limited pay raises and furloughs or threat of furloughs several times. 
Throughout all of this uncertainty, our civilians have truly showed 
themselves as Semper Fidelis as they kept our marines and their 
families in the forefront. For that, they have my personal admiration. 
During these challenging times, it is imperative that we continue to 
keep faith with our workforce, else we risk losing enormously talented 
and dedicated professionals. Our civilian labor represents less than 
five percent of the Marine Corps' total O&M budget, demonstrating that 
our ``best value'' for the defense dollar applies to our civilians as 
well as our marines.
                     force of the future initiative
    The Marine Corps is in the midst of the Department of Defense Force 
of the Future Initiative. The initiative touches on nearly all aspects 
of military and civilian personnel systems. In many cases, the changes 
driven by this initiative codifies what has been existing service 
practices. In all cases, we continue to advocate for service 
flexibility which enables the Marine Corps to enhance our human 
resource processes without impacting our ability to execute title 10 
responsibilities.
               taking care of marines and their families
    Taking care of marines and their families is a key element of 
overall readiness and combat effectiveness. The adage ``we recruit 
marines, we retain families'' remains as true today as ever. Our 
comprehensive package of services seeks the holistic fitness and 
readiness of our marines and families--body, mind, spirit, and social.
                          casualty assistance
    The most solemn care we can provide to our marine families is to 
care for our fallen marines and assist families at every step. We 
strive to do just that. Despite the drawdown from combat operations, 
casualties are still occurring daily. Even while not in a combat 
theater, the mass casualty incidents in Nepal, the Chattanooga 
shooting, and training incidents in Florida and Hawaii prove over and 
over again that being our Nation's expeditionary force in readiness has 
its share of risks.
    Our casualty assistance program is committed to ensuring the 
families of our fallen are always treated with the utmost compassion, 
dignity, and honor. Our uniformed Casualty Assistance Calls Officers 
(CACO) make in-person notifications to the Next-Of-Kin (NOK), often 
with a Chaplain, for all deceased marines; telephone notifications are 
made for the wounded, ill, and injured. When warranted, family members 
may travel to bedside via Invitational Travel Orders. Following 
notification, CACOs assist the NOK with burial arrangements, 
applications for benefits and entitlements, contact with benevolent and 
philanthropic organizations, obtaining reports of investigation, and 
other pertinent issues.
    The Marine Corps Long Term Assistance Program (LTAP) is a permanent 
resource of the NOK, ensuring they receive sustained, quality 
assistance from the Marine Corps. This includes NOK being contacted 
from a representative from LTAP approximately 60 days and at one year 
mark following the death to identify and resolve any persistent issues 
and to assist and attend to the needs of Marine Corps Survivors 
indefinitely. LTAP representatives also routinely attend quarterly DOD/
VA Survivor Forums and TAPS National Survivor and Good Grief Camps.
                          wounded warrior care
    The Marine Corps' Wounded Warrior Regiment (WWR) continues to 
function as a central pillar of our pledge to ``keep faith'' with those 
who have served. The WWR will be an enduring need because marines 
supporting operations in or near combat zones will continue to need 
care management; instances of PTS (post-traumatic stress disorder) and 
TBI (traumatic brain injury) continue to increase due to delayed onset 
and as marines often delay seeking help; and severe non-combat 
illnesses, such as cancer, do not end with combat.
    Our WWR remains committed to providing comprehensive recovery care. 
For the Marine Corps, recovery care is not a process. Care coordinated 
through the WWR is soundly based upon an authentic relationship between 
care providers and the marine and his or her family members. This bond 
allows all parties to be vested in a common purpose: to provide our 
Nation's wounded, ill and injured (WII) marines the care and support 
needed for successful recovery and to ensure they and their families 
transition to meaningful, productive new roles.
    Since our WWR was established in 2007, thousands of WII marines and 
family members have benefitted from its care coordination capabilities. 
These capabilities include Recovery Care Coordinators to help WII 
marines develop and execute Comprehensive Recovery Plans, District 
Injured Support Coordinators, the Marine Corps' representatives for WII 
marines in their civilian communities, who can be at a WII marines 
doorstep in a matter of hours, a liaison to the Department of Veterans 
Affairs to enhance coordination between the organizations, and the 
Sergeant Merlin German Wounded Warrior Call Center to conduct outreach 
to WII marines and receive calls for assistance. Our call center 
conducts an average of 10,500 outreach calls per month and receives an 
average of 1,100 incoming calls for assistance per month. The call 
center can also connect a marine directly to a medical professional who 
may direct or advocate for behavioral health/medical care.
    In sum, WII marines and their family members receive customized, 
caring support, based upon their assessed needs, from the point of 
injury or illness, through rehabilitation, and finally as they return 
to duty or reintegrate to their hometowns. The Marine Corps does not 
utilize a ``fire and forget'' mentality. marines and their families, 
the Congress, and the public at large can be reassured that the Marine 
Corps, through the WWR, will continue recovery care in times of war and 
in peacetime.
                           behavioral health
    The Marine Corps Behavioral Health Program acts as an integrated 
community based service model focused on the prevention and 
intervention of suicide, substance abuse, combat operational stress, 
and family advocacy. When addressing behavioral health care, we 
typically see marines, family members, and others, with multiple 
stressors or conditions. Even as the Marine Corps moves into a post 
OIF/OEF (Operation Iraqi Freedom/Operation Enduring Freedom) 
environment, continued support ensures the readiness of our marines and 
their families, especially for those with delayed onset of symptoms.
    Because behavioral health issues are complex and contain many 
common stressors and factors, the Marine Corps has incorporated a 
holistic view of prevention. For example, the Marine Corps introduced 
``Protect What You've Earned'' which reinforces the Marine Corps 
culture of leadership through personal action and accountability. 
Through it, we seek to reduce high-risk decision-making thereby 
reducing sexual assault, domestic violence, suicide, alcohol and other 
substance misuse-related incidents.
    To support our marines, attached sailors, and families, the Marine 
Corps offer world-class prevention and counseling services at each 
installation. All behavioral health programs provide free confidential 
services offered by licensed, credentialed professionals. Professionals 
conduct comprehensive assessments and individually-tailor counseling 
sessions to address substance abuse, relationship difficulties, 
domestic violence, child neglect and other stress related concerns 
before more serious conditions develop. These services are available to 
individuals, couples, families and children.
                           suicide prevention
    One of the highest priorities of our behavioral health program is 
suicide prevention. Preventing suicide has proven to be a very 
challenging task given the complex nature of the problem. We are 
constantly evolving and assessing our programs to coincide with best 
practices.
    A main focus of our suicide prevention efforts is the Marine 
Intercept Program (MIP). It is a combined effort between HQMC 
(headquarters Marine Corps), installation Community Counseling 
Programs, and commanders. MIP provides care coordination, regular 
telephone check-ins and suicide assessment for marines with a reported 
suicidal ideation or suicide attempt. MIP is a ``super safety net'' for 
marines identified at increased risk for suicide. Services include 
continuous assessment and safety planning as well as a series of caring 
contacts for a minimum of 90 days.
    In 2015, 1,247 reports of suicide ideations or attempts were 
reported and assigned to MIP. Of the total marines offered MIP, 77 
percent accepted services. Based on a preliminary review of early MIP 
data in 2014, Marines receiving MIP services accessed care 2.5 times 
sooner, miss fewer appointments and engaged specialty care more often.
    The Marine Corps DSTRESS line provides anonymous, 24/7/365 phone, 
chat and Skype support with a duty to warn if danger is imminent. Since 
its inception in 2010, DSTRESS has helped save 36 lives; it also helps 
to increase the total fitness of our Marine Corps families by providing 
live support for effectively coping with the wide spectrum of 
challenges of life in the Corps. Marines contact DSTRESS for varying 
reasons including relationship issues, stress management, post-
traumatic stress, depression-suicidal ideation, and sexual assault.
    In order to leverage the power of social media, the Marine Corps 
recently launched a marketing awareness campaign addressing suicide 
prevention. The main message is to highlight the trend of individuals 
expressing suicidal thoughts on social media and detail what steps to 
take if someone is in emotional distress. The social media posts 
highlight the DSTRESS Line, and instruct individuals to use Facebook's 
Suicide Prevention Tool to report concerns. To date, almost 300,000 
individuals viewed and shared these posts, resulting in an 800 percent 
increase in traffic to the DSTRESS website in a 2 day period beginning 
on 12 January 2016. More such social media posts are being planned.
    One of the newer initiatives we are introducing is Conquering 
Stress with Strength. It is workshop that focuses on family members 
under stress. This is the first available, family-focused training to 
develop family skills for appropriately responding to high-stress 
situations.
                  sexual assault prevention & response
    We will not be satisfied until sexual assault is eliminated in the 
Marine Corps. We are encouraged by fiscal year 14 survey data 
indicating a 30 percent decrease in the prevalence of unwanted sexual 
contact since fiscal year 12. In that same time period, there was a 94 
percent increase in the number of victims coming forward to report. 
While the next prevalence survey will not be fielded until the end of 
fiscal year 2016, preliminary fiscal year 15 data show that we have 
sustained our levels of reporting. In addition, from fiscal year 14 to 
fiscal year 15, we saw an increase in the number of victims filing 
unrestricted reports, which demonstrates increased confidence in our 
response system and in commander support. Another positive trend is 
that more victims of sexual assault are reporting the crime within 
three days of the incident, placing the Marine Corps in a better 
position to hold offenders appropriately accountable by facilitating 
more timely investigations.
    Male victims are an extremely underreported population. The Marine 
Corps is developing a more in-depth knowledge of the factors that 
influence the reporting decision among male marines who experience 
sexual assault. We are integrating specific information on male victims 
in our prevention education and training. Significantly, we have posted 
five products addressing male victimization on official Marine Corps 
social media pages, reaching a combined total of more than one million 
people. SAPR (Sexual Assault Prevention Response) is also hosting a 
subject matter expert panel on male victims of sexual assault in April 
2016 to inform our prevention practices and program development. From 
fiscal year 14 to fiscal year 15, the number of male victims filing 
reports increased slightly, a positive indication for this population 
that has been reluctant to report.
    The Marine Corps takes allegations and acts of retaliation very 
seriously. Retaliatory behavior--whether on duty, on liberty, or 
online--is unconscionable and should never be tolerated. We are taking 
a number of actions to address this problem. For example, our Sexual 
Assault Response Coordinators and SAPR Victim Advocates are trained to 
ask victims about experiences of retaliation during their monthly 
safety check-ins. In addition, our case management group chairs are 
required to assess all reports of retaliation in their monthly 
meetings, ensuring that they are properly referred for resolution. We 
have also posted social media products that specifically address 
retaliation which have reached more than 341,000 people. In addition, 
steps are underway to integrate retaliation into SAPR training products 
for all marines. The message is clear: If a marine reports misconduct 
or a crime like sexual assault, they deserve--as a fellow marine--to be 
treated with dignity and respect.
                          transition readiness
    As the Marine Corps has reduced its end strength over the last few 
years, more of our marines and their families have made the transition 
to civilian life. It is imperative that we ensure they have the right 
preparation to reach personal goals and effectively translate their 
military experiences to a successful civilian life.
    Our Marine For Life Cycle is a holistic process, not an event. 
Beginning at the point of recruiting, the Marine Corps strives to 
provide a continuum of tangible learning or experienced-based 
opportunities to ensure that every marine is transition-ready 
throughout their career.
    At their first permanent duty station, marines complete the 
personal readiness seminar. It provides an overview of personal and 
professional development services, such as family member employment, 
voluntary education, personal financial management, and servicemembers' 
rights.
    Approximately a year prior to separation, marines complete our 
transition readiness seminar. It is a week-long program that includes 
mandatory standardized core curriculum followed by the choice of one of 
three additional two-day tracks that are in line with their individual 
future goals and objectives--higher education, career and technical 
training, or entrepreneurship.
    No later than 90 days prior separation, marines will meet with 
their commanding officer for Capstone review. At this time, the 
commanding officer will validate whether the marine has met their 
career readiness standards. If a marine does not meet their career 
readiness standards or have a viable transition plan, we provide a warm 
handover to Department of Labor or Veteran Affairs partner agencies for 
additional post-transition assistance.
    After separation, our nationwide network of Marine For Life 
representatives reach back to provide support to marines. In order to 
build a robust virtual community, we are currently expanding our 
network to include an online presence on LinkedIn, Facebook, and 
Twitter. Our goal is to have an online community and network of marines 
and friends of marines to help transitioning marines identify 
opportunities in the civilian marketplace.
    One way to ensure that marines will be successful in transitioning 
is to ensure that their military skills and work experience can be 
transferred into a civilian job. The 2014 National Defense 
Authorization Act charged the Services to make credentialing 
information available to all members upon their initial training and at 
every stage of training in their MOSs. The Marine Corps Credentialing 
Opportunities On-Line (COOL) is part of that initiative. It links 
marines with certifications and licenses related to their Military 
Occupational Specialties across the continuum of the Marine For Life 
Cycle.
    COOL is an open public website that is available and accessible to 
those currently serving, veterans, spouses, potential employers across 
all industries, enterprises, credentialing agencies, and associations. 
A credential translates Marine Corps technical skills into marketable 
language recognized by employers and may make the post service job 
search easier. Marines are able to choose from 943 certifications 
depending on their MOS or by the name of a specific credential or 
agency. Marines can also find general information on a myriad of 
resources to support their personal and professional development plans.
    As of July 2015, the Marine Corps is paying for examination fees 
and annual maintenance for enlisted marines to earn civilian/industry 
credentials, which are closely aligned with the marine's MOS.
                     marine corps exchange services
    The Marine Corps delivers a myriad quality of life programs via an 
integrated Marine Corps Community Services (MCCS) construct that 
combines Morale, Welfare and Recreation; Marine Corps Exchange (MCX); 
Warfighter and Family Services; and Child Development Programs. This 
integrated model is unique within DOD and provides many operating 
efficiencies, including consolidated non-appropriated fund back-office 
support, e.g. human resources, finance and accounting, procurement, 
construction and information technology.
    Our MCX is an integral business component of MCCS delivering 
products and services in garrison and expeditionary environments. 
Marines and families can count on real savings when they shop at the 
MCX; the most recent market basket survey showed an average savings of 
over 24 percent, while maintaining a consistent gross margin. The 
military resale system is one of the largest employers of military 
family members, about 30 percent of the Marine Corps Exchange workforce 
is a veteran or a military family member. The MCX revenue contributions 
to MCCS remain an essential and mission critical asset to the Marine 
Corps.
    Transformation and innovation is the fabric of MCCS as we continue 
to investigate new program and service delivery models by leveraging 
technology, partnerships, and sponsorships. The Marine Corps is also an 
active participant in the newly established Defense Resale Business 
Optimization Board chartered to seek efficiencies, while preserving the 
valued quality of life benefits provided by both commissaries and 
exchanges.
                               conclusion
    The marines of our Corps represent the American people who have 
stepped forward and sworn to defend and protect our Nation. Through 
recruiting, training, education, and retention of men and women of 
character who take up our challenge to become one of ``the Few and the 
Proud,'' we will enhance the quality of our Corps and our overall 
combat effectiveness. By ensuring that we take care of all marines and 
their families, we fulfill our responsibility to keep faith with the 
honor, courage, and commitment they have so freely given.
    Our individual marines are our most precious asset. They are proud 
of what they do. They are proud of the ``Eagle, Globe, and Anchor'' and 
what it represents to our Nation. With your support, a vibrant Marine 
Corps will continue to meet our Nation's call.
    Thank you for the opportunity to present this testimony.

 STATEMENT OF LIEUTENANT GENERAL GINA M. GROSSO, USAF, DEPUTY 
 CHIEF OF STAFF FOR MANPOWER, PERSONNEL, AND SERVICES, UNITED 
                        STATES AIR FORCE

    General Grosso. Chairman Graham, Ranking Member Gillibrand, 
Senator King, it is my honor as well to appear before you today 
representing our total force airmen and their families.
    As airmen, our purpose is to ensure the Air Force can 
always provide America with global reach, global vigilance, and 
global power. However, 25 years of continuous combat 
operations, coupled with budget instability, and lower-than-
planned top lines have made the Air Force one of the smallest, 
oldest, and least ready Forces in its history.
    Despite all of this, our Air Force is powered by airmen 
with more talent and education than ever before. Today the 
660,000 Active Duty, Guard, Reserve, and civilian airmen are a 
highly trained, experienced, and battle-tested force, standing 
as vanguards of freedom around the world.
    As you are aware, our Secretary and Chief's top priority is 
taking care of airmen and their families. Airmen and their 
families are without question our most important resource, and 
our budget reflects this truth.
    You are also aware that we have been downsizing in our Air 
Force for years, but this budget stops that decline and begins 
to upsize our total force to address a number of key areas, 
including critical career fields like nuclear, intelligence, 
cyber, maintenance, remotely piloted aircraft, and support 
officers.
    We want to thank this committee for supporting our Active 
Duty plus-up, which is going to go roughly from 311,000 to 
317,000 airmen by the end of this fiscal year. Given our 
current operations tempo, we certainly cannot sink below this 
number, and we believe that the mission demands will indicate 
that we need even more growth in fiscal year 2017.
    The Air Force is committed to improving readiness by 
growing the force, and as such, the fiscal year 2017 budget 
funds increased accessions and expanded retention programs, 
invests in the student training pipeline and adds technical 
training resources, incentivizes retention of critical skills 
in undermanned specialties, maximizes total force airmen to 
meet mission demands, and most importantly, takes care of 
airmen and their families.
    As we continue to rely on the all-volunteer force, we will 
make every effort to leverage the diverse talent from across 
our Nation. We want the men and women of this Nation to see the 
Air Force as an employer of choice where there are no 
artificial barriers to their success.
    This is best illustrated in opening all of the remaining 
closed career fields to women, reinforcing our values that if 
you meet the requirements, you will have the opportunity to 
serve in any position.
    In closing, thank you for your time today and your 
tremendous support and concern for our Nation's airmen. I look 
forward to your questions.
    [The prepared statement of General Grosso follows:]

                         Prepared Statement by
                   LIEUTENANT GENERAL GINA M. GROSSO
                              introduction
    Despite the last two decades of sustained conflict, the men and 
women of your Air Force are as dedicated as ever before. We have 
witnessed changes in the geopolitical environment that demand increased 
efforts from the Department of Defense in general and specifically the 
Air Force. Our airmen are fully engaged in every region of the world, 
in every mission area, and across the full spectrum of military 
operations.
    Today the Air Force is as busy as it has ever been while also being 
its smallest. We have been downsizing for years but now we must upsize 
modestly in fiscal year 2016 our Total Force to address a number of key 
areas, including critical career fields such as intelligence, 
surveillance and reconnaissance, cyber, maintenance and battlefield 
airmen (e.g., Special Tactics Officer, Combat Controller, Combat Rescue 
Officer, Pararescue, Special Operations Weather and Tactical Air 
Control Party). Recognizing the strength we have yielded from our Total 
Force team, we continue our efforts to integrate our Guard and Reserve 
partners further.
    Our airmen provide a strategic advantage over America's competitors 
and as an Air Force, we remain committed to supporting our airmen and 
their families to ensure they remain resilient and motivated. Our 
personnel programs are geared to attract the airmen of the future and 
retain our talented airmen, and their families.
                        diversity and inclusion
    Diversity and inclusion are national security imperatives and 
critical force multipliers for a military tackling complex challenges 
of geopolitical significance. Air Force senior leaders realize the 
importance of a diverse and inclusive force and we must ensure our 
airmen are representative of the diverse populace from which we draw 
our considerable strength. By ensuring the most talented, culturally 
competent, and operationally relevant force possible, we will be more 
agile, and able to meet nascent requirements quickly and decisively. 
The Air Force is conducting very deliberate planning for its diversity 
and inclusion efforts in 2016.
    A transformational change must start with the Air Force's senior 
leaders. As such, we will establish standard unconscious bias training 
to help initiate a deeper understanding of potential barriers to 
success and as a bridge to operationalizing diversity and inclusion. In 
addition, to help engrain the importance and value of leveraging a 
diverse and inclusive force, the service is codifying and funding our 
Chief Diversity Officer positions at the major commands and direct 
reporting units. Further, we are establishing baseline education and 
training for our diversity and inclusion leaders across the Air Force 
to provide them with a sufficient foundation to chart a clear path for 
our diversity and inclusion initiatives.
    Along with these efforts, we must also make certain we have access 
to the best and brightest our Nation has to offer. Subsequently, we are 
writing a National and Total Force recruiting strategy and 
implementation plan that leverages key strategic partnerships to create 
more effective access to diverse talent pipelines.
    The diversity and inclusion mission is an ongoing, enduring 
requirement, incorporating self-awareness, organizational change and 
constant learning. Human beings are biased by nature, but using 
education, training and deliberate planning can provide an organization 
such as the Air Force with the tools necessary to combat bias and to 
create an equitable and inclusive working environment and culture. The 
Air Force's key diversity governance documents are being rewritten to 
reflect current Air Force strategy as well as to incorporate the Air 
Force imperative of inclusiveness.
                              end strength
    The demand for airpower in today's military conflicts continues to 
increase. The fiscal year 2016 President's Budget (PB) resized Active 
Duty end-strength from approximately 313,000 to 317,000, and we have a 
deliberate plan to grow from our current inventory of 311,000 to 
317,000 personnel by the end of fiscal year 2016. This growth addresses 
key capability gaps in the nuclear, maintenance, cyber, intelligence, 
surveillance and reconnaissance, remotely piloted aircraft and support 
career fields, ensuring the Air Force increases its ability to meet 
mission demands. Our fiscal year 2017 PB is strategy-driven and 
consistent with the previous year's proposal. The fiscal year 2017 
budget cycle carried forward fiscal year 2016 end strength levels fully 
funding 317,000 across the Future Years Defense Program (FYDP), 
continuing our concerted effort to ``right size'' the force. Moreover, 
it offers the best balance for America's current and future air, space, 
and cyberspace requirements at Bipartisan Budget Act (BBA)-level 
funding ($43.4 billion) for military ($28.4 billion) and civilian 
personnel costs ($14.5 billion to include working capital fund and 
Research, Development, Test and Evaluation). The fiscal year 2017 
budget submission also leveraged PB16 Total Force increases in both the 
Guard and the Reserve thus maintaining warfighting capacity while 
minimizing increases to Active Duty end strength. Subsequently, our 
request outlined a total military force of 491,700 comprised of 317,000 
Active Duty, 105,700 Guard and 69,000 Reserve airmen.
    Our civilian airmen are an integral part of the Air Force team and 
serve in almost every position imaginable, to include critical areas 
such as depot maintenance, science and technology, engineering, fire 
fighters and Air Reserve Technicians. Since 9-11 there have been many 
fluctuations in the civilian workforce size. Over the past 3-years, the 
Air Force civilian workforce increased approximately 14,000 positions 
in key areas including intelligence, surveillance and reconnaissance, 
cyber and nuclear.
    However, we made significant progress with civilian reductions as 
well. Since fiscal year 2012, the Air Force has taken approximately 
24,000 civilian reductions in response to Congressional actions. During 
this time period, we reduced 10,000 positions. Further, we will 
continue to drive civilian reductions moving forward, fully complying 
with the fiscal year 2016 NDAA 25 percent directed HQ reductions.
                       military force management
    The Air Force has shifted force management from a reduction focus 
to a growth posture. To meet this increased end strength, we are 
focusing our force management efforts on bolstering accessions and 
increasing retention of our skilled workforce.
    We are using multiple lines of effort to grow the force. We have 
increased accessions of enlisted airmen entering Basic Military 
Training and the numbers of officers being commissioned. In addition, 
we are retaining experience through robust and expanded special and 
incentive pays; bringing on prior service accessions; using Reserve 
Active Duty tour opportunities; and implementing High-Year-of-Tenure 
extensions.
Recruiting
    Accessions are the building blocks of the Air Force. Subsequently, 
it is imperative that we maintain a strong focus on recruiting with a 
solid and proficient recruiter force, capable of responding to the 
ever-changing recruiting environment. Air Force brand recognition is an 
enduring requirement to ensure we have the opportunity to increase 
propensity to serve in the Air Force among the eligible youth 
population. Findings suggest that maintaining an all-volunteer force 
requires recruiting efforts to focus on reaching both youth with a 
long-term interest to serve as well as those that were not previously 
propensed. To affect both market segments, we must use advertising to 
change propensity, particularly among tougher segments of the 
population to recruit.
    The recruiting budget includes funding for day-to-day operations, 
personnel costs and advertising activities necessary to the successful 
accomplishment of the recruiting mission. Budget actions, such as 
sequestration in fiscal year 2013, slowed or completely shut down key 
advertising and marketing events, which included the Air Force 
Thunderbird Aerial Demonstration Team, and delayed our national 
television campaign for fiscal year 2014, leading to missed ``key 
spots'' and diminished purchasing power.
    Initial Enlistment Bonuses are critical to our recruiting efforts 
and are funded at $16.1 million in the fiscal year 2017 PB; this 
program greatly assists in producing sufficient recruits to meet 
requirements for high-demand, chronically low manned career fields such 
as battlefield airmen and linguists. We successfully use this program 
to recruit youth into career fields that historically are hard to 
recruit and/or qualify for by awarding a monetary bonus as an 
incentive. The ability to recruit the right requirements at the right 
time for these unique demands without the Initial Enlistment Program 
would be threatened.
Retention
    We are increasing our accessions and training pipeline to support 
the increased growth, but these new enlistees won't be seasoned for 
some time, thus retaining the experience we have is critical to our 
success in reaching target end strength. To address retention concerns, 
we are using robust and expanded special and incentive pays to retain 
experience; bringing on prior service accessions; using Reserve Active 
Duty tour opportunities; and implementing High Year of Tenure 
extensions. The Air Force weighed under manning, experience levels, 
retention trends and training costs across all Air Force specialty 
codes in determining which career fields to target. Officer retention 
challenges exist for pilots, including remote piloted aircraft pilots, 
combat systems officers, special operators, intelligence, contracting, 
and select health professionals. For the enlisted force, specialties 
facing retention challenges include cyber defense, battlefield airmen, 
intelligence, explosive ordnance disposal, aircraft maintenance, and 
select nuclear enterprise specialties. The quick growth the Air Force 
is planning over the next two fiscal years requires a greatly expanded 
Selective Reenlistment Bonus program, increasing from 40 specialties in 
fiscal year 2015 to 117 in fiscal year 2016. This three-fold increase 
focused on retaining key experience while continuing our deliberate 
plan to grow our force, and we expect a similar size program in fiscal 
year 2017. Additionally similar to fiscal year 2016, the fiscal year 
2017 Selective Reenlistment Bonus program further incentivises airmen 
by providing more money up front to reenlist and thus retains more 
experience during this time of growth. Our budgeted amount to execute 
this program is $226 million.
    Further, we are using High Year of Tenure extensions to retain key 
experience while growing the Air Force by 6,000 in fiscal year 2016. 
The High Year of Tenure program expanded from 38 Air Force Specialties 
in fiscal year 2015 to 122 in fiscal year 2016 and fiscal year 2017. 
This expansion, except where the specialties were fully manned, mirrors 
the Selective Reenlistment Bonus program. Additionally, High Year of 
Tenure expansion included specialties where the training pipeline was 
insufficient for the accession requirement; where specialties were 
undermanned in certain grades; and in areas needed to support the 
expansion of the aircraft maintenance enterprise.
Bonus and Pay Incentives
    With national security threats increasing around the globe and 
emerging requirements continuing to evolve, it is critical that we 
invest in our current force to retain the experience to maintain and 
expand the Air Force's current capabilities. Special and Incentive pays 
are one of our most flexible and responsive force management tools. 
Accordingly, our fiscal year 2017 budget includes approximately $927.4 
million in Special and Incentive pays, which includes $226 million in 
Selective Reenlistment Bonuses, $12.3 million in Critical Skills 
Retention Bonus and $87.5 million in Aviator Retention Pay. The Air 
Force will use these retention bonuses, along with the full suite of 
Special and Incentive pays, to surgically shape the force in low-
retaining skills with a focus on maintaining the correct number of 
airmen by specialty and year group. The Air Force is offering Officer 
Critical Skills Retention Bonus programs for Special Tactics, Combat 
Rescue, Contracting, Intelligence officers and remote piloted aircraft 
pilots. Additionally, our Enlisted Critical Skills Retention Bonus 
programs are for the Tactical Air Control Party, Combat Controller, 
Pararescue and Explosive Ordnance Disposal career fields.
    We appreciate the assistance in providing increased bonus and 
aviation pay for our remote piloted aircraft pilot force. With our get-
well plan for our remotely piloted aircraft team underway, we are 
pleased to be able to compensate these aviators under the same 
authority as all rated career fields. The ability to use monthly 
Aviation Incentive Pay (flight pay) and Aviation Retention Pay, as 
authorized in the fiscal year 2016 National Defense Authorization Act, 
for remotely piloted aircraft pilots will surely bolster retention in 
this field. The Air Force is currently working with the Office of the 
Secretary of Defense to craft a policy allowing a full transition to 
these new authorities.
    We ask for that same assistance with our manned rated force. The 
Air Force is experiencing the lowest pilot retention since 2002. In 
2002, major airline hiring drove the retention rates to 47 percent, 
causing much concern for our service. Since then, we have maintained 
rated retention levels at or above 65 percent with our Aviator 
Retention Pay program. However, in fiscal year 2015 only 55 percent of 
the eligible pilots entered into a bonus agreement. With pilot 
retention decreasing, constrained pilot training pipelines are 
insufficient to train the required number of pilots to replace those 
not retained by the bonus. Of particular concern for the Air Force is 
the status of our fighter pilot inventory, currently undermanned at 
about 520 fighter pilots with the trend continuing downward. We 
continue to monitor closely and will request additional authorities and 
increases as are necessary.
Compensation Reform
    The Air Force supports the Department's current posture on 
compensation, which is to continue to slow the growth of military 
compensation (other than retirement) pay and benefit costs in order to 
permit a balance in defense spending. Compensation reform is a fiscal 
necessity as compensation represents nearly half of the Department's 
budget. Although adequate compensation is a vital component of an 
airman's quality-of-life, it must remain in balance with readiness, 
capacity, and strategic capabilities necessary for the Air Force's 
future.
    The Air Force must ensure that we maintain readiness and 
modernization. We are working closely with the Department to implement 
the direction in the 2016 NDAA on the blended retirement provisions 
while exploring other possibilities for strategic compensation reform. 
While we support the incremental out of pocket expense in housing 
allowances, we are concerned that any additional reductions in housing 
allowances will have negative effects in sustaining our current force 
and their families.
                     civilian workforce management
    During fiscal year 2015, the Air Force was successful in 
aggressively using pre-Reduction In Force tools to help posture the 
civilian workforce for minimal disruption from workforce management 
initiatives. We continue to manage the delicate balance of right sizing 
in accordance with Congressional and Department guidance and filling 
our allocated civilian vacancies. A round of Voluntary Early Retirement 
Actions and Voluntary Separation Incentive Pay was offered in Fall 2015 
with an effective date of December 31, 2015. Of the 1,400 civilian 
overages identified, at the conclusion of the process, only 89 
individuals were involuntarily separated. At the beginning of fiscal 
year 2016, a needs assessment identified 1,100 civilians as overages 
needing to be placed on funded authorizations. At the end of January 
31, 2016, approximately 300 civilians still require placement and we 
expect that number to continue to decrease as we work the Reduction in 
Force process, which culminates on April 4, 2016. Another needs 
assessment for an additional round of Reduction in Force with an 
effective date of September 30, 2016 will be administered in March. We 
remain optimistic that pre-Reduction In Force efforts will ensure we 
minimize any involuntary separations. Additionally, we do not 
anticipate or expect any furlough adverse impact on our invaluable 
civilian workforce. This stability bodes well with our continued 
efforts to pursue executing our allocated civilian dollars and work 
years and to provide stability among all our civilian airmen looking 
into fiscal year 2017.
New Beginnings
    The Air Force will transition approximately 131K employees to the 
New Beginnings Defense Performance Management and Appraisal Program in 
April 2017. We welcome this comprehensive and transparent multi-level 
performance management system that links performance expectations with 
organizational goals, provides for regular on-going feedback and allows 
meaningful distinctions in performance. It will move the majority of 
Air Force civilians from a 2-level pass/fail rating pattern to a 3-
level rating pattern with the ability to rate performance elements as 
``Outstanding'' and thus provide civilians meaningful distinctions in 
their performance. This shift in focus on communication and 
distinctions in performance allows the Air Force to realize fully a 
culture that embraces and supports a high-performing workforce. 
Additionally, it emphasizes the importance of employee engagement and 
places increased emphasis on leadership behaviors and supervisory 
responsibilities in an effective performance management system. The Air 
Force will be actively engaged over the next year in providing training 
to all impacted civilians as well as their military supervisors.
    New Beginnings also includes initiatives focused on streamlining 
the hiring process, training for supervisors and managers, implementing 
effective means of recruiting, compensating, and incentivizing the 
civilian workforce with a focus on strategic workforce planning to 
shape an effective workforce for today and into the future.
                             one air force
Total Force Integration and Continuum of Service
    The Air Force is implementing a number of Continuum of Service 
programs and initiatives consistent with the National Commission on the 
Structure of the Air Force recommendations and aligned under the Air 
Force's Strategic Master Plan and Human Capital Annex governance 
structure. We continue to develop the structure and policies that allow 
for deliberate and purposeful transitions between the Regular Air 
Force, the Air Force Reserve and the Air National Guard.
    Continuum of Service allows the enterprise to retain and preserve 
highly skilled personnel for a longer period by reducing transition 
barriers, incentivizing affiliation with Reserve components as well as 
lengthening the officer career trajectory for selected airmen. Along 
those lines, we have instituted and implemented policy changes and 
programs such as the Career Intermission Program and the Voluntary 
Limited Period of Active Duty Program. Additionally, a number of 
Continuum of Service initiatives are underway within the Human Resource 
Management enterprise to include aviation retention pay options for 
part-time Reserve aircrew members and addressing Air Reserve Component 
retirement concerns in converting Active retirement for those that meet 
time and grade requirements.
    The Air Force will continue to increase the integration and 
holistic management of the total force components; however, a true 
Continuum of Service will require legislative change to enable the 
seamless transition between Air Force components.
One Air Force A1
    The Air Force's ultimate goal is to provide total force personnel 
policy to lower echelon headquarters and serve any airman, at any 
location, regardless of component or status. The Air Force's initial 
effort under the National Commission on the Structure of the Air 
Force's recommendation regarding integrated force management was to 
focus on establishing a single, integrated manpower, personnel and 
services organization.
    The Air Force began co-locating Air Force Reserve and Air National 
Guard staff members within the Deputy Chief of Staff for Manpower, 
Personnel and Services organization on 1 October 2014 by phasing in 
three Active Guard Reserve officers as division chiefs. Transfer of 
personnel is ongoing using a phased approach with full operational 
capability in fiscal year 2017. Since initial operational capability in 
fiscal year 2015, two Memorandums of Agreements between the Deputy 
Chief of Staff for Manpower, Personnel and Services, the Chief of the 
Air Force Reserve and the Director of the Air National Guard have been 
written to outline and codify the implementation strategy. Twenty-eight 
specific positions have been attached or assigned across the Deputy 
Chief of Staff for Manpower, Personnel and Services organization to 
address personnel management processes to include, but not limited to, 
recruiting, assignments, force development, and force management.
Air Force Integrated Personnel and Pay System (AFIPPS)
    An integrated Personnel and Pay capability is fundamentally 
required for the Air Force to operationally integrate into One Air 
Force. In May 2015, the Air Force communicated the decision to reassess 
our path toward integrated personnel and pay by looking at two 
alternatives--a new acquisition or optimization of our current 
capability. From that notification through December 2015, the Air Force 
employed a cross-functional team to refine a problem statement, garner 
Service lessons learned along with industry benchmarks, and 
comparatively analyzed differences between the two alternatives. Our 
conclusion is that upgrading our modern existing platform in agile 
delivery cycles is the best use of resources and delivers capability to 
our airmen sooner.
    The Air Force initiated an upgrade to our current human resource 
system of record, fielding enhancements and performing data cleansing 
activities to ready our system for the integration of payroll beginning 
in fiscal year 2018. These efforts simultaneously modernize and 
transform our systems, deliver additional airmen-enabling self-service 
capabilities, and refine the foundation for the complete end-to-end pay 
integration.
    The Air Force remains committed to migrating our human resource 
portfolio to a solution that minimizes future cost and ensures the 
human resource community is postured to deliver capability to the Total 
Force. By focusing actions to deliver state-of-the art commercial 
capabilities and leveraging self-service with upgraded web and mobile 
support to improve human resource access and action, we will reduce our 
operational costs while drastically improving how we support and pay 
our world-class airmen.
                        women in service review
    On December 3, 2015, the Secretary of Defense notified Congress of 
his intent to open all remaining positions and occupations across the 
Department of Defense. On January 4, 2016, the Air Force began 
executing the final Implementation Plan for Full Integration of Women 
in the Air Force and opened 6 previously closed career fields that 
include 4,000 positions across the Total Force. Women now have the 
opportunity to serve in the Air Force as a Special Tactics Officer, 
Combat Controller (Enlisted), Combat Rescue Officer, Pararescue 
(Enlisted), Special Operations Weather (Enlisted) and Tactical Air 
Control Party (TACP) (Enlisted).
    Air Force actions will be guided and informed by our studies, as 
well as the research and analysis conducted by our Sister Services and 
USSOCOM under the Women in Service Review. The implementation plan also 
provides for periodic review and continuous assessments to allow 
incorporation of lessons learned as we go forward. Successful gender 
integration will take time and requires a focus on standards, policy, 
education and engaged leadership across the Total Force.
    These direct ground combat career fields present a challenge to 
find qualified volunteers who have the physical and mental fortitude 
and can persevere through lengthy training pipeline that could span two 
years. Opening these positions to women allow the Air Force to reach 
into the female population to find qualified skill sets.
                           support to familes
Child and Youth Programs
    Air Force Child and Youth Programs are critical to our airmen, and 
Air Force's goal is to ensure quality, affordable child development 
spaces are available to our airmen and their families. To accomplish 
this, we use a combination of child development centers, family 
childcare homes, and school age programs to support children from birth 
to 12 years of age. These vital programs provided full time childcare 
for more than 64,000 children in 2015. Our community-based programs are 
also crucial in supporting families not located near an Active Duty 
installation. We provided 8,800 children of Total Force families with 
160,000 hours of childcare necessary for Air Force Reserve and Air 
National Guard members to attend unit drill activities.
    Additionally, our Expanded Child Care programs, operated primarily 
through our Family Child Care programs, continue to grow and adapt to 
meet the varied and unique childcare needs of our airmen. Expanded 
Child Care programs offer a more developmentally appropriate home-based 
childcare arrangement in a manner that is much more flexible and 
economical for accommodating the fluctuating numbers of users. In 2015, 
we provided more than 53,000 hours of childcare for more than 2,600 
children of first responders, missile operators, wounded warriors, 
deployed personnel, and parents required to work extended hours or 
dealing with emergency medical care issues. We added two new programs, 
24/7 Child Care to support members working 24 hour shifts and Missile 
Care 2 Program to assist spouses with non-traditional childcare 
requirements during times the Active Duty member is working off the 
installation in the missile field. Our Expanded Child Care program also 
includes skilled care to exceptional family members allowing parents a 
break from the stressors of continuously caring for a child with 
special needs. Geographically separated airmen across the Total Force 
now have access to exceptional family member respite childcare. The 
program has consistently grown with an increase in usage more than 35 
percent from last year serving more than 1,360 children with 101,000 
hours of care.
    In 2016, our priority is to meet the needs of our members and their 
families. We are currently developing implementation plans to extend 
child development center and school age care hours to overlap the 
normal working shifts of Service members by at least two hours. At the 
same time, we are developing a strategic plan to expand capacity in 
critical areas where wait times for enrollment exceed 90 days, which 
goes hand-in-hand with the Military Compensation and Retirement 
Modernization Commission recommendation to improve access to childcare 
on military installations. The continued rollout of the 
MilitaryChildCare.Com initiative, a website for military families 
seeking childcare, will assist in identifying and validating the areas 
with the greatest need. MilitaryChildCare.com expedites childcare 
placement through a standardized Department of Defense request process 
and waitlist management tool and is currently operational at 30 Air 
Force locations with the remaining 44 locations to be operational by 
the end of this calendar year.
Wounded Warriors
    The Air Force Warrior and Survivor Care office is the Air Force's 
lead in orchestrating a comprehensive, continuum of care that 
synergizes Department of Defense and Veteran Affairs programs to meet 
the medical and non-medical care of wounded, ill, and injured airmen. 
Over the past year, and through the efforts of our Air Force Wounded 
Warrior program, we expanded enrollment in our warrior program by 
improving marketing to our Air National Guard and Air Force Reserve 
units. We continue to work with units to identify airmen who return 
from deployment and are beginning to cope with the effects of post-
traumatic stress. When symptoms manifest, affected airmen may not 
recognize the need for help immediately and it is our goal to ensure 
they are aware of the assistance avenues that are available.
    We are committed to a lifetime relationship with all airmen and 
their families. To strengthen this commitment, we are in the initial 
stages of developing an Airman for Life program. In addition to 
leveraging existing programs that support an airman's lifecycle, such 
as the Transition Assistance Program and Air Force Families Forever, 
the Airman for Life program will seek to build relationships with non-
profits, state and local governments, and employment centers to bridge 
potential gaps in support.
    While we are committed to providing world-class treatment for our 
airmen's wound, illness or injury, we are also dedicated to treating 
the whole person and, as an extension of our airmen, their families and 
caregivers as well. We have developed Caregiver Peer Support Forums, as 
a collaborative effort with the Office of the Secretary of Defense and 
the other Service Wounded Warrior programs. These meetings, being 
conducted at all Air Force installations, provide caregivers an 
opportunity to share their experiences and challenges with others that 
best understand what they are going through.
Transition Assistance
    Approximately 42,000 Total Force Airmen per year leave the Air 
Force. The Veterans Opportunity to Work to Hire Heroes Act of 2011, and 
Veterans Employment Initiative, direct many Transition Assistance 
Program requirements which provide a variety of opportunities for 
transitioning Veterans to engage with civilian employers using their 
training and employment experiences. The Air Force Airman & Family 
Readiness Centers engage with National and Federal partners to ensure 
transitioning servicemembers and their spouses are career ready for 
transitioning back to the private sector.
    One of our newest efforts to help our airmen successfully 
transition to the civilian workforce is the Air Force Credentialing 
Opportunities On-Line Program. The program currently offers 182 
certifications in fields such as Project Management, Information 
Systems Security and Human Resources and provides two distinct 
benefits: first, it continues to professionalize the enlisted force by 
providing up-to-date industry-recognized credentials in an airman's Air 
Force job; second, it provides a way for airmen to prepare for civilian 
life by ensuring that they are ready for work in the civilian sector.
                               conclusion
    Recent global developments remind us that America's Air Force must 
have the capability to engage anytime, anywhere, and across the full 
spectrum of conflict. To do this we must be able to attract, recruit 
and retain the best our Nation has to offer. Our airmen, a combined 
team of Total Force officers, enlisted, and civilians, are educated, 
innovative, and motivated. When properly trained, effectively equipped, 
and instilled with the trust of their leadership, they will ensure our 
Air Force remains the most powerful in the world. However, our airmen 
do not serve alone. Our Air Force families are a critical component of 
our success and enable this dedicated force to focus on mission 
accomplishment. Maintaining an all-volunteer Air Force is a significant 
undertaking and requires a continuous and significant investment of 
time and national resources. We realized long ago if we do not focus 
and invest towards producing, supporting and retaining the highest 
quality airmen continuously, we as an institution fail. As the Deputy 
Chief of Staff for Manpower, Personnel and Services, I am committed to 
making the Air Force a success.

    Senator Graham. Well, thank you all for your service.
    I will start with the Army. What percentage of the Army's 
budget is personnel?
    General McConville. Senator, it is about 60 percent with 
military and civilian personnel.
    Senator Graham. Admiral?
    Admiral Moran. Senator, it is roughly the same when you 
include all the personnel, the whole team.
    Senator Graham. The Marines?
    General Brilakis. Sir, it is 69 percent. That is civilian 
and military.
    Senator Graham. Air Force?
    General Grosso. Approximately 50 percent.
    Senator Graham. So if we are going to do other things, you 
know, half your budget plus is going to personnel costs.
    There is a debate going on about whether women should be 
subject to the draft now that we have opened up military 
occupations to women. Could you please very briefly share your 
view as to whether or not you think that is a good idea?
    General McConville. Well, I think, as you know, we have 
opened up all combat positions to women, and I think they 
should have the opportunity to serve in whatever position they 
want. The fact that they can serve in combat, they ought to be 
eligible for the draft.
    Senator Graham. We will just let everybody know that 
because you are drafted does not mean you go into combat. You 
got to meet the standards.
    General McConville. Yes, sir, absolutely.
    Admiral Moran. I would agree, Senator, to be consistent in 
a message to everyone in America that wants to serve, Selective 
Service in my personal opinion is appropriate.
    Senator Graham. General?
    General Brilakis. Mr. Chairman, thank you for the question.
    You know, it has been interesting--this discussion that has 
been going on. So the question really is the Selective Service 
Act I think in terms of threats to the Nation, threats to the 
republic and what it does and what it represents, and whether 
or not this is an issue about women and whether we add women 
now that we made this decision to include them in combat roles, 
or whether it is a larger discussion about the Selective 
Service Act and what it means to the Nation.
    I am a planner by nature, and if I have a plan, is that 
plan holistic enough to survive first contact to provide the 
Nation the talent it needs in time of crisis without an 
extended debate. The Selective Service Act should help to allow 
us to act quickly.
    Senator Gillibrand. So yes or no?
    Senator Graham. Yes. Yes or no.
    General Brilakis. I believe in that discussion, all 
Americans have the responsibility to serve the Nation.
    Senator Gillibrand. Good.
    General Grosso. Yes. Women should be included in the 
Selective Service Act.
    Senator Graham. There you go.
    If you are going to change TRICARE, one, does it need to be 
changed, and what would be the biggest recommendation you could 
give us?
    General McConville. Senator, I think everything should be 
on the table as you talked about with the costs going up. 
Having commanded the 101st Airborne Division in combat, I 
understand what it takes to have a highly trained unit that has 
got to be manned, it has got to be equipped, and it has got to 
be trained. We have to spend money on that, and there is not 
enough money to go around. So we need to look at every place, 
and TRICARE is one of those to see where we can more 
efficiently effective so we can continue to man our force, 
equipped and training our force.
    Senator Graham. Does anybody know off the top of their head 
what percentage of DOD's budget in the next decade will go to 
TRICARE or health care?
    General McConville. Not off the top of my head.
    Senator Graham. Admiral?
    Admiral Moran. Sir, I would say that we need to simplify, 
and that is part of the proposal that we are seeing, to 
simplify the plan and reduce the administrative----
    Senator Graham. How about expand the number of people 
servicemembers can go to and their families? Expand the 
network.
    Admiral Moran. Expand the network. We are trying to drive 
more business back into the MTFs [Military Treatment 
Facilities] so that we can keep our readiness of our 
professionals. I think that is the direction we need to 
continue, and that will help reduce costs because we are not 
paying outside the network.
    Senator Graham. Got you.
    General Brilakis. Sir, I agree with Admiral Moran that 
leveraging the existing infrastructure that we have to the 
maximum extent to drive down costs is going to be fundamental 
to the overall TRICARE solution set. But we want to make sure 
that we continue to provide our families and our marines, 
soldiers, sailors, and airmen high-quality health care around 
the globe and in the many different areas in the country where 
they serve.
    General Grosso. I too agree that we need to get as many 
beneficiaries into the traditional military treatment 
facilities as we can and to use the traditional pharmacy that 
the military provides to better leverage that capacity.
    Senator Graham. When it comes to combating sexual assault 
and putting an emphasis on preventing this, how would you rate 
the efforts in each service?
    General McConville. Well, Senator, I would like to answer 
this as a parent. I am a parent of three children. I expect and 
my wife demands that we provide a safe and secure environment 
for our children. I would say we put a tremendous amount of 
resources into getting at this is something we----
    Senator Graham. Do you think people are getting the 
message?
    General McConville. I do. I really do. I think people are 
getting it, but I think we need to continue to work. One of the 
things we have put in place and we got feedback from our 
surveys is a ``not in my squad'' program. Every year we have 
120,000 soldiers come in the Army. Those 120,000 soldiers come 
with the values they brought out and they live in things called 
squads. I think it is extremely important, not just from the 
top down, but from the bottom up to get after this and change 
culture because it is something we just cannot have in our 
military.
    Senator Graham. Briefly, does anybody--does everyone kind 
of agree with that assessment?
    Admiral Moran. Yes, sir.
    Senator Graham. Is it going in the right direction in the 
Navy?
    Admiral Moran. I think our response is better than our 
prevention, and we are getting better at prevention and we are 
really focused on it this year. The CNO [Chief of Naval 
Operations] has added some new initiatives that I would be 
happy to talk about. But, yes, sir, I believe we are.
    General Brilakis. Sir, we cannot ever be satisfied with 
where we are at with respect to sexual assault and response to 
it, but I do believe that we have included all marines into the 
final solution and we are understanding the problem much better 
than we did before.
    General Grosso. I would agree with that. I think we really 
turned our focus now to what is primary prevention and what can 
we learn from the people who do that best. We have funded 
positions at every installation that are primary prevention 
experts, and we are developing a strategy that deals with 
interpersonal violence because when you look at the risk 
factors, the protected factors and the risk factors for 
suicide, sexual assault, family violence, and actually 
workplace violence, they overlap. So we are trying to leverage 
all of these separate programs to better address these 
negative, destructive behaviors.
    Senator Graham. Senator Gillibrand?
    Senator Gillibrand. Thank you. I am going to continue where 
Senator Graham left off.
    So I want to talk a little bit about implementation for 
sexual assault, specifically the Navy. You have done some 
interesting work in terms of creating a complex litigation 
track for counselors to specialize in litigating serious 
offenses, including cases of sexual assault. Could you talk a 
little bit about that? Because I think it is probably one of 
the best strategies I have heard in terms of getting 
performance in actually prosecuting these cases, getting more 
cases to conviction, more cases to have an appropriate penalty, 
not just non-judicial punishment, but something that fits the 
crime of rape. Could you talk a little bit about that?
    Admiral Moran. Senator, I can talk a little bit about it. I 
am a little bit out of my league in terms of being not a 
lawyer.
    However, you are correct in that our AJAG [Assistant Judge 
Advocate Generally] put together a course to help make our 
prosecutors better, to your point, to make they understood how 
to apply the law and really keep the pressure on the system to 
hold people accountable. It is called the military justice 
litigation career track, and we have also assigned 
qualifications to that, so official quals, so that we can 
identify which JAG [Judge Advocate General] members at any 
point in their career who have that qual can be appropriately 
distributed around the fleet, fleet concentration areas, so 
that they can be assigned to those cases. It will kind of 
solidify around those expert prosecutors so that we are 
consistent in how we deal with each case.
    Senator Gillibrand. Do you apply this just for general 
court martials if you also apply it for special court martials? 
Do you know?
    Admiral Moran. I do not know. I can get that answer for 
you.
    [The information follows:]

    Senator Gillibrand, you requested additional information about the 
Navy's creation of a career track for military justice litigation and 
whether these judge advocates practiced in special and general courts-
martial.
    In 2007, the U.S. Navy Judge Advocate General's Corps implemented 
the Military Justice Litigation Career Track (MJLCT), in recognition 
that litigation skills are perishable and that the growing complexity 
of military justice litigation requires officers to remain in the 
courtroom for successive assignments to maintain proficiency and 
develop expertise. Our MJLCT judge advocates are leading litigation 
throughout the enterprise, most notably as Senior Trial Counsel and 
Senior Defense Counsel at all Naval Legal Service Commands, as 
officers-in-charge at defense office detachments, as directors of Trial 
and Defense Counsel Assistance Programs (TCAP/DCAP), and as Victim's 
Legal Counsel. These judge advocates also serve as trial judges on the 
Navy-Marine Corps Trial Judiciary and as appellate judges on the Navy-
Marine Corps Court of Criminal Appeals. There are 63 MJLCT billets and 
77 MJLCT judge advocates. At any given time, there are some MJLCT judge 
advocates assigned outside a career track billet on a disassociated 
tour to ensure they remain knowledgeable on Navy matters and enable 
their overall proficiency.
    The mission of the MJLCT is to identify and cultivate judge 
advocates with the requisite education, training, experience, and 
aptitude to maintain the highest quality of representation in complex 
criminal litigation. The MJLCT has three levels of proficiency, which 
career track judge advocates earn based upon their skill development 
and experience in military justice litigation. Before applying for each 
level of proficiency, candidates are expected to meet the applicable 
experience level guidelines for each stage as set forth in the Navy's 
MJLCT policy and must obtain recommendations from senior members of the 
community that are MJLCT judge advocates.
    MJLCT judge advocates litigate cases in both special and general 
courts-martial.

    Senator Gillibrand. For the other services, I would 
recommend you to look into this because one of the challenges 
we have is that our services have generally looked at lawyers 
as generalists, that we want you to be good at everything so 
that when you are advising a general, you know a little bit 
about everything.
    But we have seen, when I have delved into how are these 
cases actually prosecuted, how many convictions do you get as a 
percentage of convictions in the civilian world, and what are 
the penalties, we do not actually look very good compared to 
the best prosecution offices in the country. A lot of the DA's 
[District Attorney] offices do not do very well at this either, 
but some do. The ones that do it is because they 
professionalize. So the Manhattan DA's office, for example, is 
a perfect place to look for how do you professionalize 
prosecution of tough felonies. Sexual assault are some of the 
hardest cases in the world to prosecute effectively. They are 
tough because you have to weigh evidence in a way that is very 
difficult, and it is just hard to prove. So when they do it 
well, it is because they professionalize and they have career 
track people who are focused on how do you prosecute tough 
felonies. So I think every one of the services should work on 
this as a way to get better results in the cases that do go 
forward.
    But I would like you each to answer one question. I 
understand you all think we are making progress. Why is the 
retaliation rate unchanged? It is still at 62 percent. 
Retaliation as perceived by the victim are three kinds of 
retaliation: 30 percent peer-to-peer, 30 percent 
administrative, 30 percent professional. So do not say it all 
seems to be peer-to-peer because that is not the case. In a 
third and a third, and if you combine that, that is 60, it is 
from the commander. It is either administrative or 
professional.
    So I want you to talk about why is retaliation where it is. 
Have you personally seen any prosecution of retaliation in your 
services at all this year? If not, why do you think that is? 
Give me an answer on how we fix this retaliation problem.
    I liked the fact that one of you said ``not in my squad'' 
because the perception of these survivors is sexual harassment 
60 percent of the time is from their direct commander, not 
sexual assault, but sexual harassment. So women are perceiving 
their unit commander to be one who is creating a poor climate 
for them to be successful. So that is a huge problem with, 
again, not pushing back on retaliation peer-to-peer or ones 
coming from a commander through administrative or professional. 
I would like your comments on those.
    General McConville. Senator, I agree with you. As we looked 
at the report that came out, the last report, we saw reporting 
going up, which we thought was a good thing, we saw propensity 
coming down, but the retaliation at 62 percent is what we went 
after.
    Really, that is why we put together a retaliation strategy. 
We have got to get that down to the lowest levels, and we have 
got to get it into the squads. We have got to get it into the 
command. We have got to hold commanders responsible. We have 
had cases of retaliation reported. Commanders have taken 
appropriate action. I can come back to you on the record for 
what those actual actions were taken.
    [The information referred to follows:]

    The Army has collected data for the Department of Defense (DOD) 
Sexual Assault Response Prevention Office (SAPRO) as part of its 
department-wide review of retaliation in the Armed Forces. DOD SAPRO 
has provided guidance on how to collect this information and will give 
the Army further guidance on its distribution. If approved by DOD, the 
Army anticipates releasing this information in May 2016, coinciding 
with the release of Annual Report on Sexual Assault in the Military. 
For the way forward, the Army is exploring ways to improve data 
collection that will allow for easier collection of retaliation data 
using existing databases. Additionally, the DOD Comprehensive Plan will 
formalize data collection with a single point of contact and 
standardize definitions of retaliation across the Services.

    But I can tell you that is our biggest concern right now. 
We thought we had a good path both for reporting and for 
propensity, but to us retaliation is the area we still need to 
get after.
    Admiral Moran. I will just add, Senator, that all of us in 
OSD [Office of the Secretary of Defense] have recognized that 
the data on retaliation is not going in the right direction. We 
have got a working group. We are defining, we are setting the 
baseline definition for retaliation because there is a lot of 
misunderstanding about it to many folks, and then throwing that 
and adding it into our training, which is becoming more and 
more effective, on destructive behaviors. We have put 
retaliation into that construct as well. To Jim's point, we 
have to do it at the local level. We have to train peer-to-
peer. We have to make sure we are talking to each other and 
understanding the misperceptions that go along with this aspect 
of sexual assault.
    General Brilakis. Thanks for the question, Senator 
Gillibrand.
    Thanks to this subcommittee and the Congress for actually 
bringing this to everybody's attention. There has been a lot of 
realization into what is going on. The commands themselves have 
taken action to publish policies to identify to make their 
servicemembers understand what it is when we talk about 
retaliation or reprisal. We are participating, along with the 
other services, in the OSD working group to develop an overall 
SAPR retaliation set of policies, understanding these 
definitions, et cetera. In the Marine Corps, the IG [Inspector 
General] and NCIS [Naval Criminal Investigation Station 
Headquarters] primarily are the investigative arms in these 
cases and advise commanders on the information and the 
prosecutorial options that are available to commanders, as far 
as this goes. It is a crime. It cannot be tolerated. We are all 
taking steps to make this one of those things that is knowledge 
in action or prevalent within the services.
    General Grosso. Senator Gillibrand, the only thing I would 
add to that is that we are educating all leaders that more than 
one out of every two victims that come forward experience some 
negative outcome that they perceive as negative. I think that 
is very surprising when you start sharing that data. So you 
have to be cognizant that whatever you are doing--we are not 
doing enough so that these victims are getting the care they 
need. So we have started doing that.
    The other thing we have emphasized is the people that the 
victim comes forward who they trust to be much more proactive 
and ask how are you doing, can I help you, how is your 
experience in the workplace going. So those people that are 
primary caregivers and that are SARCs [Sexual Assault/Spouse 
Abuse Resource Center] that do more in the case management--we 
want them to be more engaged with the individual, knowing that 
more than one out of every two has some negative experience, so 
be a little bit more involved in soliciting their input and 
addressing it at real time.
    Senator Gillibrand. Just quickly a yes or no. Do you know 
of any cases of retaliation being prosecuted in your service? 
Just yes or no.
    General McConville. I am not aware.
    Admiral Moran. Yes.
    General Brilakis. I do not at this time.
    General Grosso. No.
    Senator Gillibrand. Because I would like to follow up with 
you on a case.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair, and my compliments to 
the staff on cleaning up that spill. I thought they were going 
to have to use a shop-vac. It was a big one.
    Thank you all for being here.
    A quick question on TRICARE. The legislative proposal for 
2017 looks like it aims at keeping most of the beneficiaries in 
the military hospitals and the clinics. Do you agree with that? 
Do you think that that is the right strategy? Can you explain 
to me why?
    General McConville. Senator, I think, at least from a 
military standpoint, we cannot outsource combat care, and so 
that should be the number one priority. Having just returned 
with the 101st Airborne in combat, we have the incredible 
medical providers, and that is going to be the number one thing 
to do. So we got to keep that capability within our medical 
treatment facilities.
    We also have an obligation to take care of our families and 
our retirees. That is where we need to take a look at how to do 
that best. There are some places, medical treatment facilities, 
where we just do not have the work to keep them open. So we 
have got to be innovative and maybe we bring them down to 
clinics, but we still meet the needs. There are some cost 
savings. We can get at those things while we are providing the 
right care. But we got to think through how we do that. So some 
places we can do it. Other places we cannot. But the overriding 
principle for us is are we maintaining the readiness of the 
military, do we have the right medical folks ready to go to 
combat if we need to do that.
    Admiral Moran. Yes, I completely agree with Jim's 
assessment, Senator.
    Senator Tillis. Thank you.
    General Brilakis. I do as well, sir. Our medical treatment 
facilities--we have invested huge amounts of money. We have got 
great talent in there. They have to be kept up to speed. They 
got to learn their job. We do that by ensuring a constant flow 
of patients. But we cannot do that at the expense of our 
families and our servicemembers. So we have got to make sure we 
balance that with the things that are available to those 
members that are outside the proximity of a medical treatment 
facility. I think ultimately it is a very careful balance, 
managing costs, availability, access, and also health care.
    General Grosso. We would agree as well. Where there is 
availability, we would for every beneficiary go to an MTF.
    Senator Tillis. You know, one thing I would like for us to 
do is look at as much collaboration as possible. I sit on the 
Veterans Affairs Committee, and we are talking about--we 
obviously have to invest for a certain amount of capacity. So 
in some of our facilities, we may not be at capacity, but we 
are prepared, in the event that we need to, to find some 
efficient way to make those resources available. At times, you 
have other instances where maybe you do not have the capacity. 
But I think collaboration and collaboration with the private 
sector and the communities you are embedded in--I would like to 
see more of that, just get more leverage out of it.
    I do not know if Senator Gillibrand brought this up, but I 
am kind of curious. There is one thing that we talked about in 
a full committee a week or so ago, and it has to do with 
cutting the reimbursement rate for treatment for autism, 
children with autism. It looks like we are cutting that really 
below the national average. That could be at the expense of 
providing treatment.
    In your experiences, are these kinds of treatments things 
that your military families are concerned with, and do you 
share the view that maybe we should delay cutting the 
reimbursement rate?
    General McConville. Well, Senator, I know we have an 
exceptional family member program, and a lot of our military 
families look to that to take care of their children. I know 
some very close to me that have children in that program. So 
from a standpoint, I would have to look at the absolute case, 
but I think we owe it to these families who are serving in the 
military the care they need for their kids.
    Senator Tillis. It seems to me there is nothing more we 
could do to help our soldiers stay focused on their duties than 
to make sure we are taking care of their families back home.
    Admiral Moran, do you have a comment?
    Admiral Moran. No, sir, not really other than I am sure 
that any family--and I have got sailors working for me who have 
autistic kids, that if they see the benefit to the treatment 
that their children are getting being eroded through rate cuts, 
they are concerned. I would have to look at what the exact 
proposal is and balance that against all the other----
    Senator Tillis. Well, I think the other thing to look at--I 
want to ask another question. It is on a different subject. But 
I think the thing to look at, increasingly a number of private 
sector companies are providing these treatments. Other States 
are mandating the care. It could ultimately become a threat to 
people who would otherwise like to stay in the military where 
the financial burden is such that they will go get a job where 
the coverages are out there. It could ultimately represent a 
loss of good people who would otherwise stick around if they 
had the same alternative under TRICARE.
    A completely different subject, and it has to do with 
commissaries. Can you talk a little bit about what we can do? 
You know, there is some discussion of privatization. We know 
there are a lot of concerns expressed with that. Can you talk 
about things that we can do that could potentially improve 
efficiency and maintain costs? I think that is one of the key 
drivers behind people's support of the current plan is because 
they do not want to see the costs go up.
    We will start in reverse order this time.
    General Grosso. Well, we think there a couple things, and 
actually I think these are policy issues that they are working 
at the OSD level. But one of them is variable pricing so that 
they have some flexibility depending on their location to 
maximize the price competitive with their local area.
    I think the second thing is local branding, so getting a 
DeCA [Defense Commissary Agency] brand that has the potential 
to save a significant amount of money.
    Then I think the third thing would be to leverage the 
efficiencies that the exchange services have got in the back 
shop and learn from the exchange services to lean out the 
business portion of the DeCA process.
    Senator Tillis. Thank you.
    General Brilakis. Senator Tillis, thank you very much.
    I agree with everything that Gina just said. Variable 
pricing, branding, et cetera, all those are limitations on what 
they can do. We need to take a look at it as a business, and if 
we are going to achieve efficiencies in the commissary program, 
we need to look at it and execute it that way. One hundred 
percent APF-funded [appropriated fund]. The real question is 
how do we bring that down. Our exchanges at one point were that 
way, and now they are all NAF-funded [nonappropriated fund], 
although I do have some concerns about trying to have the 
exchange services become combined with the commissary services.
    DeCA needs to be brought into a more business-like footing 
before we go to consideration about combining both exchange 
services and commissary services because each of the services 
do their exchanges a little bit different and the result and 
the dollars that go to support our marines, soldiers, and 
airmen and sailors reside and rest on our ability to run our 
exchange services economically and successfully.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Senator Graham. Senator King?
    Senator King. I want to move to another subject. All of you 
at the beginning of your testimony spoke in terms of working on 
drawing down, on reducing force and where you are in that 
process. The other hearing that I am supposed to be at right 
now--and I am going to have to leave shortly--is with Director 
Clapper, the Director of National Intelligence, who testified 
before this committee that in his 50 years of Government 
service, he has never seen a more complex, dangerous, and 
growing threat environment than what we are facing today.
    It worries me that we are doing these drawdowns based upon 
decisions about budgets made in 2011 before ISIS [Islamic State 
of Iraq and Syria], before Syria, before North Korea nuclear, 
before the South China Sea, before the Ukraine, and we are 
embarked on a policy direction that may not comport with the 
reality that we face.
    General, could you comment on that?
    General McConville. Yes, I could, Senator.
    As you know, the Army is on a drawdown ramp to 450,000 
soldiers. That 450,000 soldiers--980,000 in the total force. 
That was based on some conditions and assumptions that were 
made around the 2011 to 2012 time frame. Those assumptions and 
conditions are changing. We are sitting today at 482,000 
soldiers, a little over a million in the force right now. I 
think as we move forward, we need to take a look, if the 
conditions have changed, what the type of things we want our 
Army to do and how much risk we should take.
    Senator King. One of the things that worries me is if 
conditions do change--and in fact, they are changing before our 
eyes--and you need to ramp back up, that is not a spigot you 
can turn on. That is an 18-month--to stand up a brigade is, I 
am told, 18 months to 2 years at the shortest. Is that correct?
    General McConville. That is absolutely true.
    Senator King. Other comments on the idea that maybe we have 
got the aircraft carrier, Admiral, going in a certain direction 
and we need to think about changing direction.
    Admiral Moran. Yes, sir. Senator, thanks for the question.
    You know, we have spent the last 2 or 3 years now trying to 
reset our OPTEMPO [operational tempo] to something sustainable, 
both for the equipment that we have and just as importantly for 
the people. The crises you talk about--we always counsel our 
sailors that as much as we are trying to drawdown our OPTEMPO 
so it is more reasonable and sustainable and predictable for 
sailors and their families, the world is getting a vote.
    Senator King. But if the threats are going up----
    Admiral Moran. That is what I mean.
    Senator King.--and the people are going down, the OPTEMPO 
is going to go up. I worry about burning people out. This 
hearing is about personnel, and we are talking about 
compensation and retirement. But the OPTEMPO is a big factor. 
Is it not?
    Admiral Moran. Absolutely.
    Senator King. General, do you agree?
    General Brilakis. Absolutely, Senator King.
    In our reduction from 202,000 down to what was originally 
186,800 marines, which was determined to be the optimal number 
for the size of the force, the balance of the marine air ground 
task force, the capabilities and the sustainment of rotational 
deployments, the OPTEMPO and DEPTEMPO [deployment tempo], we 
have since--because of the price sensitivity that we have, as I 
testified earlier, about 7 cents out of every dime goes to pay 
for our people. So when reductions pressures--sequestration 
puts pressure on the top line, the only way that we can pay 
that is a reduction in the end strength. So we have gone from 
186,800, which is the ideal size, to 184,000, now down to 
182,000 primarily due to budgetary pressures.
    Even in that determination of the 186,800 marines as being 
that balanced force, since that time, in the last 4 years, 
these issues that you brought up, a rising Russia, South China 
Sea concerns, additional forward presence, rotational 
requirements, additional actions in the regional areas, has put 
even further pressure on that. In the readiness component, our 
ability to provide ready Forces today has been--we are under 
pressure. We are already above what we believe to be the 
sustainable number, the one to----
    Senator King. Certainly we cannot avoid--or should we avoid 
budgetary considerations? We all have to live within budgets. 
The whole country does. But the driver should be the demands 
and the threats.
    General Brilakis. Absolutely, sir. I think we need to 
balance the things we ask of our services to do and especially 
in uncertain times like we have today.
    Senator King. General, in your opening testimony, you said 
something like this is the smallest Air Force we have had in--
--
    General Grosso. Yes, Senator King. In fact, you will see in 
our budget that is why we are growing end strength. So we are 
through the drawdown. We are growing back up to 317,000, and we 
absolutely believe we need more for the very reasons you cited.
    Senator King. I am running out of time. I would like to ask 
a question for the record, if you all could supply us. We made 
some changes last year in the retirement program, and I am 
interested in sort of mid-course discussion of how that is 
working. Should there be some modifications to it? Is it 
working in the way it should? I have heard a complaint that 
lower-level enlisted people cannot make the payments or have 
the financial education necessary to make the payments into the 
401(k) that gets them to their 50 percent at the end. I would 
just like your thoughts on how that looks now from the field.
    [The information referred to follows:]

    General Grosso. The new retirement system is scheduled to take 
effect on January 1, 2018. The Air Force, in concert with the other 
services and the Office of Secretary of Defense, is currently working 
on several lines of effort in order to make sure we are ready to 
execute on schedule and our Servicemembers receive the proper 
education. First, in terms of policy, the Department of Defense is 
drafting the implementation policy. Once published, it will be used to 
ensure the Services all implement in the same manner.
    The education of our airmen is a major focus area and will be an 
ongoing process beginning later this year and continuing up to and 
beyond the effective implementation date in 2018. In addition to pre-
implementation training, we are developing systematic, reoccurring 
training throughout an airman's career. As examples, there will be a 
series of courses beginning the latter part of CY2016 to address the 
key target audiences for this change: leaders/supervisors, 
servicemembers with less than 12 Years of Service, financial managers 
or personal financial counselors and finally new accessions. An ``Opt-
in'' course will be targeted at the large group of airmen who will be 
making the choice whether to opt into the new system or remain with the 
current retirement plan. We are also developing a ``train the trainer'' 
for financial professionals, counselors and managers who will be 
advising our airman as they make these critical decisions.
    The decision on how much to contribute to the Thrift Saving Plan 
will be different for every airman. As the education mechanism is 
matured and each airman understands his or her choices, they will be 
able to make the decision that is best for his or her situation. This 
contribution decision is not static and will likely change based upon a 
member's life events. To aid in an airmen's decision, a retirement 
calculator will be created which airmen and their families can access 
from work or home to facilitate the choices using their own pay data.
    With regard to potential modifications, we continue to believe that 
flexibility in execution of the Continuation Pay is a critical aspect 
for the Services to be able to shape the force and maintain the right 
retention level for each service. As well, TSP matching to the end of a 
member's service recognizes the contributions and maintains the pool of 
senior leaders (both officers and enlisted) needed to manage our force.
    General McConville. The retirement changes go into effect in 2018, 
and so far everything is on course for a successful implementation. The 
Department of Defense did submit some modifications in the fiscal year 
2017 Defense Omnibus. Of these, the most important is the flexibility 
in the administration of continuation pay. The program so far is 
working the way it should. We are revamping our financial education 
plan in 2017 so that the lower-level enlisted force has all the 
necessary financial education to make an informed decision about their 
retirement selection. All personnel can contribute up to 5 percent of 
their pay into their Thrift Savings Plan (TSP) retirement account and 
get a matching 5 percent added from the Government.
    Admiral Moran. We are preparing to implement the Blended Retirement 
System (BRS) on January 1, 2018. As we prepare, we believe that 
additional flexibility to offer Continuation Pay (CP) earlier, or 
later, than 12 years of service, as is currently specified in statute, 
would be critical to its efficacy as a force management tool.
    I am unaware of sailors expressing concerns over an inability to 
make contributions into the Thrift Savings Plan (TSP). Anecdotally, 
sailors appear appreciative of the flexibility and choice BRS will 
offer, should they elect to opt in. We will provide financial literacy 
training that gives sailors the information necessary to make the best 
decisions for their individual situations, including training on the 
advantages and risks of enrolling in TSP and the benefit of matching 
Government contributions. This is important for the long-term financial 
security of all our sailors, including those who serve only a single 
term as well as those who remain for a career.
    General Brilakis. The modernized retirement system is set to go 
into effect 1 January 2018. It is too early to assess it. As we 
approach the effective date, we will monitor the changes closely for 
impacts to all marines, paying close attention to our young enlisted 
population, and assess whether or not they are able to make sufficient 
contributions to their Thrift Savings Plan.
    The Marine Corps currently employs a financial education strategy 
that provides all marines access to financial education topics timed 
and targeted with corresponding life events like deployments, 
promotions, reenlistments, marriage, and retirement. This strategy 
ensures that Marines are aware of their compensation and benefits and 
are prepared to make timely decisions necessary to ensure their 
personal financial readiness. We are updating our financial education 
and counseling curricula to give all Marines the information they need 
so that they can make an informed decision about the modernized 
retirement system and the Thrift Savings Plan.

    Senator King. The other thing I would like for the record--
I had a conversation this morning with the Admiral, that 84 
percent of his incoming recruits are from military families. My 
question is, is that true of all of you, and is that 
sustainable given the smaller size of the military? If that is 
where our main recruiting pool is, we are going to have to 
think, it seems to me, about broader recruiting.
    [The information referred to follows:]

    General Grosso. When we review the survey's completed by our new 
airmen in the Air Force, approximately 52 percent state they have an 
immediate family member (parent) who served in the military. At this 
time we feel this number is sustainable with the size of the Air Force 
and also a healthy number as it reflects we are actively recruiting 
members who have no previous affiliation or family ties to the 
military. We continue to expand recruiting efforts beyond traditional 
recruiting pools and look to further advancements in the future 
expanding our recruitment, seeking greater diversity and continuing to 
attract talented youth into the United States Air Force.
    General McConville. The Army does not have the ability or data 
available to view prospects' family's military backgrounds. The Joint 
Advertising Market Research and Studies (JAMRS) surveys provide 
insights into recruiting, advertising and marketing trends. The JAMRS 
Spring 2014 Department of Defense New Recruit Survey of approximately 
8,000 Army recruits surveyed indicated: 26 percent had a father who 
served in the military, (16 percent in the Army only); 6 percent had a 
mother who served in the military, (4 percent in the Army only); 79 
percent had a parent, step parent, grandparent, sibling, cousin &/or 
aunt/uncle who served in the military, (59 percent in the Army only).
    Admiral Moran. A recent Joint Advertising Market & Research Studies 
(JAMRS) report reflects that 82 percent of Navy recruits have a family 
member who served in the military. While we have always focused 
recruiting efforts and resources across the population of the nation in 
search of the highest-quality talent within the eligible market space, 
a decline in the overall veteran population will create a tighter 
recruiting market in the future. We also expect the recruiting 
challenge to grow as the economy continues to improve and competition 
for the best and brightest becomes increasingly keen.
    General Brilakis. According to the Joint Advertising Market 
Research and Studies, 77 percent of new Marine Corps Recruits indicated 
that they have a family member who served; 22 percent indicated they 
had a parent who served. My own personal story is that I have served 
over 34 years in the Marine Corps. My father served two years in the 
Air Force at the end of the Korean War and my brother served five years 
in the Coast Guard. My wife served three years in the Army after she 
graduated college, and my daughter is currently serving as a Navy 
Corpsman in Sigonella, Sicily. While my family has a long history of 
service to the Nation, only I chose to make military service a career 
choice. I'm very proud of our collective service--especially as the son 
and grandson of immigrants.

    Senator King. So I am out of time, but I hope you could 
give me some response to those for the record. Thank you very 
much.
    Thank you, Mr. Chairman.
    Senator Graham. Senator Wicker?
    Senator Wicker. Well, thank you all for your service and 
your testimony.
    You know, Senator King's question about any changes that 
might need to be made early, maybe not mid-course, but early 
corrections that need to be made on this major change enacted 
last year--I think that is worth talking about. So let me start 
down here with Lieutenant General McConville. Has Senator King 
uncovered something that is a concern that needs to be worked 
out?
    General McConville. Well, Senator, I think there is a 
concern when I look at the new retirement program. It has great 
value in the fact that about 85 percent of our soldiers will 
get some type of retirement. What we worry about is our 
noncommissioned officers. The way the retirement works is you 
get 40 percent at 20 years. The way you make that up is by 
going along and saving in the thrift savings program. So for 
most folks, the way the math works out, if you max out your 
savings and put it in there and do what you want to do and get 
your continuation pay, you will probably be ahead at retirement 
age if you do that.
    But a lot of our young soldiers live paycheck to paycheck, 
and if they cannot start saving early, they are going to have a 
tough time staying with the force when they get to 20 to 25. We 
have some great noncommissioned officers who are serving 30 to 
32 years doing hard work, and we want to make sure that they 
have a good retirement when they get to that level.
    Senator Wicker. We will just go on down the line here.
    Admiral Moran. Yes, sir. Senator, there are several 
proposals that DOD has put forward that they would like to see 
modified. The one that is most important to me is the ability 
to force shape at the mid-career. So this continuation pay at 
12 years is locked right now at 12 years. I believe in the 
Navy, in particular with our growing high-tech skill 
requirements and our lower skill requirements, we need 
flexibility in that 12 years. Something from 8 to 14 might be 
more appropriate. But I can get you more detail on what we 
think would be best for the Navy. The other proposals are 
interesting, but I think the most important to me and the Navy 
is the ability to have flexibility in the 12-year continuation 
pay proposal.
    [The information referred to follows:]

    As we prepare to implement the Blended Retirement System (BRS) on 
January 1, 2018, the flexibility to offer Continuation Pay (CP) 
earlier, or later, than 12 years of service, as is currently specified 
in statute, would be critical to its efficacy as a force management 
tool. We would prefer that the statute offer sufficient flexibility for 
each Service to implement payment of CP as early as the 8-year point 
and, perhaps, as late as the 14-year point, as the force management 
needs of the individual Service dictate.
    Having the flexibility to adjust the timing of when CP is paid will 
provide an important tool for managing the required All-Volunteer Force 
profile with the proper mix of personnel in specific enlisted ratings 
and officer designators.

    Senator Wicker. General Brilakis?
    General Brilakis. Senator Wicker, thank you very much.
    I agree with Admiral Moran and General McConville. You 
know, we have not begun the retirement program. It begins the 
beginning of calendar year 2018. So we are still not sure 
exactly what we are going to get. We are not sure on the take 
rate because our young enlisted marines and officers will have 
the option of whether they opt into the TSP [Thrift Savings 
Plan]. They will have that 20-year retirement at a lower rate, 
but if you are going to come close to what the current 50 
percent retirement at 20 years provides, you have to start 
doing the savings. I think that goes to Jim's earlier comment 
with respect to the NCOs.
    On the continuation pay, we believe that we do need the 
flexibility because if we are having retention issues earlier, 
it would be one of those things that we can use to increase our 
retention.
    Senator Wicker. General Grasso, do you take serious issue 
with anything that has been said, or should we move along to 
another topic?
    General Grosso. Continuation pay. We would like to see 
matching up to 30 years of service, not stopping at 26 because 
we have a significant portion of our senior NCOs that serve 
that we need to stay in beyond 26 years.
    Senator Wicker. Let us see. Admiral Moran, on page 18 of 
your testimony, you talk about the drug abuse policy in the 
Navy is zero tolerance, detection, deterrence, and prevention. 
Then you also mentioned prescription drug abuse, wrongful 
prescription drugs. You have increased detections there. We are 
dealing with this issue right now on the floor of the Senate 
with regard to the general population.
    I will start with you and then ask if anybody else has any 
thoughts about that. Do you have any suggestions for us as we 
grapple with this issue society-wide that we might learn from 
what you have learned specifically in the Navy, sir?
    Admiral Moran. Senator, I really appreciate this question.
    The difficulty with this problem is that it is moving all 
the time. Prescription drugs or drugs that develop over time 
are moving at a pace that it is not your traditional illicit 
drugs that we are worried about so much, but it is some of the 
other ones that come along.
    On the prescription side, there are policies that we have 
had that we continue to have to educate our workforce about, 
that when an expiration of a prescription is complete, you are 
not allowed to continue to use that once or even a year later. 
I see these cases all the time. There is a misunderstanding, 
but there is also maybe some character issues with some of the 
folks. But most of it is just a lack of understanding on both 
the command side and the policy for the young sailors. So we 
are trying to educate our force better to make sure we can get 
our arms around this.
    Senator Wicker. You are working, obviously, with your 
medical corps on that.
    Admiral Moran. Absolutely. Yes, sir.
    Senator Wicker. Anyone else want to jump in in the limited 
time we have?
    [No response.]
    Senator Wicker. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Graham. Anything else?
    Senator Wicker. Well, okay. Let me make one observation. I 
notice, Admiral Moran, you talk about diversity. I am certainly 
happy that you are involved in that. Religious diversity within 
the services.
    We have a concern, many of us, about basically tolerance 
for it is okay to be a Christian in the service. We see some 
evidence in some of the publications that come forward that 
there has been an overreaction on the part of supervisors for 
our military personnel simply displaying at their workplace an 
indication that they are Christians and that they feel 
seriously about that and making that statement from a personal 
standpoint.
    I will not ask you to respond, but I would just say I hope 
that we do not bend over backwards so far in the name of 
diversity that we start trampling on the First Amendment rights 
of our servicemembers at whatever level to express their belief 
in a certain religious doctrine and that we do not, in the name 
of diversity, or some opposition to or some concern that we 
might offend, that we do not overreact and start trampling on 
the rights of Christian service people to express themselves, 
just as we allow minority members to express themselves.
    Thank you for indulging me on that, Mr. Chair.
    Senator Graham. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chair.
    I would like to follow up on what Senator King was talking 
about earlier, the end strength issues. In particular, General 
McConville, if you do not mind, I want to focus a little bit on 
the Army end strength.
    So the QDR [Quadrennal Defense Review] put an Army end 
strength at 450,000, and as you know, General Milley is taking 
a hard look at that, given the significant national security 
threats that we are seeing globally that certainly were not 
really as nearly apparent as Senator King mentioned when that 
number was initially put out there as a target.
    In the last 2 weeks--just 2 weeks--before this committee, 
we have had the PACOM [United States Pacific Command] 
commander, EUCOM [United States Europe Command] commander, 
CENTCOM [United States Central Command] commander, SOCOM 
[United States Special Operations Command] commander, commander 
of our Forces in Korea, AFRICOM [United States Africa Command] 
commander, all expressing concerns even today, this morning, 
three four-star Army generals at the pinnacle of their career 
on the 450,000 number as representing too high a risk for the 
country's national security. Do you agree with that assessment?
    General McConville. I am very concerned about 450,000. I am 
the Chief of Personnel, and I am supposed to man the force. I 
am manning the force right now at 482,000.
    Senator Sullivan. Are you stretched? Do you feel that you 
are stretched at 482,000?
    General McConville. At 482,000, we are able to meet 
requirements but we are stretched.
    Senator Sullivan. Do you see any of the threats and 
requirements due to those threats lessening in the next 6 
months or year or 2 years or maybe even increasing?
    General McConville. Well, if I knew, I am not sure, but I 
think we need to be ready for the threats to increase. That is 
the buffer we provide. You know, I said to the committee I 
commanded the 101st Airborne Division. I have been in this job 
19 months now. The 101st Airborne Division has deployed twice. 
It went to Liberia and they fought Ebola, and now they just 
took over in Iraq. So that is the OPTEMPO that our soldiers are 
seeing as we bring the force down. Again, we are at 482,000 
right now.
    Senator Sullivan. So what should we be doing? I believe 
there is bipartisan support on this committee to relook at and 
increase that number. Is that something this committee should 
be looking at, increasing the 450,000?
    General McConville. You have had a chance for General 
Milley to give you his assessment. He is doing posture hearings 
right now. I think the way ahead is for him to take a look at 
what we have, what the future looks like, do assessment, see if 
the conditions are going to change, then come back with a 
recommendation through the Secretary of Defense for where we 
should go on that.
    Senator Sullivan. How important do you think it is? It is 
one thing to have the Chief of Staff of the Army, other members 
of the Army talking about this. We know that sometimes services 
want to make sure there is significant Forces. But how 
important do you think it is that literally every combatant 
commander--every single combatant commander--regardless of 
branch of service, has come before this committee saying 
450,000 is going to be a too substantial risk to the Nation's 
security? Do you think that bolsters the case that the 450,000 
number is too low
    General McConville. Well, I think as we know, the combatant 
commanders are the ones who are going to execute the mission. 
They are taking a look at their requirements, and they are 
coming back and providing their best military advice, and that 
best military advice will come in at the Secretary of Defense 
level and they will decide how they want to best allocate the 
resources that we have.
    Senator Sullivan. Let me ask another question that relates. 
I know there was a discussion of some of the issues surrounding 
the Force of the Future, Mr. Carson's focus on this. This is 
just a general question. Do you see sometimes that the 
requirements from the Congress or sometimes the civilian 
leadership sometimes forget about the focus on warfighting?
    I am just mentioning that as someone who served in the 
Reserves and on Active Duty for over 2 decades. It always seems 
like there are new requirements that are coming from somewhere 
for our Forces to undertake in terms of training. In my 
experience, they rarely relate to the core focus of what we do 
in the military. In the Marine Corps infantry, it is close with 
and destroy the enemy.
    Do you sometimes worry--and I am just asking all four of 
you--that we get that balance out of kilter to the detriment of 
our readiness and training, particularly if they are mandates 
coming from Congress? Or do you think that right now the focus 
on training and the military's core mission, which is to defend 
the country, is still the priority that you are hearing from 
this committee or other Members of Congress or other civilian 
leaders?
    General Brilakis. Sir, I think it is a concern for all of 
us on a daily basis. I do not think there is any decision we 
make or any action that we make that is not focused wholly on 
readiness and implications on the force and how it affects us. 
The Force of the Future in specific in our interactions with 
OSD on the working groups and at the executive level--we have 
asked for flexibility.
    Senator Sullivan. Were you even consulted on a lot of those 
initiatives as the uniformed military leaders?
    General Brilakis. Sir, we participated in a set of working 
groups at the colonel and general officer level during the 
course of the Force of the Future development. We had the 
opportunity to make our concerns known. I for one maintained 
concerns in the cost, which is not readily apparent, whether it 
is cost in terms of opportunity cost, whether is in terms of 
cost of dollars, the amount of time that we have had to study 
some of these recommendations, et cetera.
    But I do believe that we will have the opportunity, having 
submitted some implementation plans already on some of the 
things the Secretary has already announced. The starting date 
for some of these is in the future, and we will have the 
opportunity to take a look at these and study them, to learn 
the costs.
    Most importantly I think to all of us was the flexibility 
in the recommendations that the services, based on mission, 
service culture, et cetera, had the ability to take a look at 
what applied to us, what did not apply based upon what we have 
done because, quite frankly, there are things that we do as a 
Marine Corps that the Air Force does not do right now. The 
Force of the Future wanted everybody to take a look at it.
    So there are actions and activities. I do not know the 
future costs. I do know the costs are out there, and I do know 
in this fiscal environment, those costs may supplant some of 
the other things that we are concerned about.
    Senator Sullivan. Any other thoughts on that? Thanks, 
General.
    General Grosso. Sir, I would just add that it is always 
about readiness today versus readiness tomorrow. So if you 
think about it, the airmen and soldiers and sailors and marines 
that we are bringing in today will be fighting more in 20 to 25 
years. So the Force of the Future actually synchronized 
relatively closely with the Human Capital Annex we wrote as 
part of our new master strategic plan in 2015. So I do think it 
is important--and General McConville mentioned this--that we 
modernize some of our personnel practices. The Force of the 
Future has helped us do some of that.
    Senator Sullivan. But not at the expense of the serious 
mission and training that is required by our military.
    General McConville. Yes, sir. What I see is it is a zero 
sum game. So we have got to be ready. We have got to be ready 
to fight now. In fact, we are fighting now. So it is not a 
question, you know, are we going to fight tomorrow. So we are 
going to fight now or we are going to fight tomorrow.
    But within the Force of the Future, there are some things 
that are worth the cost, and I would argue the integrated 
personnel and pay system, which is going to fundamentally 
change the way we can manage the total force--for the first 
time, we will have the total force, all three components, on 
one system. We will be able to actually manage the talent 
management of 1 million soldiers, and we will be able to meet 
the auditability requirements of the Congress all with this 
system. So when I look at that, that is something we absolutely 
want to do as we go forward.
    Admiral Moran. Senator, I agree with Jim--everybody here 
really--in terms of the value of the Force of the Future is it 
set tension in the system of trying to understand, on one hand, 
what should be mandated. On the other hand, where we all kind 
of camped out was give us discretionary authorities where we 
needed to manage our Forces. We are all different. Some are 
getting smaller. Some are getting bigger. We need different 
authorities at different points in time. So mandates do not 
necessarily help us.
    Consider TERA, or the Temporary Early Retirement Authority. 
Some of us have used it in the last 5 years. Others have not 
seen the need. It is nice to have the discretionary authority 
when you are trying to manage these Forces.
    To your original question, though, on the burden of 
training, I think we all enter that discussion and 
consideration that at the end of the day, some of this training 
is absolutely necessary so that Americans have confidence in 
their military. There are issues that we all deal with every 
day that we have to balance fiscally, but if we do not have the 
confidence of the American people--and we have tremendous 
confidence today. We want to keep it. So that training is 
foremost in our mind. Much of it comes from Congress, and there 
is a lot of it that we put on ourselves that we have gone back 
and looked at to try to reduce that burden on the fleet so we 
can get to your very good point about are we training to war-
fight. We have been challenged by that over the last 10 years.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Graham. Any other questions of the panel? Yes?
    Senator Gillibrand. I am going to submit for the record a 
line of questioning about combat integration that I would like 
you to answer, and they are specific to each of the services. 
Thank you.
    Senator Sullivan. Mr. Chairman, I just had one other.
    Each of you mentioned in your testimony--and I apologize if 
we have already talked about this, but the initiatives that you 
are taking particularly with regard to mental health care for 
uniformed members transitioning out of the military. We are all 
on this panel very concerned, as I know all of you are, on the 
issue of suicide. Do you think that we are getting a handle on 
that issue? Do you think that we are reducing the stigma that 
relates to some of these mental health issues or issues that 
are kind of related like PTSD and other issues that can lead to 
suicide?
    General McConville. Well, Senator, this is something that 
is very important for the Army. We have really gone after this 
problem. So we have done some studies. We had MIT 
[Massachusetts Institute of Technology] do a study because the 
key thing about behavioral health issues is, when I look at it, 
people do not commit suicide. They die of suicide. People do 
not commit heart disease. They die of heart disease. So what we 
have to do is we have to make sure they get the care and they 
get it early on. If there is a stigma attached to it, they are 
not going to do it.
    We just had a study done by MIT from 2003 to today. 
Basically we have gone from 5 percent to 15 percent of our 
soldiers are using behavioral health care. We are also seeing a 
number of soldiers that have come into the Army with behavioral 
health challenges. That has gone down.
    The other thing that was really key for us was putting 
embedded behavioral health down at the brigade level. So it is 
near the point of need. You know, the stigma was before you had 
to go find it. You had to get to it. You had to try to get an 
appointment. By pushing it down to where our soldiers can get 
it early, that is when we get the best results. So it is early 
and it is near. That is what we want to do, and that is were we 
are going to get the best results.
    So we are starting to see some reductions. One suicide is 
still too many, but we are starting to see some trends in the 
right direction on that.
    Admiral Moran. Senator, this is immensely important to all 
of us. I think we are learning from each other as we go down 
this path. I am very keenly interested in what the Marine Corps 
is doing in their Marine Intercept program. They figured out 
that a lot of young men and women who have ideations ultimately 
do commit suicide. It has not always been well understood. We 
are beginning to see the data now that says we have got to pay 
a lot closer attention to those with ideations, in other words, 
stay with them much longer through the process, and you may 
have to stay with them forever to make sure that they feel like 
they are part of the team and not alone and isolated. That 
generally is where we are seeing the suicides occur in young 
males primarily in our service.
    General Brilakis. The issue of stigma, Senator--it is a 
great question. It is about talking to marines early and 
talking to them often. It is about discussing those elements 
and letting them know that any issue that they may have that 
comes up, we are dealing with youngsters whose maturity levels 
are developing, and their coping mechanisms are not necessarily 
fully developed. We put them in a hyper-pressurized 
environment. You never want to drive anybody into the shadows. 
You want to bring them out. Having that discussion, making them 
understand what it is that we can do, all the resources that 
are available, making them available in such a way that they 
are wearing the same uniform that those individuals are, that 
they are not wearing the same uniform, so depending upon who 
they feel they can reach out to is important.
    Admiral Moran mentioned the Marine Intercept program. One 
of those things that we developed with feedback from the 
marines, a program that once we identify an individual, whether 
it is through an ideation, whether it is through just an 
admission that things are rough, we put them into that program. 
We offer them the opportunity to involve the Marine Intercept 
program. They have the ability to opt out. About 80 percent of 
them accept the Marine Intercept program. We have 1,500 marines 
currently on it, and for those that are involved, they have 
accepted it, we have not to date seen one individual die from 
suicide. It is a grassroots effort, but it is a growing effort 
and we continue to work those issues hard because a suicide is 
a very complex problem, as you well know.
    General Grosso. We have just seen our suicide rates go up 
the last couple years, which is causing us great concern. We 
have taken a pause in how we are addressing it, and we have 
actually learned from our sister services on how we can get 
better at this. So we are putting a lot of resources back into 
understanding why is this happening and what can we do about 
it. That is when we decided to, again, put these prevention 
specialists at the installation level. We also need, we 
believe, just like our sister services, to put more resources 
down at the individual level on the installation to help 
people--make it easier for them to get help basically.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Graham. Anything else?
    [No response.]
    Senator Graham. Thank you all for your testimony.
    We have received testimony from these witnesses and others 
on these important topics in advance of today's hearing. I move 
that we include all written statements received by this 
subcommittee for today's hearing on the record. Without 
objection, so ordered.
    Senator Graham. Thank you all very much.
    The next panel, please.
    [Pause.]
    Senator Graham. Thank you to the second panel here. Now we 
will go ahead and get started with Ms. Roth-Douquet.
    Ms. Roth-Douquet. Douquet.
    Senator Graham. Douquet. I am sorry. Thank you.
    Ms. Roth-Douquet. Thank you. It is a difficult name.
    Senator Graham. No, a nice name.

STATEMENT OF KATHY ROTH-DOUQUET, CHIEF EXECUTIVE OFFICER, BLUE 
                         STAR FAMILIES

    Ms. Roth-Douquet. Senator Graham, Senator Gillibrand, I 
really appreciate you having us here today.
    I am Kathy Roth-Douquet, and I am CEO of Blue Star 
Families. Blue Star Families strengthens military families and 
our Nation by connecting communities and fostering leadership. 
It is the largest chapter-based military families serving 
nonprofit in the U.S. We serve 1.5 million military family 
members annually. We have 35 chapters at home and overseas. BSF 
[Blue Star Families] bridges the gap between our military 
family community and the general public. We have strong ties to 
all branches of services, including Guard and Reserve, 
transitioning veterans, wounded servicemembers and their 
families.
    We are nationally recognized for our annual Military Family 
Lifestyle Survey. It is the largest of its kind, and it 
provides both quantitative and qualitative data that reveals a 
snapshot of the current military force and their families and 
how they are experiencing service life. We conduct it annually. 
We release it with the House and Senate Military Family 
Caucuses, and it is used broadly by the White House, Congress, 
DOD, State and local officials, other nonprofits and 
foundations to help understand our current military family.
    I appreciate that you are focusing particularly on health 
here. We understand health for the military community to be 
broadly stated. It is both immediate issues of health care and 
those conditions that allow families to be healthy and 
resilient.
    Military families are central to the security of our 
Nation. We are doing something unprecedented. This is the first 
time in the history of civilization that such a small number of 
free people voluntarily patrol the globe and keep it safe for 
everyone. Those people have families and nobody should be made 
to choose between serving their country and making sure that 
their family is thriving. All of us care about our families, 
and we will not do work that hurts our families.
    Working to minimize the uncertainty and heightened 
lifestyle requirements that are associated with military 
service helps our Nation achieve current national priorities, 
including stable defense personnel costs, improved recruitment, 
retention and readiness, and a sustainable force.
    So our research suggests that servicemembers? top concern 
is for their family's well-being, and family well-being is the 
top consideration for whether a servicemember stays or leaves 
the force. While the military has adopted a number of reforms 
to support military families in the past few years, there are 
still many opportunities to do more.
    Since our first Military Family Lifestyle Survey in 2009, 
we have seen what it means for military family members to 
serve, and we looked at that blueprint for what it takes to 
strengthen America by supporting those families. Each year we 
emphasize two or three key areas of focus, and today I will 
focus on those areas that have been key for us in this 2015 
survey.
    Military caregivers. Thirty-two percent of the people 
taking our survey identified themselves as caregivers, whether 
they were serving for an aging parent, a child with special 
needs, or a wounded military servicemember. I think importantly 
many of those military family members who identified themselves 
as caregivers to a wounded servicemember did not necessarily 
have a wounded servicemember who identified themselves as 
wounded or was seeking treatment that way. I think many times 
the servicemember's spouse can identify symptoms of PTSD and 
TBI. That becomes a path to serving them that is not something 
that gets identified through formal identification from a 
servicemember.
    Caretaking is fulfilling but stressful. Seventy-five 
percent of the caregivers in our survey had no warning that 
they were going to become caregivers and therefore no training. 
They find that lack of training to be difficult in terms of 
allowing them to do their work.
    Another challenge is the difficulty in finding alternative 
caregivers to take over when they are unable to. More than half 
found that they had a very difficult or somewhat difficult time 
in finding respite.
    Military-connected caregivers not only provide direct care, 
including health care and health assistance, they do case 
management. They provide psychological support, and they 
provide legal and financial support. So they are very important 
to the well-being of the wounded.
    While care provided by military-connected caregivers 
promotes faster recovery for wounded warriors and saves 
millions of dollars in health care costs, most of those cost-
savings are absorbed by the caregiver's social, legal, and 
economic costs. They are often unable to work, often have to 
leave their work in order to provide that caregiving.
    They themselves often experience health problems that come 
from being a caregiver, both mental health and physical health. 
Research indicates that the majority of caregivers report that 
their own health worsens due to caregiving, and the problems 
related to sleep, stress, pain, depression, and weight changes 
are further concerns.
    The problems associated with these consequences is that 
military-connected caregivers often have little, if any, time 
to prepare for becoming a caregiver and few widely and 
comprehensive training programs to help them to prepare. These 
are all issues that can be addressed and can be solved and can 
make things stronger for us.
    Military spouse employment is an area that we have 
identified as a key concern for military families. The majority 
of military families cannot field a two-income household as 75 
percent of most American families do. That leads to the 
economic insecurity that military families, including 
servicemembers, identify as their top concern related to 
military life. Although removed from warfighting, jobs for 
military spouses do make our military stronger. Many companies 
have created successful initiatives to hire veterans. We have 
an opportunity to provide this same level of support for hiring 
military spouses.
    Forty percent of respondents in our survey this past year 
identified military spouse unemployment as the top obstacle to 
their family's financial security. Only 45 percent of Active 
Duty military spouses were employed full- or part-time. Fifty-
eight percent would like to be.
    Military lifestyle factors have the greatest impact on 
spouses' ability and preference to work. They move frequently, 
every 1, 2, and 3 years. They are often in remote locations. 
They have heightened caregiver responsibilities. It is 
important to note that military families with employed spouses 
report greater financial security, greater mental health, and 
most importantly for this committee, a higher satisfaction with 
the military lifestyle.
    Findings indicate that unemployment not only affects 
financial security but it also affects the health of military 
families. Sixty-eight percent of respondents who were not 
employed experienced stress from their financial situations. 
Fourty-five percent of unemployed military spouses reported 
symptoms of depression, and 7 percent had thought seriously 
about committing suicide. So we commend this issue for all of 
us to pay attention.
    To address these needs, we need to prioritize military 
spouse employment and education initiatives. We can increase 
coordinating efforts among public, private, and nonprofit 
sectors to promote high-quality, portable work-from-home 
positions for military spouses, and expand veteran and military 
spouse hiring and training initiatives so that both veterans 
and military spouses are included.
    Finally, the frequent moves and geographic separation from 
extended family members makes the need for child care 
especially acute within military families. Thirty-five percent 
in our last survey said that they did not have child care that 
met their needs. That is an enormous number. It is a major 
challenge for working spouses, those seeking work, and even 
those not in the labor force due to aspects of the military 
lifestyle like unpredictable work hours, frequent absences, 
deployments, and the inability to equitably share in child care 
responsibilities.
    Finally, I would like to just touch on behavioral issues. 
The unique demands of military service result in exceptional 
issues and challenges for servicemembers and their families. 
Top stressors for both Active Duty and their spouses included 
employment and work stress, deployments, financial and 
relocation issues. Fifty-two percent of military spouses say 
that isolation from family and friends are a key stressor. 
Mental health for Active Duty and veterans have been of 
national concern. It is also an issue for our military spouses. 
Services are available to Active Duty members and their 
families, but 17 percent of respondents did not use a program 
or benefit related to mental health care because they had 
concern about confidentiality and treatment.
    In addition, a major study by Eaton, et al. found that 
military spouses have similar rates of mental health problems 
to the soldiers themselves, and often display greater symptoms 
of depression and anxiety following separation from their 
spouses due to deployment. This study found that 12 percent of 
military spouses screen positive for major depression, and 17 
percent screen positive for generalized anxiety.
    As mentioned previously, military spouse unemployment 
raises stress levels for military spouses and their 
servicemember.
    We also found that mental health was a factor with 
caregivers. Fourty-four percent of caregivers responded they 
found caregiving somewhat stressful. Sixteen percent found it 
extremely stressful.
    Blue Star Families believes that military families are 
assets to both our national defense and local communities. They 
are central to the health and capability of the All-Volunteer 
Force and are good neighbors who actively engage in making 
their civilian communities great places to live.
    Service members may be employed by their respective 
services, but they work for all Americans. Thus, the 
responsibility for supporting military families is certainly 
the duty of the Department of Defense. However, a healthy 
Nation also shares in this responsibility. We believe there are 
many programs that would have no impact on the national budget 
that would greatly affect military families and DOD by allowing 
us to more actively partner. Nonprofit, private sector, and 
Government can help address many of these concerns.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Roth-Douquet follows:]

              Prepared Statement by Ms. Kathy Roth-Douquet
                           blue star families
    Chairman Graham, Ranking Member Gillibrand and other distinguished 
Members of the Subcommittee, thank you for the opportunity to appear 
before you today.
    I am Kathy Roth-Douquet and I am the CEO of Blue Star Families. 
Blue Star Families (BSF) strengthens military families and our nation 
by connecting communities and fostering leadership to millions of 
people. As the largest chapter--based nonprofit organization in the US, 
serving 1.5 million military family members annually, and with 35 
chapters at home and overseas, BSF bridges the gap between our military 
family community and the general public. With strong ties to all 
branches of service, Active Duty, veterans, and their families, BSF is 
nationally recognized for its annual Military Family Lifestyle Survey. 
The largest of its kind, the survey provides both quantitative and 
qualitative data that reveals a snapshot of the current state of the 
servicemembers and their families. Conducted annually, the Military 
Family Lifestyle Survey is used at all levels of Government to help 
inform and educate those tasked with making policy decisions that 
impact servicemembers and their families--who also serve.
       the importance of healthy & resilient military communities
    Military families are central to the security of our nation. 
Including military families as a level of analysis in defense 
considerations is not just the right thing to do--it's also the smart 
thing. Put another way, prioritizing quality of life for servicemembers 
and their families' benefits recruitment, retention, overall readiness, 
and will be crucial to shaping successful future force planning 
initiatives.
    Working to minimize the uncertainty and heightened lifestyle 
requirements that are associated with military service will also help 
our nation to achieve many current national priorities including: 
stable defense personnel costs; improved recruitment, retention and 
readiness; and a sustainable All-Volunteer Force.
    Research suggests that servicemembers' top concern is for their 
family's well-being and family well-being is top consideration in 
whether a service member stays or leaves the force. While the military 
has adopted a number of reforms to support military families in the 
past few years, there is still much more to be done.
                 key  priorities for military families
    Since 2009, Blue Star families has conducted the annual Military 
Family Lifestyle Survey which provides a comprehensive understanding of 
what it means to serve as a military family and is the blueprint for 
strengthening America by supporting military families. Each year, we 
emphasize two to three key areas of focus, based upon the current needs 
identified in that year's survey.
    Our key priorities for the coming year are based on areas of need 
identified in our 2015 survey. We feel improvement in these areas also 
has the greatest potential to reduce the trend of increasing 
uncertainty with the military lifestyle that was a top trend in our 
2015 survey.
    The areas we will be focusing on are:

    <bullet>  the caregiver population--whether that care is to wounded 
warriors, military kids with special needs, an aging parent of an 
Active Duty service member, or an Active Duty service member struggling 
with depression or another mental health issue
    <bullet>  unemployed or underemployed military spouses--military 
spouse unemployment sits around 25 percent and is a top obstacle to the 
financial security and successful retirement or transition planning for 
military families
    <bullet>  concerning rates of behavioral health issues among 
military spouses, for example a recent study found that 12 percent of 
military spouses screen positive for major depression and 17 percent 
screened positive for generalized anxiety, much greater than the rates 
in the general US population of around 6.7 percent and 3.1 percent 
respectively
                          military caregivers
    Our 2015 survey found that 32 percent of military family members 
identified themselves as a caregiver. A caregiver can be someone caring 
for an aging parent, a child with special needs, and/or a wounded 
military service member. While we recognize that caregiving can be 
fulfilling, it can be stressful, particularly if the caregiver lacks 
formal training, as was the case for 75 percent of caregivers who 
responded to our survey. Another challenge is difficulty finding an 
alternate caregiver to take over when they are unable to take on their 
caregiver duties --27 percent of caregivers found it very difficult and 
another 27 percent found it somewhat difficult.
    Military-connected caregivers perform a number of roles, including 
health and health care assistance, case management, psychological 
support, and legal/financial roles.
    While care provided by military-connected caregivers promotes 
faster recovery for wounded warriors and helps save millions of dollars 
in health care costs, much of the cost-savings are absorbed by the 
caregivers' social, legal, and economic costs, as well as costs 
associated with the health problems that they report from being a 
caregiver.
    Research indicates that the majority of caregivers have reported 
that their own health has worsened due to caregiving, with the problems 
related to sleep, stress, pain, depression, and weight changes.
    A big problem associated with these consequences is that military-
connected caregivers often have very little, if any, time to prepare to 
become a caregiver AND few widely accessible and comprehensive training 
programs exist to help them prepare.
                       military spouse employment
    Many companies have created initiatives to hire veterans due to 
raised awareness about the employment and mental health challenges 
facing military personnel after their service. While we applaud these 
efforts, many fail to address the military family as a whole, often 
omitting military spouses, a major component of the military family.
    Military spouse employment remains a top concern for Active Duty 
military spouses. Forty percent of respondents to our 2015 annual 
Military Family Lifestyle Survey identified military spouse employment 
as a top obstacle to their family's financial security. Only 45 percent 
of Active Duty military spouses responded that they were employed full 
or part-time and of those who were not employed, 58 percent would like 
to be.
    Military lifestyle factors have greatest impact on military 
spouses' ability and preference to work. Seventy-five percent of Active 
Duty military spouses reported being a military spouse had a negative 
impact on their ability to pursue a career. The top three factors 
impacting military spouse employment included service member's job 
demands, frequent moves, and family obligations.
    It is important to note that military families with employed 
spouses reported greater financial security, better mental health, and 
higher satisfaction with the military lifestyle. Findings indicate that 
unemployment not only affects the financial security of military 
families, but their health as well. Sixty-eight percent of respondents 
who were not employed experienced stress from their current personal 
financial situation. Forty-five percent of unemployed military spouses 
reported symptoms of depression and seven percent had thought seriously 
about committing suicide.
    To address these military spouse employment needs, we need to 
prioritize military spouse employment and education initiatives. 
Increase coordinated efforts among the public, private, and nonprofit 
sectors to promote high-quality, portable or work-from-home positions 
for military spouses and expand veteran hiring and training initiatives 
to include military spouses.
    Another solution would be to explore the possibility reducing 
permanent changes of station for servicemembers and their families. 
Many of the challenges associated with spouse employment would be 
mitigated with less frequent moves.
    Finally, the frequent moves and geographic separation from extended 
family members also makes the need for childcare especially acute 
within military families. Childcare is a major challenge for working 
spouses, those seeking work, and even spouses not in the labor market 
whose spouses, due to aspects of the military lifestyle like 
unpredictable work hours, frequent absences, and deployments, are often 
unable to equitably share in childcare responsibilities. Increasing 
access to affordable, flexible, and high quality childcare will remain 
a top challenge and presents a substantial opportunity to provide 
additional military family support.
                        behavioral health issues
    The unique demands of military service result in exceptional issues 
and challenges for servicemembers and their families. The top stressors 
for both Active Duty and their spouses included employment/work stress; 
deployments, financial and relocation issues. In addition, 52 percent 
of military spouses found isolation from family and friends to be a key 
stressor.
    Mental health of our Active military and veterans has been of 
national concern. It is also an issue for our military spouses with 
seven percent of Active Duty spouses indicating they had seriously 
thought about committing suicide during their time associated with the 
military. Though services are available to Active military and their 
families, 17 percent of respondent did not use a program or benefit 
because they had concerns about confidentiality of treatment.
    In addition, Eaton, et al found that military spouses have similar 
rates of mental health problems to the soldiers themselves and often 
display greater symptoms of depression and anxiety following separation 
from their spouse due to deployment Their study found that 12 percent 
of military spouses screen positive for major depression and 17 percent 
screened positive for generalized anxiety.
---------------------------------------------------------------------------
    Eaton, et al. Prevalence of Mental Health Problems, Treatment Need, 
and Barriers to Care among Primary Care-Seeking Spouses of Military 
Service Members Involved in Iraq and Afghanistan Deployments. Military 
Medicine. 2008.
    AEaton, et al. Prevalence of Mental Health Problems, Treatment 
Need, and Barriers to Care among Primary Care-Seeking Spouses of 
Military Service Members Involved in Iraq and Afghanistan Deployments. 
Military Medicine. 2008.
---------------------------------------------------------------------------
    As mentioned previously, military spouse unemployment raises stress 
levels for military spouses and their service member. We also found 
that mental health was a factors with caregivers. Forty-four percent of 
caregivers responded that they found caregiving somewhat stressful 
while 16 percent found it extremely stressful.
                               conclusion
    Blue Star Families believes that military families are assets to 
both our national defense and local communities. They are central to 
the health and capability of the All-Volunteer Force and are good 
neighbors actively engaged in making their civilian communities great 
places to live. Service members may be employed by their respective 
services--but they work for all Americans. Thus the responsibility for 
supporting military families is certainly a duty of the Department of 
Defense; however, a healthy nation also shares in this responsibility.
    Thank you very much, Mr. Chairman.
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Graham. Ms. Raezer?

  STATEMENT OF JOYCE W. RAEZER, EXECUTIVE DIRECTOR, NATIONAL 
                  MILITARY FAMILY ASSOCIATION

    Ms. Raezer. Thank you, Mr. Chairman, Ranking Member 
Gillibrand, Senator Blumenthal. I appreciate the opportunity to 
speak today on behalf of the National Military Family 
Association and the military families we serve about the fiscal 
year 2017 Defense Department budget proposals.
    Our statement submitted for the record addresses many of 
the issues covered by the budget proposals and others that we 
wish had been covered. I will confine my remarks right now, in 
the interest of time, to just two of those issues: pay and 
TRICARE reform.
    DOD officials like to highlight that their proposed 2017 
pay raise of 1.6 percent is the largest basic pay raise in 4 
years. But as you have noted, if this raise goes through, 2017 
will mark the fourth year in a row military pay raises have 
lagged behind the Employment Cost Index, the standard currently 
in law.
    In recent testimony before the House Military Construction 
and VA [Veterans Affairs] Appropriations Subcommittee, the 
military services senior enlisted advisors spoke of the damage 
to morale that is being done by budget-driven compensation 
cuts. These lower pay raises head the list of morale concerns 
for the enlisted advisors. We are very happy to hear that you 
also share their concerns.
    Although its primary mission is to ensure medical providers 
have the training and tools they need to keep our troops strong 
when in harm's way, the military health system also has an 
obligation to deliver high-quality care to military families, 
retirees, and their families and survivors. Too often families 
tell us DOD fails to meet this obligation.
    We surveyed more than 6,100 military spouses in December 
and January. Nearly 30 percent of those who use military 
treatment facilities reported they rarely or never get an acute 
care appointment within the 24-hour access standard.
    Any discussion of TRICARE reform must start with how DOD 
can fix the problems it knows exist regarding access, quality, 
and patient satisfaction. Unfortunately, DOD provides few 
details in its budget proposal on actual improvements to the 
value of TRICARE or how it will enhance medical readiness. 
Instead, it focuses first on how much military families should 
pay for their health care. What is presented as a comprehensive 
restructure is really just a repackaging of the current system 
at a higher cost to many families and with no expansion of 
networks or improved benefits. Continuing to recapture care in 
military hospitals already failing to provide timely 
appropriate access for current enrollees will neither improve 
patient satisfaction nor comprehensively address readiness 
needs. I look forward to the opportunity during the question 
and answer to share some of our recommendations about things we 
would like you to consider.
    To echo Ms. Roth-Douquet's comment about behavioral health 
needs, this is one area that the Department has not addressed 
in their budget, that increasing demand for behavioral health 
services. In that same survey of 6,100 military spouses, 40 
percent reported that they had looked for behavioral health 
care for themselves or someone in their family. The demand is 
outstripping the supply.
    So as you evaluate the Department's proposed budget, please 
consider how it will meet the needs of military families and 
add value to their quality of life and to the servicemembers' 
quality of service. Does this budget make a servicemember more 
ready to perform the mission? Does it make a mom feel that her 
sick child's health is a priority? Does it ease uncertainty? 
Does it ensure support will be available for a family during a 
deployment? Does it support a spouse eager for a career? Bottom 
line, does this budget keep our military families strong?
    Thank you for your support of military families.
    [The prepared statement of Ms. Raezer follows:]

                 Prepared Statement by Joyce W. Raezer
    The National Military Family Association (NMFA) is the leading 
nonprofit dedicated to serving the families who stand behind the 
uniform. Since 1969, NMFA has worked to strengthen and protect millions 
of families through its advocacy and programs. We provide spouse 
scholarships, camps for military kids, and retreats for families 
reconnecting after deployment and for the families of the wounded, ill, 
or injured. NMFA serves the families of the currently serving, retired, 
wounded or fallen members of the Army, Navy, Marine Corps, Air Force, 
Coast Guard, and Commissioned Corps of the USPHS [United States Public 
Health Service] and NOAA [National Oceanic and Atmospheric 
Administration].
    Association Volunteers in military communities worldwide provide a 
direct link between military families and the Association staff in the 
Nation's capital. These volunteers are our ``eyes and ears,'' bringing 
shared local concerns to national attention.
    The Association does not have or receive federal grants or 
contracts.
    Our website is: www.MilitaryFamily.org.
Joyce Wessel Raezer, Executive Director
    Joyce became the Executive Director of the National Military Family 
Association in 2007. In that position, she leads the Association's 
programs and initiatives to meet the needs of the families of the seven 
uniformed services and promote improvements in their quality of life. 
She is frequently called on by Government officials, other 
organizations, and the press to share her expertise on the issues 
facing military families. She began her work with the Association in 
1995 as a Volunteer in the Government Relations Department and 
subsequently served in various staff positions, including Government 
Relations Director.
    Joyce has represented military families on several committees and 
task Forces for offices and agencies of the Department of Defense (DOD) 
and military services. Joyce has served on several committees of The 
Military Coalition, an organization of 32 military-related 
associations. She was co-chair of the Coalition's Personnel, 
Compensation, and Commissaries Committee from 2000 to 2007. In 1999 and 
2000, she served on a Congressionally-mandated Federal Advisory Panel 
on DOD Health Care Quality Initiatives. From June 1999 to June 2001, 
Joyce served on the first national Board of Directors for the Military 
Child Education Coalition. In 2004, she authored a chapter on 
``Transforming Support to Military Families and Communities'' in a book 
published by the MIT Press, Filling the Ranks: Transforming the U.S. 
Military Personnel System.
    In 2006, Joyce received the Gettysburg College Distinguished Alumni 
Award. She was the 1997 recipient of the Association's Margaret Vinson 
Hallgren Award for her advocacy on behalf of military families. She 
also received the ``Champion for Children'' award from the Military 
Impacted Schools Association in 1998. In 2007, Military Spouse Magazine 
listed her on its Who's Who of Military Spouses. In 2012, she was 
honored as a Daily Point of Light by the Points of Light Foundation.
    A Maryland native, Joyce earned a B.A. [Bachelor of Arts] in 
History from Gettysburg College, and a M.A. [Master of Arts] in History 
from the University of Virginia. The spouse of an Army retiree, she is 
the mother of two adult children. She is a former teacher and served on 
the Fort Knox Community Schools Board of Education from 1993 to 1995. 
She was an active volunteer parent in her children's schools. She plays 
hand bells and sings in her church choir, the Northern Virginia 
Chorale, and the Ron Freeman Chorale.
                           executive summary
    The United States military is the most capable fighting force in 
the world. For more than a decade of war, servicemembers and their 
families never failed to answer the call, steadfastly sacrificing in 
order to protect our Nation. They made these sacrifices trusting that 
our Government would provide them with resources to keep them ready. 
Recent national fiscal challenges have left military families confused 
and concerned about whether the programs, resources, and benefits 
contributing to their strength, resilience, and readiness will remain 
available to support them and be flexible enough to address emerging 
needs. The Department of Defense (DOD) must provide the level of 
programs and resources to meet this standard. Sequestration weakens its 
ability to do so. Service members and their families have kept trust 
with America through 15 years of war with multiple deployments and 
separations. Unfortunately, that trust continues to be tested.
    The Administration's fiscal year 2017 (FY17) budget proposal will 
undermine military family readiness in fundamental ways, by cutting 
families' purchasing power and forcing them to bear more of their 
health care costs. At the same time, looming cuts mandated by 
sequestration threaten the programs and services they rely on for 
support. The National Military Family Association (NMFA) makes the 
recommendations in this statement in the name of supporting the 
readiness of military families and maintaining the effectiveness of the 
All-Volunteer Force. We ask the Nation to keep the trust with military 
families and not balance budget shortfalls from the pockets of those 
who serve.
We ask Congress:
    As you evaluate the proposals submitted by DOD, consider the 
cumulative impact on military families' purchasing power and financial 
well-being, as well as the effects on the morale and readiness of the 
All-Volunteer Force now and in the future.
    Please:
    <bullet>  Reject budget proposals that threaten military family 
financial well-being as a way to save money for the Government.
    <bullet>  Keep military pay commensurate with service and aligned 
with private sector wages.
    <bullet>  Reject the fiscal year 2017 DOD health care proposal. It 
imposes higher fees without enhancing value to beneficiaries and puts 
more pressure on the direct care system--a system that frequently fails 
to fulfill the needs of its current users.
    <bullet>  Preserve the savings military families receive by 
shopping at the commissary and oppose any reform measures that would 
reduce the value of the benefit.
    We especially ask Congress to end sequestration, which places a 
disproportionate burden on our Nation's military to reduce the deficit.
    We also ask Congress to make improving and sustaining the programs 
and resources necessary to keep military families ready a national 
priority.
    We ask Congress to:
    <bullet>  Provide oversight to ensure DOD and the individual 
Services are supporting families of all components by meeting the 
standards for deployment support, reintegration, financial readiness, 
and family health. Fund appropriately at all levels.
    <bullet>  Expand paternity leave to 14 days and allow two weeks of 
adoption leave to both parents in dual-service families.
    <bullet>  Expand the opportunity for spouses to access transition 
information including face-to-face training and on-line training. 
Expand service member and family access to Military OneSource 
counseling and other assistance to one year post-separation.
    <bullet>  Facilitate easier paths to both licensure and employment 
for military spouses and veterans who are in the mental health field 
when they work with our servicemembers and their families. Include 
military spouses who enter the mental health profession in federal 
loan-forgiveness programs.
    <bullet>  Ensure adequate funding for military child care programs, 
including child care fee assistance programs. Improve access to 
installation-based child care and increase availability of part-time 
and hourly care.
    <bullet>  Ensure appropriate and timely funding of Impact Aid 
through the Department of Education (DoEd) and restore funds to the 
Impact Aid federal properties program.
    <bullet>  Continue to authorize DOD Impact Aid for schools 
educating large numbers of military children and restore full funding 
to Department of Defense Education Activity (DODEA) schools and the 
DODEA Grant Program.
    <bullet>  Bring the Extended Care Health Option (ECHO) benefits on 
par with State Medicaid waiver programs and extend ECHO eligibility for 
one year following separation.
    <bullet>  Ensure Family Advocacy programs are funded and resources 
appropriately to help families heal and aid in the prevention of child 
and domestic abuse.
    <bullet>  Correct inequities in Survivor benefits by eliminating 
the Dependency and Indemnity Compensation (DIC) offset to the Survivor 
Benefit Plan (SBP). Extend the Special Survivor Indemnity Allowance 
(SSIA) and ensure SBP annuities for reservists who die while performing 
inactive duty training are calculated using the same criteria as for 
members who die while on Active Duty.
    <bullet>  Exempt Special Compensation for Assistance with 
Activities of Daily Living (SCAADL) payments from income taxes and 
maintain the program, particularly the outreach to wounded warrior 
families.

    After 15 years of war, we continue to see the impact of repeated 
deployments and separations on our servicemembers and their families. 
We appreciate Congress' recognition of the service and sacrifice of 
these families. Your response through legislation to the ever-changing 
need for support has resulted in programs and policies that have helped 
sustain our families through these difficult times.
                 keeping the trust of military families
    After more than a decade of war, servicemembers and their families 
have heroically answered our nation's call to serve. Their sacrifice--
of life, limb, and family--is offered selflessly, trusting in the 
steadfastness of our Government to provide for their readiness and the 
needs of their families.
    Many military families feel their sacrifices go unnoticed by a 
civilian society preoccupied with domestic concerns such as the economy 
and unemployment. Military families share those concerns. But they also 
feel the Nation is forgetting the price they alone have paid in 15 long 
years of war.
    Trust in Government is essential to the long term viability of the 
All-Volunteer Force. That trust is reinforced through the 
predictability, efficiency, and fairness of compensation and benefits. 
Since 2006, throughout the wars in Iraq and Afghanistan, the 
Administration has proposed various benefit ``reforms,'' mostly in 
health care, which would have increased the financial burden of those 
who have served. The changes proposed in the fiscal year 2017 (FY17) 
budget, coupled with the arbitrary reductions forced by sequestration, 
undermine the trust military families have in the Government's 
commitment to support the All-Volunteer Force over the long term. This 
is a price the Nation cannot afford to pay.
    Moreover, the Administration's proposals to cut pay increases, 
eliminate commissary savings, and increase health care costs pose 
significant risk to the financial well-being of military families. 
Congress must resist these changes.
The Administration Budget Proposal: A Disaster for Military Family 
        Pocketbooks
    The Administration's budget proposal has only added to the growing 
sense of frustration in the military community. Military families are 
financially savvy. They are doing the math and feel they are 
shouldering the burden for balancing the budget when they've shouldered 
the entire burden of the last 15 years of war.
                               pay raise
    For the fourth year in a row, the Administration is proposing a pay 
increase (1.6 percent) below the level of private sector wage 
increases. Congress chose the Employment Cost Index (ECI) as the 
standard for Active Duty pay raises in order to recruit and retain the 
quality of servicemembers needed to sustain the All-Volunteer Force. 
What's changed?
    We ask Congress to keep military pay commensurate with service and 
aligned with private sector wage increases.
                     military health system reform
    We appreciate Congress has listened to beneficiary concerns 
regarding the Military Health System (MHS) and are gratified you want 
to make the MHS work better for all beneficiaries via military health 
care reform. We hope the changes Congress enacts will truly make a 
difference in military families' ability to access the right care, at 
the right time, and in the right place. Our families deserve no less.
    Given the widespread and clearly-stated interest in Congress for 
MHS Reform this year, our Association had hoped the Department of 
Defense (DOD) budget proposal would outline plans to improve 
beneficiary access, quality, safety, and the patient experience in 
addition to addressing fiscal sustainability and protecting the medical 
readiness of the force. Instead, DOD has once again rebranded the same 
old system, incorporated numerous fee increases, and deemed it new and 
improved.
    While we appreciate DOD's budget proposal has finally acknowledged 
several areas of deficiency within the MHS, simply cataloging the 
problems does not constitute institutional reform.
    We are also concerned the new fee structure is designed to drive 
more care into Military Treatment Facilities (MTFs), but there are no 
additional resources identified in the budget proposal to increase MTF 
capacity, improve access, enhance quality, ensure provider and service 
member medical readiness, or accurately measure DOD progress in meeting 
these goals. We fear this scenario will exacerbate current access and 
quality problems.
    On behalf of the military families we serve, we urge you to reject 
the fiscal year 2017 DOD health care proposal. It imposes higher fees 
without enhancing value to beneficiaries and we believe it will put 
more pressure on the direct care system_a system that frequently fails 
to fulfill the needs of its current users.
Why MHS Reform is Essential
    Although its primary mission is military medical readiness, the MHS 
has an obligation to deliver a high quality health care benefit to 
military families, retirees and their families, and survivors. In too 
many instances, the MHS fails to fulfill this obligation.
    In our testimony submitted for the record for this Subcommittee's 
February 23, 2016 hearing on military health care reform, we outlined 
our concerns the MHS would continue to nibble around the edges with the 
idea of reform: raising fees, but failing to deliver meaningful 
improvements to the system. \1\ DOD's fiscal year 2017 budget proposal 
brings those fears to life by focusing on significant fee increases, 
particularly for retirees, while doing nothing substantive to improve 
health care delivery for military families.
---------------------------------------------------------------------------
    \1\ National Military Family Association Statement for the record, 
Personnel Subcommittee of the Senate Armed Services Committee, February 
23, 2017: http://www.militaryfamily.org/assets/pdfs/testimony/sasc-
hearing-2-23-16.pdf
---------------------------------------------------------------------------
    The status quo is unacceptable. Raising out-of-pocket costs for 
care that is too often substandard or simply inaccessible is 
unthinkable.
    As you consider our feedback on DOD's health care proposal, please 
keep in mind the hurdles our military families regularly face when 
trying to obtain necessary health care:

        On January 6, 2016, I called for an appointment with my PCM for 
        a routine well-woman exam and to discuss throat pain that had 
        been plaguing me. No appointments were available for 30 days 
        with my provider, so they scheduled me for January 19 with 
        another provider.

        On the day of my appointment, I waited 90 minutes past my 
        appointment time to see the doctor. It took 45 minutes for the 
        nurse to take my history and vitals because she was interrupted 
        no less than 12 times (I counted) by phone calls and leaving 
        the room to find someone to screen her next patient.

        During my routine exam, the doctor found a lump and recommended 
        an early diagnostic mammogram. I called the next day and 
        scheduled my appointment for Tuesday, February 9, three weeks 
        away. On Feb 9, I had the mammogram, which confirmed the mass 
        and identified other areas of concern. I had an ultrasound that 
        day and was told by the radiologist that I would need a biopsy.

        My referral for the biopsy was processed three days later on a 
        Thursday evening. Since Friday was a training holiday and 
        Monday was a federal holiday, I had to wait until Tuesday 
        morning to call for my appointment. The PCM had suggested the 
        biopsy should be done that week, but an appointment was not 
        available until the first week of March and results would take 
        another 5-10 days. I objected to this timeframe but, since the 
        appointment was technically within 30 days from the date of the 
        referral, it was considered acceptable--despite the fact that 
        the issue had been identified a month prior and results would 
        potentially take another two weeks. I requested a referral to a 
        facility off-post to have the procedure done sooner and they 
        declined to authorize that but offered me an appointment for 
        four days earlier. So, now I wait.

        I consider myself aggressively informed and an outspoken 
        advocate. My PCM has sacrificed his personal time for my care, 
        calling me twice from the office after 8pm to discuss my 
        results and follow up referrals. Yet, here I am, at the mercy 
        of an over-worked and inefficient system. The care I need was 
        available this week in a local civilian facility, but won't be 
        authorized due to procedures and rules. Two months to identify 
        a potentially life threatening condition is too long, but it's 
        the best I have been able to do. (Military Spouse)

    This story illustrates the maddening inconsistency within the 
direct care system and the negative impact of TRICARE policy and MTF 
interpretations of that policy. On the one hand, this spouse has a 
dedicated medical provider and received immediate turnaround when her 
mammogram indicated an ultrasound was needed. On the other hand, office 
closures and inefficiencies created frustration and delay. Most 
significantly, TRICARE referral policy and the goal of recapturing care 
trumped the opinion of her medical provider and delayed her biopsy. 
Military families need a reliable patient centered health care system 
that consistently meets their needs.
    In late 2015, our Association fielded a survey of 6,148 military 
spouse scholarship applicants, a population that has consistently 
matched the overall demographics of currently-serving families. Nearly 
30 percent of respondents who use an MTF for primary care indicated 
they rarely or never get an acute appointment within the 24-hour access 
standard. This is consistent with findings from a health care survey 
fielded by the Military Officer Association of America (MOAA) in 
December 2015 in which 29 percent of Active Duty spouses reported they 
rarely or never get an acute care appointment within access standards.
    We ask Congress to consider the access, consistency of care, and 
quality issues our families face across the entire MHS--direct care and 
purchased care segments--when seeking care as you evaluate TRICARE 
reform proposals. We would also invite anyone proposing reform to 
detail how their proposals would correct the areas of concern addressed 
by the Department's own Military Health System Review conducted in 
2014. \2\ How does the fiscal year 2017 budget proposal address the 
challenge areas identified in the MHS Review? How will this proposal 
drive progress in meeting the action items identified by then-Secretary 
of Defense Chuck Hagel in his October 1, 2014 memorandum?
---------------------------------------------------------------------------
    \2\ Secretary of Defense Military Health System Review Final 
Report: http://www.health.mil/Military-Health-Topics/Access-Cost-
Quality-and-Safety/MHS-Review
---------------------------------------------------------------------------
    We appreciate Congress has made TRICARE Reform a priority and trust 
reform efforts will focus on ensuring both the benefit and the system 
charged with delivering the benefit work better for military families.
TRICARE Select/Choice: Nothing More than Rebranded TRICARE Prime/
        Standard
    At a time when there is widespread agreement the MHS must be 
reformed to better meet beneficiary needs, DOD has proposed nothing 
more than a rebranding of TRICARE Prime and Standard. The new TRICARE 
Select and TRICARE Choice options do nothing to improve the MHS for 
beneficiaries.
    In the budget overview, DOD contends TRICARE Select/Choice offers 
greater choice at a modestly higher cost. Building on that, in a 
February 21, 2016 DefenseNews interview \3\, Dr. Jonathan Woodson, 
Assistant Secretary of Defense for Health Affairs, stated:
---------------------------------------------------------------------------
    \3\ DefenseNews interview with Vago Muradian, 2/21/16: http://
www.defensenews.com/videos/defense-news/tv/2016/02/21/80700472/

        ``In revising the plan, we listened to the beneficiaries. 
        Beneficiaries want more choice. The preferred provider plan 
        actually gives them the choice. They can go see the physicians 
        they want when they want and it gives them much more latitude 
        in self-managing their care. We also heard from beneficiaries 
        that some wanted to be in this HMO-like managed care product. 
        So that's what we did. We simplified all the varieties of 
        programs we had into two. One, a preferred provider product 
        which gives you self-managed abilities and great choice and the 
---------------------------------------------------------------------------
        other is a managed care choice.''

    Although DOD and Dr. Woodson assert the new proposal provides 
beneficiaries with more choice, we fail to see how this is the case. 
Beneficiaries currently have a self-managed option called TRICARE 
Standard, which contains a PPO option called TRICARE Extra. Renaming 
TRICARE Standard as TRICARE Choice does nothing to increase options for 
beneficiaries.
    DOD's references to TRICARE Choice as a modern Preferred Provider 
Option (PPO) led us to hope expanded network coverage might be part of 
the proposal. However, when asked about expanded networks to ensure all 
beneficiaries have access to the PPO option, DOD stated networks will 
cover 85 percent of the population similar to current network 
coverage--yet again, no additional value to beneficiaries. Therefore, 
TRICARE Choice maintains the current options available under TRICARE 
Extra and TRICARE Standard. The only difference? Patients using a 
network provider under the PPO option of TRICARE Choice will pay a 
fixed co-payment instead of a reduced cost-share. Many patients will 
still have no option other than non-network providers, but will pay 
more for the privilege of using them because of the proposed 
``participation fee'' for TRICARE Choice and the higher deductibles and 
catastrophic cap.
    Our Association is concerned that even though the proposed plan 
outlines no discernible benefit to military families in terms of access 
to care or quality, it will result in implementation costs to DOD. In 
fact, DOD estimates Managed Care Support Contractor contract changes 
and other start-up costs will be $57 million in fiscal year 2017.
Acknowledging Problems 0 Fixing Problems
    We appreciate that DOD has reached out to beneficiary organizations 
and listened to our concerns, as evidenced by Dr. Woodson's numerous 
public statements and are gratified the fiscal year 2017 budget 
acknowledges the Department must commit to institutional health care 
reform and implement targeted solutions to solve the variety of issues 
facing beneficiaries. Unfortunately, the budget proposal does little 
more than list some MHS problem areas including:

    <bullet>  Direct Care access problems
    <bullet>  Lack of first call resolution
    <bullet>  Cumbersome referral process resulting in administrative 
burdens and delayed access to care
    <bullet>  Lack of seamless mobility for beneficiaries who move 
around the globe
    <bullet>  Failure to properly address pediatric care issues
    The proposal does not even acknowledge several additional areas 
where the MHS fails to meet beneficiary needs, including:
    <bullet>  Problems with Reserve Component coverage
    <bullet>  Failure to consistently issue referrals to TRICARE 
network providers when access standards cannot be met within the direct 
system
    <bullet>  Demand for behavioral health care that continues to 
outstrip supply in both direct and purchased care
    <bullet>  Variable quality and safety within the direct care system
    <bullet>  Inadequate medical case management services and Extended 
Care Health Option (ECHO) benefits for special needs families
    <bullet>  TRICARE coverage gaps, such as refusal to cover numerous 
lab developed tests, including noninvasive prenatal testing
    <bullet>  Customer service issues
    <bullet>  Inconsistent policy implementation at the MTF level

    We believe MHS Reform demands credible and detailed plans to 
address deficiencies within the system. These plans must be accompanied 
by robust and reliable metrics to monitor progress.
New Fees and Fee Increases: The Primary Element of DOD Health Care 
        ``Reform''
    We appreciate some elements of DOD's proposal adhere to key 
principles of military health care, including:

    <bullet>  Zero out-of-pocket costs for Active Duty Service Members 
(ADSMs)--nothing changes for ADSMs with DOD's proposal
    <bullet>  Minimal out-of-pocket cost option for Active Duty Family 
Members (ADFMs)
    <bullet>  Minimal out-of-pocket cost option for medically retired 
and their families and survivors--they are treated the same as ADFMs

    We also appreciate DOD has removed the ER misuse fee included in 
the fiscal year 2016 proposal. Given acute care appointment shortages 
at some MTFs, together with inconsistently applied referral policies 
for civilian urgent care, many TRICARE Prime families face situations 
where the ER is their only option for care. It would be inappropriate 
to penalize military families for seeking care in the ER given direct 
care access challenges.
Active Duty Families_Fee Increase Specifics
    Given the extraordinary risks, sacrifices and stressors associated 
with military service, it is critical any MHS Reform efforts maintain a 
minimal out-of-pocket cost option for Active Duty families. No/low out-
of-pocket costs facilitate access to health care and contribute to 
overall family readiness. They also serve to recognize the value of 
military service.
    We are gratified DOD's proposal offers a minimal out-of-pocket cost 
option for all Active Duty families. Past proposals have imposed out-
of-pocket costs on families without access to an MTF. We appreciate DOD 
listened to our feedback and will allow remotely located Active Duty 
families to self-manage their care without incurring copays or 
deductibles.
    While we are pleased TRICARE Select maintains a no/low cost option 
for Active Duty families, we do have some concerns regarding fee 
changes for ADFMs.

    <bullet>  TRICARE Select vs. TRICARE Prime_Out-of-Network Care: 
With TRICARE Prime, families who must use out-of-network care do not 
incur out-of-pocket costs if they follow Prime's referral and 
authorization process. With TRICARE Select, there are deductibles and 
cost shares associated with all out-of-network care. TRICARE Prime 
families who rely on out-of-network providers could see significant 
out-of-pocket costs with the new plan. We fear these costs will 
disproportionately affect special needs families.
    <bullet>  TRICARE Choice vs. TRICARE Standard: Utilization data for 
TRICARE Standard, the current TRICARE Choice equivalent, suggest Active 
Duty family members who opt to self-manage use significantly more 
health care than the average Prime enrolled ADFM. \4\ This is 
consistent with anecdotal evidence suggesting that within the ADFM 
population, special needs families and those dealing with chronic 
health conditions are the most likely to opt for TRICARE Standard. They 
are willing to incur out-of-pocket costs to avoid barriers to care 
prevalent in TRICARE Prime policy and the direct care system. How will 
the TRICARE Choice fee structure impact TRICARE Standard ADFMs?
---------------------------------------------------------------------------
    \4\ Evaluation of the TRICARE Program fiscal year 2015.http://
www.health.mil/Military-Health-Topics/Access-Cost-Quality-and-Safety/
Health-Care-Program-Evaluation/Annual-Evaluation-of-the-TRICARE-Program
---------------------------------------------------------------------------
        -  Network deductible is eliminated to encourage use of network 
versus non-network providers. For families with moderate utilization, 
this change will likely lower total out-of-pocket costs. However, for 
special needs families with high utilization, eliminating the 
deductible only serves to spread costs out over a longer time period. 
We support eliminating the network deductible, but it is important to 
recognize it will provide minimal benefit for many TRICARE Choice 
families.
        -  Out-of-network deductible is doubled. This will increase 
and/or accelerate out-of-pocket costs for those families who must rely 
on out-of-network care--most likely special needs families and those 
seeking behavioral health care (a known TRICARE network inadequacy 
issue.) Given that use of non-network providers is largely driven by 
inadequate network coverage, we believe it is inappropriate to double 
the out-of-network deductible.
        -  Catastrophic cap is increased by 50 percent. The 
catastrophic cap is designed to protect families from financial 
hardship. Many families already incur out-of-pocket costs in excess of 
the catastrophic cap since the cap does not apply to any amount non-
participating providers may charge above the TRICARE maximum allowable 
amount. Additionally, we know many families make the switch to TRICARE 
Standard after encountering difficulties with the direct care system or 
the referral/authorization process. We fear raising the catastrophic 
cap 50 percent will trap some military families in an underperforming 
direct care system by presenting a financial barrier to switching to 
TRICARE Standard/Choice. This will disproportionately impact special 
needs families, those with chronic conditions, and families seeking 
ongoing behavioral health care.

Retirees and Families_Fee Increase Specifics
    Career military service can present significant obstacles to long-
term financial stability, including compromised spouse employment, the 
inability to grow equity in a primary residence, and the unavoidable 
midlife career change upon military retirement. Military retirement 
benefits, including low cost health care, enable career military 
members to serve 20+ years and achieve long-term financial stability in 
spite of those challenges. Robust retirement benefits also serve to 
recognize the extraordinary sacrifices associated with a military 
career. While we have always been willing to entertain modest fee 
increases for working-age retiree health care, we also believe fees 
must be contained to preserve the value of the retirement benefit.
    Under the fiscal year 2017 DOD proposal, retirees face fee 
increases in almost every area. TRICARE Prime/Select participation fees 
would be increased and the plan again proposes a new participation fee 
for TRICARE Standard/Choice beneficiaries. The annual catastrophic cap 
for retiree families would be increased to $4,000. Furthermore, 
participation fees would no longer accrue to the catastrophic cap, 
increasing potential total out-of-pocket costs. Of course, retiree 
families would also be subject to the doubled out-of-network 
deductible.
    TRICARE Standard/Choice families are hit particularly hard. TRICARE 
Standard Retiree families who hit the catastrophic cap (primarily 
special needs families and those facing chronic conditions, including 
behavioral health challenges) face a 63 percent increase in potential 
out-of-pocket costs due to the new participation fee and higher 
catastrophic cap. These fee increases are particularly objectionable as 
they are not accompanied by any improvement in the Standard/Choice 
option, not even an acknowledgement of areas needing such improvement.
    Another element resurrected in the fiscal year 2017 budget is an 
annual open enrollment period with payment of the participation fee. 
Retirees who fail to enroll during this time will forfeit coverage for 
the year, unless they can show they are eligible for enrollment due to 
a qualifying life event. While we understand DOD's rationale for 
seeking clarity on how many beneficiaries will use their TRICARE 
benefit in a given year, we believe existing historical data and trend 
analysis can provide this information without the cost of implementing 
an enrollment fee process that restricts access to the earned health 
care benefit. We oppose the institution of beneficiary fees for the 
Standard/Choice option while beneficiaries are still waiting for DOD to 
make needed improvements.
    Our Association also continues to oppose instituting a DOD TRICARE 
for Life participation fee. Our Medicare-eligible beneficiaries--
retirees, some severely wounded medically-retired service-members, and 
surviving spouses--already pay a high price just to maintain their 
TRICARE benefit, at least $104.90 per month in Medicare Part B 
premiums. DOD should not impose additional costs on this population.
NMFA Perspective on Fiscal Year 2017 Fee Increases
    Our Association rejects the notion military health care reform 
starts with the question: ``How much should military families pay for 
their health care?'' We believe the starting point for reform is a 
demonstrated ability to better meet beneficiary needs, together with a 
plan for continuous improvement and modernization of the health care 
benefit. Discussions about the appropriate level of out-of-pocket costs 
should follow, and those discussions should always be grounded in the 
principles of low/no cost health care for Active Duty families and 
retiree costs that reflect the extraordinary sacrifices associated with 
career military service and preserve the value of the retirement 
package.
    We contend the fiscal year 2017 proposed out-of-pocket cost 
increases are too high given DOD's health care proposal provides no 
corresponding increase in value for military families. What is the 
value equation for military families? We believe value equals access to 
timely and appropriate care + the quality of that care + the overall 
patient experience divided by the cost of that care. The budget 
proposal, by focusing primarily on the cost of care to the beneficiary 
fails to address known MHS problems such as access, quality, and the 
direct care patient experience. It does not even acknowledge TRICARE 
coverage issues such as the failure to cover emerging treatments and 
technologies or lack of coverage for alternative therapies (such as 
chiropractic.) It also does not acknowledge the costs incurred by many 
families, whether monetary or borne from the frustration experienced 
when trying to access quality care in an environment with inconsistent 
rules and procedures.
    Our Association also believes out-of-pocket fee increases must be 
used only to sustain or improve the health care benefit. We will not 
support fee increases that fund other DOD initiatives such as lump sum 
retirement payouts.
    Our Association is willing to consider modest out-of-pocket cost 
increases only if they correspond to enhanced value for beneficiaries 
and are used only to sustain or improve the military health care 
benefit.
National Health Expenditures Index
    Over and above the cost increases specific to fiscal year 2017, the 
DOD proposal would inflate out-of-pocket costs annually by the National 
Health Expenditures (NHE) Per Capita Index. Although the only mention 
of the NHE Index occurs in the participation fee section of the fiscal 
year 2017 budget, senior Defense officials have clarified the Index 
would apply to all out-of-pocket costs including copays, deductibles, 
and catastrophic caps.
    For 2014-24, per capita health spending is projected to grow at an 
average rate of 4.9 percent. \5\ This far outstrips recent military 
retirement cost of living allowances (COLA) and MHS pending growth, 
which has leveled off in recent years. An index this high would reduce 
the overall value of the military retirement benefit as health care 
costs would outpace COLA. It also shifts the cost burden of the health 
care benefit from DOD to beneficiaries over time.
---------------------------------------------------------------------------
    \5\ NHE Fact Sheet: https://www.cms.gov/research-statistics-data-
and-systems/statistics-trends-and-reports/nationalhealthexpenddata/nhe-
fact-sheet.html
---------------------------------------------------------------------------
    Recognizing the fiscal environment meant some fee increases were 
inevitable, we did not oppose recent TRICARE pharmacy fee hikes. We now 
have a pharmacy benefit with copays that mirror those of many 
commercial plans. Our Association is concerned the DOD proposal sets us 
on a path to an overall health benefit, particularly for retirees, that 
is not sufficiently differentiated from civilian plans in terms of 
costs. That outcome is unacceptable.
    It is unrealistic to think military health care out-of-pocket costs 
will never change. We acknowledge it is preferable to increase some 
beneficiary fees slowly over time versus sporadically implementing 
larger increases, the rationale for which is not transparent to the 
beneficiary. Not only would a fee index be more predictable, but it 
would set clear beneficiary expectations for out-of-pocket costs. An 
ambiguously defined health care benefit, together with careless verbal 
promises, has led to feelings of disappointment and betrayal, 
particularly among military retirees. A clearly defined health care 
benefit is vital for the future of the All-Volunteer Force. Career 
military service must not become a buyer beware proposition.
    That said, we believe the NHE Per Capita Index--far higher than 
recent COLA or MHS spending growth rates--is too steep and will result 
in a health benefit with reduced value that does not adequately protect 
military families from health care related financial risk. Any 
mechanism for indexing fees must be designed to ensure out-of-pocket 
costs remain significantly lower than civilian plans. An index designed 
to shift the health care cost burden from DOD to retirees, such as the 
proposed NHE index, is unacceptable.
Concerns Regarding Fiscal Year 2017 Health Care Recapture Strategy
    Changes in the TRICARE fee structure are designed to drive more 
patient care into the direct system. While we appreciate the need to 
better leverage the MHS's fixed facility and military medical personnel 
investments, we are concerned increased demand will exacerbate MTF 
appointment access problems.
    In Congressional testimony, Dr. Woodson has stated the fiscal year 
2017 proposal includes zero additional direct care resources to address 
increased demand for MTF services. Instead, DOD plans to handle the 
extra patient load by extracting efficiencies from the existing system 
via extended MTF hours on evenings and weekends and expanded use of 
technology including secure messaging, telehealth, and the Nurse Advice 
Line. We believe this plan is unrealistic and inadequate for addressing 
increased demand and believe all of these ``efficiencies'' will 
actually take resources to implement. We have the following concerns:

      <bullet>  Secure Messaging and the Nurse Advice Line (NAL) are 
already in place and do not appear to have had much impact on 
beneficiary appointment access challenges. In fact, DOD has failed to 
address known billing problems related to NAL authorized urgent care, 
leading to growing distrust of the NAL within the military family 
community. DOD must provide specifics on how they will better leverage 
these technologies to free up additional capacity within the direct 
care system. Simply hoping or planning that increased Secure Messaging 
and NAL use will lead to greater efficiencies is not an acceptable 
solution to the inevitable influx of MTF patients under the fiscal year 
2017 proposal.
      <bullet>  While we are optimistic about the possibilities 
surrounding telehealth, we are skeptical DOD will have a comprehensive 
telehealth platform up and running by the projected TRICARE Choice/
Select launch date of January 2018. We are even more skeptical that a 
newly introduced telehealth system will immediately be able to absorb 
enough clinical care to address the increased demand resulting from 
DOD's proposed TRICARE Select/Choice fee structure.
      <bullet>  Readiness requirements limit the availability of 
military medical personnel for beneficiary health care delivery. We are 
not convinced DOD has a full understanding of MTF capacity for 
beneficiary care given the readiness requirements demanded of military 
medical staff. Our concern is increased beneficiary demand will lead to 
either greater access problems or compromised military medical 
readiness.

    Not only has DOD proposed an unrealistic and inadequate plan to 
address increased demand posed by the fiscal year 2017 proposal, we are 
not convinced DOD has the ability to measure MTF capacity for 
beneficiary care, demand for MTF services, or MTF performance against 
appointment access standards. In a recent meeting with leadership from 
DHA and the Services' medical commands, it became clear DOD continues 
to use the same flawed measure to evaluate beneficiary access to acute 
appointments that was discredited during the 2014 MHS Review. This 
misleading measure reports the percent of acute appointments scheduled 
within access standards but does not track suppressed demand or those 
beneficiaries who are directed to the NAL, civilian urgent care, or the 
ER. To successfully transition significantly more care into the MTFs, 
it will be vital to quantify additional demand and pinpoint areas where 
beneficiary needs are not being met so adjustments can be made. Without 
proper metrics, it will be impossible to monitor progress against MHS 
Reform goals for improving access, quality, safety, and the patient 
experience.
Health Care Final Thoughts
    Our Association urges you to reject not only the specifics 
contained in the fiscal year 2017 budget proposal, but also DOD's 
approach to MHS Reform. We strongly believe MHS Reform starts with 
tangible improvements to access, quality, safety, and the patient 
experience. We realize costs will also be a key component of reform and 
trust you will ensure they reflect the value of military service.
    The military is a uniquely demanding profession. The combination of 
risk to personal safety, frequent geographic relocations, and lengthy 
family separations is unmatched in the civilian sector. While no 
financial compensation can fully offset the sacrifices made by 
servicemembers and their families, it is imperative the compensation 
and benefits package--including Active Duty and retiree military health 
care benefits--reflect the costs of service.
    We appreciate that recent MHS Reform proposals, including DOD's 
fiscal year 2017 budget and the Military Compensation and Retirement 
Modernization Commission (MCRMC) proposal, adhere to the principle of 
no/low cost care for Active Duty family members. A robust health care 
benefit alleviates barriers to health care, enhances family readiness, 
and allows families to endure the many sacrifices associated with 
military life. We hope as Congress considers reforms you will maintain 
this aspect of the system--it is working and it is essential.
    As you deliberate on the appropriate fee levels for working-age 
retirees, we encourage you to consider the cumulative effects of a 
military career. Under the best of circumstances, career servicemembers 
and their families endure risk, upheaval and sacrifice on a scale that 
is unimaginable to many civilians. Those currently approaching 
retirement eligibility have served the greater part of their careers 
during wartime--a time characterized by relentlessly high operational 
tempo, multiple combat deployments, and tumultuous unpredictability. 
For nearly 15 years, our servicemembers and their families have done 
everything that was asked of them, often at great expense to their 
family relationships and stability and physical and mental health. It's 
not over yet. Young servicemembers currently contemplating their 
futures do so with the understanding global threats persist and 
extraordinary wartime sacrifices and uncertainty will be part and 
parcel of a military career for the foreseeable future. For those who 
endure for 20+ years, we contend the appropriate out-of-pocket costs 
for retiree health care not just be billed as ``a discount off the 
comparable civilian equivalent.''
                               commissary
    Military families consistently tell us the commissary is one of 
their most valued benefits. The savings military families realize by 
shopping at the commissary is a vital non-pay benefit essential to many 
families' financial well-being, particularly junior families, and those 
stationed overseas or in remote locations. Our Association is grateful 
Congress recognized the importance of this benefit to military families 
and rejected funding cuts included in the Administration's fiscal year 
2016 budget proposal.
    In December 2015, DOD released a fact sheet outlining plans to 
``optimize'' commissary operations. We were pleased to see in this fact 
sheet both an acknowledgement of the importance of the commissary 
benefit and a commitment to preserving the value of the benefit for 
military families. However, we have concerns about how the Department's 
plans will be put into practice and how military families will be 
affected by efforts to optimize commissary operations. This is 
especially true in light of the Administration's fiscal year 2017 
budget, which proposes a $200 million reduction in commissary 
appropriations. We would like information about how DOD intends to make 
those cuts and what impact, if any, the cuts will have on store 
operations.
    Specifically, we ask Congress to require DOD to provide answers to 
the following questions:

      <bullet>  How does the Department intend to measure the benefits 
of the commissary system as currently constructed, and what metrics 
will it use to ensure any changes do not lead to a reduction in those 
benefits?
      <bullet>  How will the Department implement price flexibility 
while ensuring families continue to receive the full value of the 
commissary benefit?

    The fiscal year 2016 NDAA authorized DOD to establish pilot 
programs that would evaluate the feasibility of various changes to 
commissary operations, including privatizing part or all of the system. 
We thank Congress for its emphasis on preserving savings for military 
families in this provision. However, we note the military resale system 
is highly interdependent; changes to one element of the system may have 
unintended consequences that will affect other parts. For example, if 
one or more high volume store is privatized will the Defense Commissary 
Agency (DeCA) still benefit from economies of scale that allow vendors 
to sell goods at low cost? What would removing those high volume stores 
from the system mean for smaller stores or those in remote locations? 
We urge Congress to carefully consider the effect any change in 
commissary operations will have on military families--particularly, the 
risk the savings they enjoy by shopping at the commissary will be 
reduced or lost.
                       military retirement system
    We appreciate Congress' efforts in the fiscal year 2016 NDAA to 
create a military retirement system that will allow more servicemembers 
to accumulate retirement savings while preserving the defined benefit 
for those who serve a full career. We also support those proposals in 
the fiscal year 2017 budget that would enhance the retirement plan and 
increase its value for servicemembers.
    We ask Congress to increase the maximum level of matched 
contributions to servicemembers' Thrift Savings Plan (TSP) accounts to 
5 percent--the level recommended by the MCRMC. Because the match is 
based on servicemembers' basic pay, rather than total compensation, 
servicemembers should have the option of a higher match in order to 
maximize their retirement savings. We also ask Congress to extend the 
Government match for the full career of the service member, rather than 
ending it at 26 years of service.
    We oppose the Department's proposal to delay matching contributions 
until the service member has completed four years of service. In order 
for servicemembers to maximize the value of the new plan, they must be 
incentivized to begin saving early in their career. Without the 
incentive of a Government match, some servicemembers may delay their 
retirement savings, leading to a greatly diminished benefit in the long 
term.
    Finally, we note on January 1, 2018 servicemembers with less than 
12 years of service will be given the choice of opting in to the new 
retirement system or staying in the old one--a momentous decision with 
the potential for significant financial ramifications. It is incumbent 
upon the Department to ensure these young servicemembers--and their 
spouses--are given the tools and resources they need to make this 
decision. In the view of our Association, online training is not 
sufficient. Service members and spouses require in-person training and 
guidance to answer their questions and ensure they make the best choice 
for their long-term financial well-being. We ask Congress to direct DOD 
to provide additional details on its plan to educate servicemembers and 
their spouses on the new retirement system.
    We ask Congress to increase the maximum level of matched 
contributions to servicemembers' TSP accounts to 5 percent and reject 
DOD's proposal to delay matching contributions until the service member 
completes four year of service.
    We also ask Congress to direct DOD to provide details on its plan 
to educate servicemembers and their spouses on the new retirement 
system.
 cumulative effects of cuts threaten military families' financial well-
                                 being
    The Administration's fiscal year 2017 budget proposal does not 
consider the cumulative effects of a reduced pay raise combined with 
lower BAH payments, loss of commissary savings, and possible out-of-
pocket health care costs on the purchasing power of servicemembers and 
their families. This budget proposal would reduce cash in a service 
member's pocket!
    We ask Congress to reject budget proposals that threaten military 
family financial well-being as a way to save.
          sequestration: an ongoing threat to family readiness
    The effects of sequestration have already resulted in cuts to 
benefits and programs military families utilize to maintain their 
readiness. Much of the funding for these programs is embedded in the 
Service Operations and Maintenance Accounts, which have been the 
hardest-hit by sequestration. Understanding what is affected by 
sequestration has been confusing for families.
    The total effect of sequestration on military families in unclear. 
What is clear is that military families do not deserve having to deal 
with such uncertainty--uncertainty of the availability of programs they 
rely on, uncertainty of whether their service member will receive the 
training they need to do their job safely, the uncertainty of not 
knowing what new cost they will be asked to absorb from their own 
pockets.
    While the Bipartisan Budget Act of 2015 has provided some relief 
for fiscal year 2016 and fiscal year 2017, we know with future cuts 
required down the road, military families will continue to see threats 
to the programs and resources they require for readiness.
    We ask Congress to end sequestration and end the threat to the 
resources military families depend on for their readiness.
  building the force of the future: what do today's military families 
                                 need?
    It has often been said while the military recruits a service 
member, it must retain a family. Our Association has long argued in 
order to build and maintain the quality force our Nation demands, the 
military must support servicemembers as they balance the competing 
demands of military service and family life. Thus, we were gratified to 
see significant family-focused proposals included in Defense Secretary 
Ashton Carter's recent Force of the Future initiative. However, while 
the Force of the Future initiatives, if implemented, can be an 
important first step in easing the strain faced by many servicemembers 
and their families, we urge Congress to continue to strengthen the 
programs and services available to support all troops and families in 
diminishing uncertainty and meeting the daily challenges of military 
life.
                maternity, paternity and adoption leave
    We commend Secretary Carter for providing 12 weeks of maternity 
leave for new mothers in every branch of service. While this does 
unfortunately represent a reduction from the 18 weeks previously 
available to women in the Navy and Marine Corps, we agree with the 
Secretary this is a benefit that should be standard across the 
services. Increasing maternity leave from six weeks, as was previously 
the case in the Army and Air Force, will allow new mothers to recover 
physically and bond with their newborns before resuming their demanding 
jobs.
    We also applaud the Secretary for recognizing the need for new 
fathers and adoptive parents to spend time with their children.
    We ask Congress to act on the Secretary's proposal to expand 
paternity leave to 14 days and to allow two weeks of adoption leave to 
both parents in dual-service families.
                               child care
    According to the 2014 Demographics Profile of the Military 
Community, more than 40 percent of servicemembers have children. Of the 
nearly two million military-connected children, the largest cohort--
almost 38 percent--is under age five. \6\ Thus, it is not surprising 
access to high-quality, affordable child care ranks among the top 
concerns for military families. Like all working parents, 
servicemembers with young children need access to affordable child care 
in order to do their jobs. However, the military lifestyle comes with 
unique challenges and complications for families. Service members 
rarely live near extended family who might be able to assist with child 
care. Their jobs frequently demand long hours, including duty 
overnight. They are often stationed in communities where child care is 
expensive or unavailable.
---------------------------------------------------------------------------
    \6\ 2014 Demographics Profile of the Military Community. Rep. 
Office of the Deputy Assistant Secretary of Defense (Military Community 
and Family Policy), http://download. military onesource.mil/12038/MOS/
Reports/2014-Demographics-Report.pdf
---------------------------------------------------------------------------
    We are gratified in recent years DOD has made child care a priority 
and has taken steps to improve families' access to child care. We were 
also pleased to see child care provisions such as expanded hours for 
installation child development centers (CDCs) included in the Force of 
the Future initiatives. However, while expanded CDC hours will address 
the needs of some military families, we urge Congress and the 
Department to consider additional steps in order to meet the needs of 
military families with young children.

      <bullet>  Improve access to installation-based care: For families 
living on or near a military installation, on-base CDCs are often the 
preferred choice for child care, offering a convenient location and 
high quality care at an affordable price. However, in some locations 
demand for spots at installation CDCs far outstrips supply. In many 
places the waiting list is so long the CDC is effectively not an option 
for military families. The problem is exacerbated by the frequent moves 
associated with military life. Following each PCS move, a military 
family must restart the process of looking for care in their new 
community and frequently find themselves again at the bottom of the 
waiting list. In some locations, the issue is lack of physical 
capacity. However, there are other obstacles hindering military 
families' access to care. DOD could alleviate some of the shortage of 
on-installation child care spots by addressing the following issues:
        -  Staffing: In some locations the reason for the insufficient 
supply of on-base care is not a lack of space; it is a lack of staff. 
The process of hiring CDC personnel is lengthy and arduous. It can be 
difficult for CDC directors to find, hire, and put into place qualified 
staff. This limits the number of children a facility can serve. DOD 
should analyze whether and how the hiring process can be streamlined 
while still ensuring that necessary background checks and training take 
place to ensure children's safety. We also endorse the recommendation 
made by the MCRMC that child care workers be exempt from furloughs and 
hiring freezes. Budget cuts should not prevent CDC directors from 
staffing their facilities appropriately.
        -  Wait list management: Typically, each CDC handles its own 
application process and waiting list, so families often must visit 
multiple facilities and submit applications for each hoping a spot 
becomes available. This process adds to families' frustration. We are 
hopeful the rollout of MilitaryChildCare.com to installations worldwide 
will alleviate this issue. MilitaryChildCare.com is DOD's website that 
allows parents to view all installation-based child care options at 
their location and request a spot for their child. We are told the site 
will provide greater visibility of waiting lists, so parents know how 
long they will have to wait for care and the services can determine 
whether access standards are being met. The site is currently utilized 
at selected installations, but is scheduled to be available worldwide 
later this year.
        -  Priority standards: DOD regulations give equal priority for 
child care spots to military families and DOD civilians. While DOD 
civilians also need access to quality, affordable child care, this 
policy puts military families at a disadvantage due to their frequent 
military-ordered moves. Each PCS move puts a military family at the 
bottom of the waiting list for child care. We urge you to ask DOD to 
assess usage of CDCs by DOD civilians and review child care wait list 
priority policies to ensure parity for mobile military families.
      <bullet>  Reinstate the authority to use Operation and 
Maintenance funds to construct child development centers: Prior to 
2009, DOD was given temporary authority to bypass the normal military 
construction approval process and use Operation and Maintenance (O&M) 
funds to construct CDCs. Under this authority, the services were able 
to respond quickly to the growing demand for child care and completed 
construction and renovation projects that allowed them to serve an 
additional 9,000 children. This authority lapsed in 2009. In its 
January 2015 report, the MCRMC recommended this authority be 
reinstated. We agree with the Commission's recommendation.
      <bullet>  Increase participation in the child care fee assistance 
program: The fee assistance program operated by the services is an 
innovative, effective approach to the problem of insufficient child 
care availability on base. The program helps offset the cost of child 
care in the civilian community, ensuring participating families can 
access high quality care at an affordable cost. Despite recent well-
publicized issues with the Army's program, participating families 
overall report a high level of satisfaction with the program. However, 
relatively few families are able to take advantage of this benefit. 
Expanding participation in the child care fee assistance program would 
address many families' child care needs. We recommend the following 
steps:
        --  Increase number of eligible providers: DOD has stringent 
requirements for child care providers participating in the fee 
assistance program, to include national certification, regular 
inspections, and background checks. However, many states have less 
stringent requirements for providers. In those locations, families 
often have difficulty locating a provider who meets DOD's eligibility 
requirements. The Office of Military Community and Family Policy and 
the Defense State Liaison Office (DSLO) have worked together to 
encourage states to increase their standards to meet DOD's and have had 
a great deal of success in this regard. We encourage them to continue 
with this effort.
        --  Standardize Service requirements: Because the fee 
assistance programs are operated by the individual Services, there are 
variations in eligibility requirements for providers and families. Some 
Services require families live a certain distance from an installation 
in order to participate in the program; others have no geographic 
restrictions. The Marine Corps requires providers to have a specific 
national certification that is not required by the other Services. 
These differences lead to confusion and frustration among families. We 
ask you to direct DOD to review Services' fee assistance programs with 
the goal of standardizing eligibility requirements.
        --  Raise awareness of the program among military families: We 
consistently encounter families who have no idea the fee assistance 
program exists. From our experience, it would seem most families learn 
about the program through word of mouth from other military families. 
If families are not aware of the fee assistance program and cannot 
obtain care on base they may be forced to seek out less than optimal 
caregivers who provide care at a lower cost. DOD must ensure the 
Services are providing information about the fee assistance program to 
eligible families to ensure military children are receiving quality 
care.
      <bullet>  Increase availability of part-time and hourly care: 
Although the focus of the installation child care program is 
understandably on meeting the needs of military families with two 
working parents, many families also tell us of the importance of hourly 
or drop-in care. Many military families--especially those overseas or 
in remote locations--do not have easy access to reliable caregivers. 
For those families, access to drop-in care at an installation child 
care facility can greatly enhance their quality of life, enabling 
parents to go to medical appointments, run errands, and volunteer in 
their communities. This service can be especially vital when the 
service member is deployed, providing the at-home parent with a much 
needed break. We hear from families in many locations budget cuts have 
led CDCs to reduce or eliminate drop-in care. DOD should evaluate the 
programs at installation CDCs to ensure the mix of care offered--full-
time, part-time and hourly--meets the needs of the families they serve.
                     military children's education
    Our Association has long argued DOD has a responsibility to support 
the schools charged with educating military-connected children, to help 
ensure military kids receive the best possible education. Military 
families often have no control over when and where they move. They 
worry about the effect multiple moves to locations with varying 
standards and curricula will have on their children's academic 
achievement. We urge Congress to continue funding programs designed to 
support the education of military-connected children.
Impact Aid
    We appreciate the inclusion of $30 million for DOD Impact Aid in 
the fiscal year 2016 NDAA. We ask Congress to continue this funding to 
offset the costs incurred by districts educating large numbers of 
military children. These funds help local school districts meet the 
education needs of military children in an era of declining state 
budgets. Our Association has long believed both DOD and Department of 
Education Impact Aid funding are critical to ensuring school districts 
can provide quality education for military children.
Department of Defense Education Activity Grant Program
    The John Warner National Defense Authorization Act for fiscal year 
2007 established a grant program, administered by the Department of 
Defense Education Activity (DODEA), to support public schools educating 
large numbers of military children. This innovative program allows DOD 
to offer tangible support to public schools charged with educating 
military-connected students. Schools and school districts are able to 
identify areas of need among the military children they serve and 
design programs to meet those needs. The grants have been used to bring 
Advanced Placement (AP) courses to high schools that would otherwise 
not be able to provide this level of instruction. Other grants have 
been used to fund special education, foreign language instruction, and 
programs to enhance students' education in reading, science, and math.
    Since 2009 this program has awarded nearly $400 million in grants 
to over 180 military-connected school districts. These three-year 
projects have supported nearly 500,000 military-connected students in 
2,200 schools. However, this valuable program will sunset at the end of 
fiscal year 2016 absent Congressional action. It would be regrettable 
if military children lose access to the valuable educational programs 
that have been made possible through the DODEA grant program. A 
relatively small investment can make a huge impact at the local level. 
We ask Congress to reauthorize the DODEA grant program and allow DOD to 
continue supporting military-connected children in public schools.
                spouse employment and education support
    Spouse employment and education support is a critical component of 
military family readiness. Much like their civilian counterparts, many 
military families rely on two incomes in order to help make ends meet. 
However, military spouses face barriers hindering their educational 
pursuits and career progression due in large part to challenges 
associated with the military lifestyle.
    We are gratified in recent years Congress, DOD, the White House, 
and States have all taken steps to lessen the burden of an Active Duty 
member's military career on military spouses' educational and career 
ambitions. We fully support these initiatives including DOD's portfolio 
of Spouse Education and Career Opportunities (SECO), which includes 
educational funding for select military spouses, career counseling, 
employment support, and the DOD State Liaison Office's (DSLO) state-
level initiatives. However, while progress has been made, military 
spouses continue to face significantly lower earnings and higher levels 
of unemployment and underemployment than their civilian counterparts 
greatly impacting their families' financial stability. \7\
---------------------------------------------------------------------------
    \7\ Institute for Veterans and Military Families, Military Spouse 
Employment Report, Syracuse University (IVMF) February 2014: http://
vets.syr.edu/wp-content/uploads/2014/02/
MilitarySpouseEmploymentReport--2013.pdf
---------------------------------------------------------------------------
Grow our Own
    One of our top legislative priorities is to ensure adequate access 
to behavioral health providers who are attuned to the unique stressors 
of military life for servicemembers and their families who have endured 
years of repeated deployments, long separations, and possible injuries 
or illnesses. We support efforts to educate and employ military spouses 
as mental health professionals.
    As military families struggle to cope with the effects of 15 years 
of war, we are seeing an increasing demand for mental health services 
within our families and community. Since 2004, NMFA's military spouse 
scholarship and professional funds program has had more than 73,000 
applicants. Data from this year's 7,000+ scholarship applicants, as 
well as from Active Duty spouse respondents to MOAA's 2015 health care 
survey, indicate alarming rates of behavioral health usage among 
military families. Both surveys show between 40-50 percent of military 
spouses have sought behavioral health care for someone in their family.
    Unfortunately, access to top-notch care is limited. The shortage of 
mental health professionals nationally is mirrored in the military 
community; it is even greater at military installations in remote 
areas. We believe our Nation has an obligation to prevent, diagnose, 
and treat the mental health needs of servicemembers and their families. 
Doing so in the face of a nationwide shortage of mental health 
professionals will require innovative solutions and strategic public-
private partnerships including Congress, DOD, the VA, and other 
organizations. We believe military spouses may also be a source of help 
for their community.
    Each year we've offered military spouse scholarships, the number of 
spouses pursuing mental health careers and seeking help furthering 
their education has increased. This number reached almost 10 percent of 
our applicant pool of 7,000+ in 2016--more than 600 spouses. Twenty-one 
percent of these mental health profession applicants are spouses of 
wounded or fallen servicemembers. In a recent February 2016 Facebook 
post a Marine Corps spouse shared an experience all too common for 
military spouse mental health professionals:
        ``I'm looking for fellow military spouses who have completed 
        the practicum and internship process for clinical mental health 
        counseling or who have earned their LPC or LPCC by following 
        California, Arizona, or North Carolina state requirements. We 
        are currently stationed at Camp Pendleton, CA and I will start 
        my practicum this June. I have excelled in my graduate program 
        and now I am facing major challenges finding a facility that 
        doesn't require a year sign-on and who has openings for new 
        interns starting this summer. One specific problem I'm facing 
        is we aren't sure when new orders will come or where they will 
        be (making it additionally hard to convince licensed 
        supervisors to take a new intern on if I will only be there for 
        a couple months). Is there anyone who can share a professional 
        contact with me?
    Many of our military spouses pursuing careers in mental health 
fields intend to serve military families. Helping these spouses 
overcome obstacles and pursue their careers has the dual benefit of 
assisting the individual spouse and family while addressing the 
shortage of mental health providers in the military community.
    We offer the following recommendations for Congress to consider:

      <bullet>  Include military spouses and others who enter the 
mental health profession in federal loan-forgiveness programs;
      <bullet>  Facilitate easier paths to both licensure and 
employment for military spouses and veterans in the mental health field 
when they work with our servicemembers and families;
      <bullet>  Provide a tax credit for spouses' re-licensing after a 
military move to offset the out-of-pocket cost of the additional 
license;
      <bullet>  Pass legislation to allow military spouses full 
reciprocity when transferring an Active unrestricted mental or 
behavioral health license from one state to another due to PCS;
      <bullet>  Support partnerships between the Military Health System 
and the VA to ease spouse difficulties in obtaining clinical 
supervision hours, reduce licensing barriers, and spur employment of 
military spouses and veterans in the mental health field.

    We ask Congress to increase access to behavioral health providers 
by supporting employment efforts of military spouses in the mental 
health profession.
  office of special needs and the services' exceptional family member 
                  programs: more oversight is required
    The Department of Defense Office of Special Needs (OSN) was created 
in the fiscal year 2010 National Defense Authorization Act (fiscal year 
2010 NDAA) (Public Law 111-84) to enhance and improve DOD support 
around the world for military families with special needs, whether 
medical or educational. Despite the establishment of the OSN, gaps in 
support to special needs military families still exist, due in part to 
differences among the various Services' Exceptional Family Member 
programs (EFMP).
    The EFMP is intended to perform three interrelated functions:

    (1)  Identify and enroll eligible family members;
    (2)  Coordinate the assignment process to ensure special needs 
families are not sent to locations that lack adequate resources; and
    (3)  Provide families with information about and referral to local 
resources.

    While some Services take a centralized approach to EFMP, with 
enrollment, assignments, and case management services all housed in a 
single office, other Services' programs are more stovepiped. When a 
breakdown in communication occurs, families may find themselves 
assigned to locations without appropriate medical or educational 
services for their special needs family member or unaware of resources 
available to them through their communities. We often hear from 
families who experience a long wait before receiving services at their 
new installations because of lack of communication between EFMP 
Coordinators at the old and new installations. Families need the 
reassurance they will have continuity of care and a warm hand-off as 
they move from installation to installation.
    A 2012 GAO [Government Accountability Office] report, Better 
Oversight Needed to Improve Services for Children with Special Needs, 
(GAO-12-680, September 10, 2012) noted there are no Department-wide 
benchmarks to set standards for the services' EFM programs. As a 
result, the Department is unable to assess the effectiveness of the 
branches' EFM programs and ensure improvements are made when needed. In 
addition, although OSN was created to enhance and monitor the military 
branches' support for families with special needs, it has no authority 
to compel the branches to comply with DOD or Service-level program 
requirements and it has no direct means by which to hold them 
accountable if they fail to do so.
    DOD must comply with the GAO recommendations and establish 
benchmarks and performance goals for the EFM program. We further ask 
OSN to develop and implement a process for ensuring the branches' 
compliance with EFM program requirements.
    We ask DOD and the Services to set a common standard of support 
families can expect to receive through the EFMP. Families have the 
right to expect a level of service for their special needs family 
members regardless of the color of the uniform they wear. This is 
especially important as joint basing becomes more common and when 
families from one Service live and work on installations operated by 
another.
Respite Care
    Families with special needs children have unique child care needs. 
For those families, dropping a child off at a day care center or with a 
sitter may not be an option. Instead, parents of special needs children 
need respite care provided by trained caregivers. Access to quality 
respite care allows families to run errands, spend time with other 
children, and simply recharge. Recognizing the importance of respite 
care, especially for military families far from the support of friends 
or extended family, the Services have provided respite care for 
military families with eligible special needs family members as part of 
the EFMP family support function. However, because the respite care 
programs are operated and funded by each of the individual Services, 
eligibility requirements and the number of respite care hours available 
to families vary. This is a significant source of frustration to 
families assigned to joint bases or installations managed by other 
Services. We are also concerned the current fiscal environment may lead 
the Services to reduce the level of respite care they offer.
Special Needs Navigators and Case Management Not Implemented
    The fiscal year 2010 NDAA included specific directives for 
providing family support and case management services to better serve 
military families with special needs family members. Despite the intent 
of the legislation, those services have not yet been fully implemented, 
leaving families struggling to locate resources in their communities 
and manage their complex medical and non-medical needs.
    The fiscal year 2010 NDAA directed installation EFM programs to 
include ``Special Needs Navigators'' to help families find programs and 
resources available in their civilian communities. In locations where 
Special Need Navigators are part of the EFMP, families report a high 
level of satisfaction with the service and support they receive. 
However, few installation EFMPs include Special Needs Navigators.
    We urge DOD to meet the minimum level of family support 
coordination outlined in the fiscal year 2010 NDAA by expanding access 
to Special Needs Navigators.
    The fiscal year 2010 NDAA also emphasizes the need for enhanced 
case management support. Case management is specifically mentioned 
three times in the legislation:

      <bullet>  In addressing support for military families, the Office 
shall develop a uniform policy that shall include DOD requirements for 
resources (including staffing) to ensure the availability of 
appropriate numbers of case managers to provide individualized support 
for military families with special needs.
      <bullet>  The program shall provide for timely access to 
individual case managers and counselors on matters relating to special 
needs.
      <bullet>  Each program shall provide for appropriate numbers of 
case managers for the development and oversight of individualized 
services plans for educational and medical support for military 
families with special needs.

    Additionally, the fiscal year 2010 NDAA Conference Report language 
makes clear the importance of case management support for special needs 
military families:

        ``The conferees expect that implementation of this section will 
        result in substantial improvements in identification and 
        outreach to larger numbers of individuals who need support and 
        coordination of available services, expansion of case 
        management services, more direct training and counseling for 
        parents and families, and timely access to information and 
        referral to both Department of Defense and other federal, 
        State, and local special needs resources and services. The 
        conferees direct the Secretary to examine ways to mitigate the 
        challenges for families who may be disadvantaged by relocation 
        during their military service, and to ensure that enrollment in 
        the Exceptional Family Member Program, or any successor to that 
        program, is perceived as a positive and necessary family 
        readiness resource.''

    Unfortunately, recently-released EFMP proposed regulations provide 
few details on case management services. There are no specifics 
regarding case manager resource requirements, acceptable case 
management access standards, or requirements for the development and 
updating of individualized service plans (medical and educational) for 
military families with special needs. We regularly hear from special 
needs families who are not getting sufficient support from case 
managers in terms of establishing initial care, or re-establishing 
services following a PCS [permanent change of station], for their 
special needs family member.
    Given the critical role of case managers, DOD must expand access to 
high quality case management services for special needs families.
    Section 582 of the fiscal year 2011 NDAA, Enhancement of Community 
Support for Military Families with Special Needs, included two 
provisions that have not been implemented to date:

    (1)  Periodic reviews of the best practices in the United States in 
the provision of medical and educational services to children with 
special needs, and
    (2)  Establishment of an advisory panel on community support for 
military families with special needs.

    DOD should conduct period reviews on the best practices in 
providing medical and educational services to special needs children. 
DOD should also establish an advisory panel on community support for 
special needs military families.
Access to Health Care for Military Special Needs Families
    Caring for a special needs family member can be difficult and 
draining for any family. However, the impact for military families is 
magnified by the unique challenges associated with military service. 
Frequent geographic relocations are a fact of life for military 
families. A geographic relocation will, by definition, disrupt the 
continuity of care that is so important in managing complex medical 
conditions. After every move, special needs military families must 
begin a lengthy cycle of referrals, authorizations, and waitlists at 
each new duty station, resulting in repeated gaps in care. A nationwide 
shortage in pediatric specialists means even when families have 
successfully navigated the authorization and referral process at their 
new location, they may face a delay of weeks or even months before 
treatment can restart. Military families fear these repeated treatment 
delays have a cumulative and permanent negative effect on their special 
needs family members.
    It is frustrating for military parents to know these treatment 
delays could be mitigated if the process for accessing specialty care 
were more flexible and streamlined to address the unique aspects of 
military life. Unfortunately, TRICARE's rigid referral and 
authorization process--made even more difficult by varying Military 
Treatment Facility (MTF) procedures--too often hinders the transition 
process for military families rather than facilitating it. In addition, 
providers often tell us working with TRICARE is overly complex. Many 
choose not to participate in the TRICARE network because it is too 
difficult to navigate and administer. The resulting shortage of TRICARE 
network providers further impedes families' access to specialty care.
    We appreciate the Administration's fiscal year 2017 budget proposal 
has acknowledged the need for an improved referral process that 
provides seamless mobility and fewer administrative burdens. Changes to 
the referral process should make specialty care access more flexible 
and streamlined to address the unique aspects of military life without 
forcing Active Duty families to pay more out-of-pocket.
    For special needs military families, frequent relocation presents 
another obstacle: the inability to qualify for services through 
Medicaid waivers. Caring for children with complex medical needs can be 
incredibly expensive. We appreciate the MCRMC recognized this problem 
faced by our families with special needs. Most civilian families in 
this situation ultimately receive some form of public assistance, 
typically through state Medicaid waivers. State Medicaid programs 
provide assistance not covered by TRICARE: respite care, employment 
support, housing, supplies, and more flexible medical coverage. Because 
the demand for these services far outstrips the supply, there is a 
lengthy waiting list to receive assistance in most states. For
    that reason, these services are often out of reach for a military 
family who must relocate every two to three years. A military family 
who places their special needs child on a Medicaid waiver waiting list 
must start again at the bottom of the waiting list when they move to a 
new state. The Defense State Liaison Office (DSLO) has recognized 
military families' inability to access care through Medicaid waivers as 
one of its high priority issues and is working with state legislatures 
to address this problem. However, little progress has been made in 
resolving this disparity.
    TRICARE's Extended Care Health Option (ECHO) program was designed 
in part to address this imbalance, by allowing families to access non-
medical services not covered under TRICARE. According to TRICARE's 
website, benefits covered under ECHO include ``training, 
rehabilitation, special education, assistive technology devices, 
institutional care in private nonprofit, public and State institutions/
facilities and, if appropriate, transportation to and from such 
institutions/facilities, home health care and respite care for the 
primary caregiver of the ECHO-registered beneficiary.'' However, in 
practice military families find it difficult to obtain services through 
the program.
    This reality was reflected in TRICARE's May 30, 2013 report, The 
Department of Defense Report to Congress on Participation in the 
Extended Care Health Option (ECHO), detailing military families' usage 
of the ECHO benefit. They reported, in 2012, 99 percent of funds 
expended through the ECHO program were spent on Applied Behavioral 
Analysis (ABA) therapy and ECHO Home Health Care (EHHC). Although these 
services are important and popular with special needs families, it is 
impossible to see this statistic and not wonder why families are not 
accessing the long list of other services ostensibly available to them 
under ECHO.
    The MCRMC also found ECHO benefits, as currently implemented, are 
not robust enough to replace state waiver programs. \8\ DOD has assured 
our Association they are working on ECHO improvements. However, other 
than a policy update to cover incontinence supplies, we have heard no 
specifics. Given the importance of ECHO to special needs families, DOD 
must examine how to bring the ECHO benefit on par with state Medicaid 
waiver benefits.
---------------------------------------------------------------------------
    \8\ Final Report of the Military Compensation and Retirement 
Modernization Commission--January, 2015
---------------------------------------------------------------------------
    Another service much in demand by families is respite care. For 
families with special needs children, the time away afforded by respite 
care is vital. Access to quality respite care allows families to run 
errands, spend time with other children, and simply recharge. Respite 
care is ostensibly available through the ECHO program, but TRICARE 
policies limit its utility. ECHO sets strict requirements for respite 
care providers, making it difficult for families to identify eligible 
providers.
    Congress has given DOD much more discretion in its coverage of ECHO 
benefits than it has concerning medical benefits provided under the 
Basic Program. Thus, TRICARE has the authority to make changes that 
would enhance the ECHO program's utility to military families. Aligning 
ECHO coverage with that of state Medicaid programs, as the MCRMC 
recommends, would do much to enhance special needs military families' 
readiness and quality of life.
    TRICARE should enhance the ECHO program's utility to military 
families by ensuring it covers the products and services families need.
    The transition out of the military and into civilian life is 
difficult for many families but especially so for special needs 
families, who immediately lose access to ECHO benefits. Families may 
still face long waits before being eligible for care through Medicaid, 
which leads either to gaps in treatment or financial hardship for a 
family trying to pay for needed care. To ease the hardship for families 
in this situation, we recommend ECHO eligibility be extended for one 
year following separation to provide more time for families to obtain 
services in their communities or through employer-sponsored insurance.
    We ask Congress to extend eligibility for the Extended Care Health 
Option (ECHO) for one year following separation to provide more time 
for families to obtain services in their communities or through 
employer-sponsored insurance.
                      military families in crisis
    Even though the war in Afghanistan is coming to an end, military 
families continue to live extraordinarily challenging lives. 
Reintegration continues to pose challenges for some. Others are 
concerned they will be impacted by the military drawdown and are 
anxious about their financial futures. Most military families are 
resilient and will successfully address whatever challenges come their 
way. However, some will need help. It is critical military families 
trust DOD services and programs and feel comfortable turning to them in 
times of need. These programs and services must be staffed and 
resourced adequately so when families reach out for help, they can 
trust it is available. Military families must be assured our Nation 
will support them in times of family or personal crisis.
Suicide
    In 2014, the Defense Suicide Prevention Office (DSPO) released a 
report outlining an approach for tracking military family member 
suicides. The report, Suicide and Military Families: A Report on the 
Feasibility of Tracking Deaths by Suicide among Military Family 
Members, was requested by the Senate and House Armed Services 
Committees.
    We appreciate Congress including a provision directing DOD to track 
military family suicides as well as Reserve Component suicides in the 
fiscal year 2015 NDAA, but are frustrated by DOD's delays in developing 
a plan to meet this mandate. If we don't have solid information on the 
extent of the issue, targeting solutions becomes more difficult.
Preventing Child Abuse and Neglect, and Domestic Violence
    Research commissioned by our Association \9\ and others during the 
past decade documents the toll of multiple deployments on children and 
families, the difficulties many families face on the service member's 
return, and the added strain a service member's physical and invisible 
wounds can place on a family. These stressors put military families at 
risk for marital/relationship problems and compromised parenting that 
must be addressed with preventative programs.
---------------------------------------------------------------------------
    \9\ Anita Chandra, et al., RAND Center for Military Health Policy 
Research, Views from the Homefront: The Experiences of Youth and 
Spouses from Military Families, 2011
---------------------------------------------------------------------------
    Current research validates families will experience the effects of 
war long after deployments end. A recent study highlighted parenting 
challenges fathers face following deployment. The study found that 
while deployment is a time of great stress for families, the need for 
support and a strong community continues during the extended period of 
reintegration after the service member returns. This need is 
particularly pronounced when the returning service member is father to 
a young child, and he faces the core challenge of reconnecting with a 
child who has undergone significant developmental changes while he was 
away. \10\ A 2013 research brief issued by Child Trends, Home Front 
Alert: The Risks Facing Young Children in Military Families, \11\ 
concluded many children negatively impacted by a parent's repeated 
combat deployments will continue to have exceptional needs as they grow 
older.
---------------------------------------------------------------------------
    \10\ Tova B. Walsh, et al., ``Fathering after Military Deployment: 
Parenting Challenges and Goals of Fathers of Young Children,'' Health & 
Social Work: A Journal of the National Association of Social Workers, 
February, 2014
    \11\ ``Home Front Alert: The Risks Facing Young Children in 
Military Families'', Child Trends, July 22, 2013
---------------------------------------------------------------------------
    Those looking for budget cuts may find it tempting to slash family 
support, family advocacy, and reintegration programs. However, bringing 
the troops home does not end our military's mission or the necessity to 
support military families. Recent media coverage indicates the 
incidence of child abuse and neglect among Army families has increased. 
We are concerned the extraordinary stress military families have faced 
could lead to increased domestic violence as well. Preventative 
programs focused on effective parenting and rebuilding adult 
relationships are essential. The Government should ensure military 
families have the tools to remain ready and to support the readiness of 
their servicemembers.
    We are encouraged the Family Advocacy Program, a congressionally 
mandated DOD program designed to prevent and respond to child abuse/
neglect and domestic abuse in military families, has redoubled its 
focus on prevention programs. Their efforts to repair relationships and 
strengthen family function will be essential. Programs like New Parent 
Support focus on helping young parents build strong parenting skills 
early on.
    We encourage Congress and the Department of Defense to ensure that 
Family Advocacy programs are funded and resourced appropriately to help 
families heal and aid in the prevention of child and domestic abuse.
                   support for transitioning families
    Transitioning due to downsizing affects the whole family. In 
addition to the transition assistance program available to 
servicemembers, resources relevant to family members need to be 
identified. Issues such as how to find community resources to replace 
DOD programs and the military spouse's role in the long-term care of 
the family as a whole aren't addressed in the transition classes.
    In May 2014, our Association conducted a survey of military spouses 
facing transition. Over half the spouses indicated they were extremely 
or very concerned about relocation and finding employment. Over three 
quarters of the spouses were extremely/very concerned about being 
financially prepared and finding employment for their service member. 
Access to the counseling and other services provided by Military 
OneSource, beyond the 180 days currently provided, would make available 
resources and information to ease some of the concerns of our 
transitioning military families.
    Expand the opportunity for spouses to access transition information 
including face-to-face training and on-line training.
    Expand family access to Military OneSource to one year from a 
service member's separation from the military.
        today's surviving spouses need the dic offset eliminated
    Our Association has long believed the benefit change that would 
provide the most significant long-term advantage to the financial 
security of all surviving families would be to end the Dependency and 
Indemnity Compensation (DIC) offset to the Survivor Benefit Plan (SBP). 
Although we know there is a significant price tag associated with this 
change, ending this offset would correct an inequity that has existed 
for many years. Each payment serves a different purpose. The DIC is a 
special indemnity (compensation or insurance) payment paid by the VA to 
the survivor when the service member's service causes his or her death. 
The SBP annuity, paid by the Department of Defense (DOD), reflects the 
military member's length of service. It is ordinarily calculated at 55 
percent of retired pay. Military retirees who elect SBP pay a portion 
of their retired pay to ensure their family has a guaranteed income 
should the retiree die. If that retiree dies due to a service-connected 
disability, their survivor becomes eligible for DIC.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career service member and spouse.
Special Survivor Indemnity Allowance
    In the fiscal year 2008 NDAA, the Military Personnel Subcommittee 
established the Special Survivor Indemnity Allowance (SSIA) as a first 
step in a longer-term effort to phase out the DIC offset to SBP.
    That initial legislation authorized the SSIA for all survivors 
affected by the SBP-DIC offset in the amount of $50 per month for 
fiscal year 2009, with the amount increasing by $10 monthly for each of 
the next five years, reaching $100 per month for fiscal year 2014-2016, 
not to exceed the amount of SBP subject to the offset. The authority to 
pay the SSIA, under this initial provision, was to expire on March 1, 
2016.
    In 2009, SSIA payments were extended through the end of fiscal year 
2017, and the monthly SSIA amounts were increased:

    Fiscal year 2014:  $150
    Fiscal year 2015:  $200
    Fiscal year 2016:  $275
    Fiscal year 2017:  $310, with payment authority expiring as of 
Sept. 30, 2017.

    As of fiscal year 2017, phased SSIA increases will have eliminated 
roughly 25 percent of the SBP-DIC penalty.
    Including an extension of SSIA in the fiscal year 2017 National 
Defense Authorization Act is necessary so SBP-DIC widows will not see 
an interruption or elimination of the then-$310 payment.
    Extend SSIA so the modest progress in eliminating the DIC offset to 
SBP will not be lost.
SBP for Inactive Duty for Training Deaths
    The Eleventh Quadrennial Review of Military Compensation released 
in June, 2012 recognized the Survivor Benefit Plan (SBP) annuity for 
Reserve component personnel who die while performing inactive duty is 
significantly less than the benefit available to survivors of Active 
Duty members and Reserve members who die on Active Duty. Despite their 
inactive status, these reservists are still performing military duties 
at the time of their death. The review report recommends calculating 
SBP benefits for a reservist who dies while performing inactive duty 
training using the same criteria as for a member who dies while on 
Active Duty.
    Calculate Survivor Benefit Program annuities for a reservist who 
dies while performing inactive duty training using the same criteria as 
for a member who dies while on Active Duty.
              caregiver and wounded service member support
    Service members and their families must be assured our nation will 
provide unwavering support to the wounded, ill, and injured. This 
support must extend beyond the recovering warrior's medical and 
vocational rehabilitation. It must also include programs and services 
that help military caregivers, typically spouses or parents, 
successfully navigate their new role.
Special Compensation for Assistance with Activities of Daily Living 
        (SCAADL)
    Our Association appreciates that Congress authorized monetary 
compensation to caregivers of catastrophically wounded, ill, and 
injured servicemembers via the fiscal year 2010 NDAA. The Special 
Compensation for Assistance with Activities of Daily Living (SCAADL) 
program helps offset the loss of income by a primary caregiver who 
provides non-medical care, support, and assistance to the service 
member.
    We are concerned, however, DOD and the Services are no longer 
providing an appropriate level of information and outreach on this 
important benefit. The SCAADL calculator has not been updated on DOD's 
website since January, 2015. The SCAADL page of the Army's Warrior 
Transition Command is unavailable. Similarly, the Defense Finance and 
Accounting Service website has a dead link to the SCAADL calculator.
    We understand and are grateful the number of combat wounded has 
decreased dramatically. However, there are still thousands of 
servicemembers forward deployed to hostile environments. Military 
service is inherently risky and servicemembers are regularly injured in 
training or other line of duty incidents. It is important we maintain 
programs established over the past 15 years of war to support families 
of the wounded.
    Consistent with recommendations from the Recovering Warrior Task 
Force, we also request a legislative change to exempt SCAADL from 
income taxes to enhance this benefit for wounded warrior families.
    Maintain the SCAADL program, particularly outreach to wounded 
warrior families, and exempt SCAADL payments from income taxes to 
enhance the value to beneficiaries.
Medicare Eligible Wounded Warriors & TRICARE Coverage
    Medically retired wounded warriors who receive Social Security 
Disability Insurance (SSDI) benefits become eligible for Medicare Part 
A after 24 months on SSDI. At that point, the wounded warrior must 
enroll in Medicare Part B in order to keep TRICARE coverage. After the 
wounded veteran enrolls in Medicare Part B, their TRICARE coverage 
converts to TRICARE for Life (TFL). This poses a variety of problems 
for the severely wounded population:

    <bullet>  In the worst case scenario, the wounded warrior or his/
her caregiver does not realize or is not appropriately informed they 
must enroll in Medicare Part B and they lose their TRICARE coverage 
entirely.
    <bullet>  In other instances, the wounded warrior or caregiver 
understands and enrolls in Medicare Part B and retains TFL. Although 
medical coverage is retained, the severely wounded veteran is now 
paying more for medical coverage than most other working-age TRICARE 
retirees.
    <bullet>  Finally, there are some severely wounded veterans who 
receive SSDI for over 24 months and are forced onto Medicare/TFL. 
Eventually, the wounded veteran returns to work, but they are required 
to stay on Medicare Part B for eight years after returning to work. 
This results in over $10,000 in Medicare Part B costs to the severely 
wounded warrior who returns to work.

    This is an extremely complex issue facing the most severely wounded 
servicemembers and their caregivers. These families face emotionally 
challenging lives and overwhelming responsibilities. Making a mistake 
on Medicare Part B should not result in the life altering consequence 
of losing health care coverage. Furthermore, our most severely wounded 
warriors should not be forced to pay more for their health care than 
others.
    This complex problem crosses many jurisdictions including the 
Centers for Medicare and Medicaid Services, DOD, the Social Security 
Administration, the Senate Finance Committee, the House Ways and Means 
Committee, the HASC and the SASC. Given this problem impacts our most 
severely wounded veterans and their families, we urge the House and 
Senate Armed Services Committees to take the lead in finding and 
implementing a solution to this complex issue.
Supporting an Enduring Wounded Warrior Mission
    The reduction in combat operations and the resulting decline in 
combat wounded poses a risk that attention and resources for wounded 
warrior programs and initiatives will shift to competing priorities. 
Some of this shift is certainly warranted, but it is critical 
improvements made over the last 15 years are not lost as we move 
forward. We support Recovering Warrior Task Force recommendations to 
formalize and marshal support for the way forward in wounded warrior 
care and caregiver support for current and future generations of 
wounded warriors.
                 military families-continuing to serve
    Recent national fiscal challenges have left military families 
confused and concerned about whether the programs, resources, and 
benefits contributing to their strength, resilience, and readiness will 
remain available to support them and be flexible enough to address 
emerging needs. The Department of Defense must provide the level of 
programs and resources to meet these needs. Sequestration weakens its 
ability to do so.
    Service members and their families have kept trust with America, 
through more than 15 years of war, with multiple deployments and 
separations. We ask the Nation to keep the trust with military families 
and not try to balance budget shortfalls from the pockets of those who 
serve.
    Evolving world conflicts keep our military servicemembers on call. 
Our military families continue on call as well, even as they are 
dealing with the long-term effects of more than a decade at war. The 
Government should ensure military families have the tools to remain 
ready and to provide for the readiness of their servicemembers. 
Effective support for military families must involve a broad network of 
Government agencies, community groups, businesses, and concerned 
citizens.

    Senator Graham. Mr. Bousum?

 STATEMENT OF SCOTT BOUSUM, LEGISLATIVE DIRECTOR, THE ENLISTED 
     ASSOCIATION OF THE NATIONAL GUARD OF THE UNITED STATES

    Mr. Bousum. Chairman Graham, Ranking Member Gillibrand, 
Senator Blumenthal, thank you for allowing me to testify on 
behalf of the Enlisted Association of the National Guard of the 
United States.
    Our membership represents over 414,000 enlisted men and 
women of the Army and Air National Guard, their families and 
survivors, and tens of thousands of National Guard retirees. 
Their lives are touched in some way by the decisions that are 
made by you and your colleagues on the Armed Services 
Committee.
    I worked closely with you and your staff and your House 
counterparts as you developed and considered the blend of 
retirement proposals in the fiscal year 2016 National Defense 
Authorization Act. We understand that much of the conversation 
this year will be about reforms to the health care system.
    Reforms to the personnel system and defense acquisition 
system are driven by the budget. It is clear the Department of 
Defense needs additional funds to research new technologies, 
procure new weapons platforms, maintain equipment, start new 
construction projects, and train and pay servicemembers and 
civilian staff.
    This year the Personnel Subcommittee is looking to reform 
military health care without sacrificing quality, cost, and 
access. During last month's budget rollout, the Department of 
Defense distributed health care proposals to the Active 
component. While the Department is still considering 
improvements for members of the Reserve component, I am 
prepared to discuss some of the ideas starting to be socialized 
on Capitol Hill, such as transferring the management of the 
Reserve component health care to the Office of Personnel 
Management.
    In conjunction with the Reserve Officers Association and 
the National Guard Association of the United States, we 
circulated a health care satisfaction survey to our members. 
Together, our membership reflects the entirety of the Reserve 
component, officers and enlisted. The results of our survey are 
enclosed with my written testimony. Our survey shows that our 
membership likes TRICARE when it works as designed.
    Continuity of care is our greatest challenge.
    I understand that the Reserve Officers Association 
submitted a written statement today with excerpts from our 
survey, and I am prepared to address those comments as well.
    Thank you again for hosting today's hearing and for 
inviting me to discuss Department of Defense personnel 
programs. I look forward to answering your questions.
    [The prepared statement of Mr. Bousum follows:]
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    
       
      
    Senator Graham. Mr. Davis?

STATEMENT OF JOSEPH E. DAVIS, PUBLIC AFFAIRS DIRECTOR, VETERANS 
                        OF FOREIGN WARS

    Mr. Davis. Thank you, Chairman Graham, Ranking Member 
Gillibrand, Senator Blumenthal. Thank you for letting the 1.7 
million members of the Veterans of Foreign Wars and auxiliaries 
giving us a voice here.
    The VFW [Veterans of Foreign Wars] can support a lot of 
initiatives currently on the table, such as the Force of the 
Future and better suicide and sexual assault prevention and 
response programs. Some initiatives we want tweaked, such as 
matching military pay raises to the ECI [Employment Cost 
Index], increasing the Government's TSP contribution to 6 
percent, and extending it through retirement. Some initiatives 
the VFW opposes, such as starting the Government's TSP program 
match in year 5 instead of year 3, dismantling TRICARE on the 
promise that better service will follow after enrollment fees 
are created or increased, and anything that impacts morale, 
such as the continuation of sequestration, which is still the 
law of the land.
    Everything the VFW wants costs money, but everything we 
want is for somebody else, another veteran, a servicemember or 
their families and survivors. As I said in my written 
statement, our Government's most important responsibility is to 
provide for the security and integrity of our Nation and very 
close second is taking care of those who protect us.
    I look forward to your questions.
    [The prepared statement of Mr. Davis follows:]

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
      
  
      
    Senator Graham. Thank you. That was excellent by all of 
you.
    Ms. Raezer, when it comes to TRICARE reform, my goal is to 
make the program sustainable in terms of the budget but also to 
make it more efficient and not repackage the system and just 
charge you more. That is exactly where we are headed, and we 
are not going to do that. We are going to change the system. 
Give me just a couple of top line recommendations.
    Ms. Raezer. I think, first of all, start with what you are 
talking about, start with what is the benefit we want to 
deliver, what are the problems we need to solve. Start with 
designing that and then talk about what people should pay.
    Consider the whole military health system. We cannot wall 
off the military treatment facility and say they have got to 
take care of readiness. They do not have a dog in this hunt. 
They do. Our Active Duty families are having the most trouble 
with the direct care system. So we have to consider it as a 
system.
    Look at ways to pilot some innovations. I think some of the 
suggestions on the Reserve component side may be useful for 
pilots or----
    Senator Graham. Can I interrupt right there? Mr. Bousum. 
How do you say it?
    Mr. Bousum. Bousum.
    Senator Graham. Bousum. I am sorry.
    So we are actually thinking about taking the Guard and 
Reserve and basically putting it into the Federal employee 
system. Right?
    Mr. Bousum. Correct.
    Senator Graham. To me that is pretty exciting. I mean, 
Guard and reservists generally speaking are not next to 
military treatment facilities, and it basically would give you 
the same access to providers every Member of Congress and our 
staff has. You feel like that would be the way to go?
    Mr. Bousum. We do feel like that would be the way to go.
    Senator Graham. You know you got to pay for it.
    Mr. Bousum. True. On that point, we would like for TRICARE 
Reserve Select to be an option on FEHBP [Federal Employee 
Health Benefits Program].
    Senator Graham. Perfect.
    Ms. Roth-----
    Ms. Roth-Douquet. Like a bouquet of flowers.
    Senator Graham. Douquet. Okay.
    About child care, that is probably a problem for everybody 
in the country I guess. What could we do better?
    Ms. Roth-Douquet. There are a couple things. It is a 
problem for everyone in the country, but it is moving every 
one, two, and three years. So even if you do find it, you break 
it and have to start over again.
    Senator Graham. That is the problem is just people move all 
the time.
    Ms. Roth-Douquet. That is the problem. Exactly.
    I think there is a lot to be said in investing more in 
child care centers on base and extending the hours to hours 
that military-connected women, the female servicemembers need, 
starting them from 4:00 a.m. going to 8:00 p.m. That would help 
a lot. Increasing training for military spouses to be child 
care providers so that we both address employment----
    Senator Graham. That would fit two needs there.
    Ms. Roth-Douquet. You would hit two needs there.
    Recognizing that this is a reason people leave military 
service, both females and males. So there is a rationale for 
making investments in it that pay off.
    Senator Graham. We will definitely push that to make sure 
they are looking at using the talented people to maybe provide 
child care.
    Mr. Davis, I really appreciate you talking about 
sequestration. I just want you to know that if we do not fix 
the top lines, none of this is going to work. When 70 percent 
of the Marine Corps' expense comes in personnel, I do not know 
how you keep them ready to fight. This is insane. The threat 
levels are going through the roof. The number of people in the 
services is well below what the threat level exists, and we are 
taking money out of modernization, which means the next fight 
is--I am not looking for a fair fight. I want an overwhelming 
advantage to all the enemies this country may ever face. So I 
just want to compliment you because you are one of the first 
organizations to actually weigh in on the elephant in the room, 
which is the top line number.
    Mr. Davis. Thank you, Mr. Chairman. I appreciated the last 
panel discussion about sequestration because it was created 5 
years ago, but it is still the law of the land.
    Senator Graham. Look what has happened in the last 5 years.
    Mr. Davis. You know, everybody in Congress hates it, but 
nobody has yet dropped the legislation to end it. We have got 
to figure out how to fix it.
    Senator Graham. Thank you all.
    When it comes to health care, I want to try to do in health 
care what we did in retirement, think outside the box and get 
better value and save some money in the process.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Ms. Roth-Douquet, I would like to work with you on a child 
care center proposal to actually write language for this year's 
NDAA because I think it is fundamentally one of the biggest 
problems about why some of the men and women we have trained 
for 10 years are leaving the military because right when 
childbearing years happen, they do not have the resources for 
affordable day care and they cannot manage their child care 
responsibilities. So we are losing so much of our trained men 
and women because we did not take care of their most important 
need. So I would like to work with you.
    I would like to ask you, Ms. Raezer, about a bill that 
Senator Blunt and I introduced in the fall. It is called the 
Military Family Stability Act, which both of your organizations 
support. It allows families of servicemembers to move ahead or 
remain behind for up to 6 months for schooling and employment 
purposes.
    So what led your organizations to support the bill?
    I also support family leave for servicemembers to care for 
children or sick family members. From your experience and that 
of your members, would a more generous leave policy for spouses 
also be helpful? Would these policies not help with retention 
and improve the view of the military as a family-friendly 
employer?
    Ms. Raezer. Thank you, Senator Gillibrand.
    I just also want to note on the child care issue our 
written statement contains some of our recommendations on 
solutions for the child care issue. So we would love to work 
with you on that as well.
    Senator Gillibrand. Great.
    Ms. Raezer. I think the Stability Act--I think military 
families are seeking certainty but sometimes that certainty 
means they need some flexibility to adjust family life to the 
needs of the military. Too often, they do not have that 
flexibility to create a little more certainty in their lives. 
Whether that makes sense or not, it does to many military 
families.
    What the Stability Act does and was attractive to us was 
that it allowed families to plan not just forcing all of their 
plans around a PCS move. We have a senior in high school. It 
would be great to be able to allow that senior to graduate. We 
have a spouse finishing their degree program in nursing, one 
more semester to go. Would it not be great? Or spouse that 
knows they are going to PCS, has been looking or a job finds 
one, but they need him or to start now, allowing that family to 
move ahead. That kind of flexibility adds to the military 
family's loyalty to the military. It could add to family 
financial stability, and it also helps the family feel a little 
more in control of their circumstances. That is why we support 
it and that is why we appreciate your introducing that bill.
    Senator Gillibrand. Thoughts on leave, paid leave?
    Ms. Roth-Douquet. I think paid leave is very useful. What 
we find with our young families--and they are millennials--
having some control is extremely important to them. So the 
Family Stability Act allows them to choose for their family 
when the move is a good time to go. I think the paid leave also 
puts a little modicum of choice into their own hands. The 
uncertainty of military lifestyle is the number one concern 
that servicemembers stated in our last survey. These kinds of 
efforts make a huge difference with that.
    People pay out of pocket. My husband and mine's last move--
we paid $10,000 out of pocket to keep our children in school in 
Germany to finish the semester when he had a PCS June 1st. If I 
was not working, that would have been extremely difficult for 
our family. That happens over and over again. Twenty-five 
percent of military families choose to live geographically 
separated because of issues that make moving together 
difficult. That is too much for our families and for the 
future.
    Senator Gillibrand. Thank you.
    Mr. Bousum, I believe the National Guard can play a unique 
role in recruiting and training cyber warriors. Individuals in 
the private sector can join the National Guard, leveraging 
their expertise for the military. For servicemembers with 
training in cyber warfare, they can move into the National 
Guard upon retirement, allowing the military to continue 
utilizing their skills and knowledge.
    What do you see as the role of the National Guard in cyber 
warfare? How can DOD better support our National Guard members?
    Mr. Bousum. I agree. I think that partnerships, especially 
in more populated corridors where our guardsmen and women can 
go in and work in the private sector and actually be skilled up 
on how to secure private company databases--yes, I think that a 
public-private partnership would be a good first step, and I 
definitely think that there is room for the Guard in this area.
    Senator Gillibrand. Great.
    For the record, Ms. Roth-Douquet and Ms. Raezer, I want to 
ask you specifically about the cutting of the autism 
reimbursements, and you can answer that for the record. But we 
have heard it is really damaging because the reimbursement 
rates for the people who typically give the applied behavioral 
therapy is so low that they cannot get a number of treatments 
that they need. So that I will leave for the record.
    Senator Gillibrand. For Mr. Davis for the record, I am very 
concerned about Agent Orange for our blue water Navy vets 
getting the treatment that they need. The VA has been arbitrary 
and just decided if you are serving on blue water, you are not 
covered. If it was brown water, you are covered, even though 
aircraft was covered with Agent Orange, even though they were 
drinking and bathing in Agent Orange-strewn water and have the 
diseases related to exposure.
    I would like a question for the record on that specifically 
for you to respond to.
    Senator Gillibrand. Thank you so much for your testimony.
    Senator Graham. Senator King?
    Senator King. Thank you, Mr. Chair. Thank you for allowing 
me to rejoin the hearing.
    First to our two representatives of the families, in my 
college years in the Washington area, I worked for Allied Van 
Lines moving principally military families. I will never forget 
one military spouse turned to me and said, you know, five moves 
equals a fire. That was the pressure of the moving and the wear 
and tear on the family and also on the possessions. I just want 
to join with Senator Gillibrand. We have got to build in 
flexibility for the family when the duty station changes but 
the school is still not done. I mean, I think that is something 
that we really need to take care of hopefully this year because 
it is just so difficult.
    Mr. Bousum, we talked in the prior panel about the OPTEMPO, 
and part of that is the Guard and the pressure that has been 
put on the Guard in recent years. Are we overstressing the 
Guard by numbers of deployments, length of deployment, and is 
that something that we should be concerned about both in terms 
of the Guard, and I am also concerned about the employer base, 
which is starting to get testy about this frequent deployment 
and lengths of deployment.
    Mr. Bousum. I do not think we are overstressing the Guard. 
I think that the Guard would like to see more predictability. I 
also think that the overuse of 12304b orders--and part of that 
is in my written testimony--is putting a lot of stress on 
family members and our servicemembers. But I do not think that 
we are overstressing the Guard.
    Senator King. So predictability is more important to you 
than numbers, number of deployments.
    The Guard rests to some extent on the good will and support 
of employers, and I am hearing resistance from employers.
    Mr. Bousum. I think it has a bit to do with predictability, 
not quantity. I think that in the post-9/11 world, the reason 
people join the Guard or the Active component is because they 
want to serve. So our members of the Guard want to serve. They 
just want more predictability so that they can allow their 
employer to plan for it.
    Senator King. Good. That is helpful.
    I will ask the same question for the record that I asked of 
the prior panel, and that is, could you supply your reflections 
and thoughts on the effect of the retirement changes that were 
made last year, and are there some necessary adjustments to 
achieve the goals of that plan but to achieve them in a more 
equitable or more effective way? So if you could just give us 
that for the record.
    Senator King. The largest question before this committee 
is, are we recruiting and retaining the people that we need? 
Are there policies that are getting in the way? It worries me 
that, at a time of increasing threats, we are downsizing, as 
you probably heard me ask the questions. But also, the 
requirements for our military personnel are increasing. We have 
Navy ships now that are manned by--personed by half of the 
number that were there 5 to 10 years ago. So the skill level is 
raised. Are the personnel policies, salaries, benefits, 
retirement sufficient to attract and retain the people that we 
need?
    Ms. Raezer. I think that is a huge question that the 
Department faces, that the Nation faces. Right now, if you look 
at the recruiting numbers, you are seeing the services are 
meeting their numbers. They are struggling in some cases, but 
they are meeting their numbers.
    We are concerned on the retention side, as all of these 
things that we have talked about today, the OPTEMPO, the 
unpredictability, the uncertainty, the pressure on compensation 
and benefits, the inability to find child care or get an 
appointment for a sick child or to help that special needs 
child with additional services, that that day-to-day grind 
sometimes is what is wearing our folks down to the point where 
they say we cannot do this anymore. A spouse finds a good job, 
and the servicemember says, you know, let us get out know. Let 
us not move. Let us not mess up what we have. That is the 
worry.
    Senator King. The retention is so important because if we 
could move the average retention out a year, that would be a 
significant savings across the board because of the training 
costs. We are spending a lot of money to train people for a 5-
year stint. I understand the average retention period is about 
5-plus years. Is that the right number?
    Ms. Raezer. It depends on the service.
    Mr. Bousum. Yes, it depends on the service. It depends on 
the component. The National Guard tends to serve much longer.
    Senator King. Oh, yes, much longer. I understand, but I am 
talking about Active Duty.
    I mean, retention, it seems to me, has got to be a key 
element because of the training costs.
    Ms. Raezer. But it is also difficult right now because 
several of the services are downsizing. So what is the 
incentive for somebody who is highly skilled, who has skills 
that are in demand outside the military? Even if they want to 
stay in the uncertain time of downsizing, what is the incentive 
to stay? If you can find a better opportunity, take it. Part of 
the retention problem is the uncertainty the military faces.
    Senator King. I want to ask our two advocates for the 
families to answer this question. If you could wave a wand, if 
you were sitting on this side of the dais--not that we get to 
wave wands. It is harder than that. But if you could wave a 
wand, what are the two or three things that you would do to 
improve the lives of military families?
    Ms. Roth-Douquet. I frankly think we have the opportunity 
to do that and not spend a lot of budget money, and that is to 
use the bully pulpit to bring more jobs to military spouses. We 
can double the pay of most military families, the majority, 60 
percent, by employing spouses at the level they want to be 
working and that they are employed and able to work. It is one 
of the top reasons that otherwise promotable people leave the 
service. It is just families taking care of themselves the way 
they want to and the way other American families do.
    Senator King. Is the difficulty for spouses due to the 
mobility problem? They have a hard time getting a job----
    Ms. Roth-Douquet. Most people get jobs through 
relationships, and when you are moving every one, two, or three 
years, you are in a place where it takes a while to get a 
relationship. But now that there is remote work--and military 
spouses are invisible. You cannot tell they are a military 
spouse. But if we called on the American people to hire these 
talented folks particularly in technology and remote work areas 
or in the kinds of work we were talking about with child care 
or give more of a preference for on-base hiring, especially 
overseas where people are otherwise not able to work, yet we 
are flying people overseas to take jobs that military spouses 
could do, we could make a significant dent in something that I 
think is actually destabilizing our force.
    Senator King. A new motto, Mr. Chairman. Support our 
warriors. Hire the spouse.
    Senator Graham. Very good.
    Ms. Roth-Douquet. There you go.
    Ms. Raezer. If I could wave a wand and fix something, I 
would make the military health system more responsive to the 
needs of our families.
    Senator Graham. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    I can attest to the fact that nobody on this side of
    the United States Senate wears a Blue Star. I want to thank 
you for your excellent work.
    People sometimes say to me, oh, only two of you? But the 
fact of the matter is that less than 2 percent of our 
population has really been involved in an Active family way in 
any of the wars over these last 15 years. I think that accounts 
for some of the issues that have been raised here because if 
more people were affected, there would be more interest and 
less invisibility to the issues that you have very rightly 
raised. I certainly commend you, all of you, for focusing on 
the need for greater health care and job opportunities, 
training for spouses, and other members of military families.
    I want to ask you, Mr. Bousum, you made a statement which I 
cannot contest with any hard evidence, but my experience has 
been--and I spend a lot of time with our National Guard and our 
reservists in Connecticut, but they are really weary that their 
families, more than they, are weary. Our National Guard and our 
Reserve are always ready to go. They will answer the call. They 
are there because they want to serve, as you have said 
correctly. But their families pay an enormous price, their 
children. After two, three, or more deployments over a period 
of maybe 5 to 10 years, their families suffer or serve and 
sacrifice as much or more than they do. So I would tend to 
agree that maybe they are not feeling the war weariness and 
maybe the direct effects, but their families seem to be--at 
least substantial numbers.
    Would you agree or disagree? I would be interested in you 
thoughts.
    Mr. Bousum. Yes, I do agree with that, and I certainly 
agree with your statement that our family members make as much 
of a sacrifice as our servicemembers do.
    I think that a lot of what you are saying has to do with 
the continuity of care challenges in the health care realm that 
part of this hearing is trying to address. There is a lot of 
bureaucracy when we have 30-some duty statuses and there is a 
lot of fudging the numbers and pushing the paperwork in a way 
that it jeopardizes the benefits that our servicemembers 
receive. There is a lot of knee-jerk reactions and decisions 
based off of information that they just got the day before. I 
think that if we can address some of the health care challenges 
facing our members of the National Guard, especially rural 
members of the National Guard, that we will start to see that 
turn around.
    Senator Blumenthal. Let me ask all of you. I was 
particularly interested in what you said, Mr. Davis, about the 
link between national security and personnel policy because I 
think the two are clearly related.
    You know, I just came from a hearing of the Airland 
Subcommittee of the Armed Services Committee, and the Air Force 
was testifying. In a remote paragraph of one of the 
testimonies, there was this fact. We have 511 open pilot 
positions right now, a deficit, as they put it, of 511, which 
is expected to increase to 834 by 2022. We tend to focus on all 
the bright, shiny objects, the new hardware, the F-35, the new 
planes and all the technology that is exploding in 
significance, and we should be because ultimately that 
technology and weapons platforms are key. But we need to 
recruit and retain, train, and put to work the best of our 
people in the United States. So I want to thank you all for 
your focus on this fact.
    This subcommittee is in my view as important or more 
important than any of the other subcommittees that we have 
because ultimately our greatest asset as a military is our 
people.
    Thank you very much for being here.
    Senator Graham. Any other questions?
    [No response.]
    Senator Graham. It is often said you recruit individuals 
and you retain families. You think about it. A lot of people 
come in single. By the time they reenlist, they are well on 
their way to having their own families.
    Mr. Davis, was there anything you wanted to add?
    Mr. Davis. Sir, I could ask Scott right here to read 
because I basically said right here you recruit the individuals 
and retain the families. I just wrote it as a note.
    [Laughter.]
    Senator Graham. The NSA told me about what you were going 
to say.
    [Laughter.]
    Senator Graham. The bottom line is not only do you help us 
understand the nature of family service, you have ideas. I like 
you all because you just do not complain. You actually have 
concrete things that maybe we can implement. Without you, we 
would be literally in the dark because only two members here 
have family members. So without you, we would really not 
understand what it is like to serve.
    In that regard, thank you very much, and we will try to 
implement as much of your ideas as we can, given the budget 
constraints we have.
    The hearing is adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Lindsey Graham
    1. Senator Graham. Do you consider cryopreservation of eggs and 
sperm to be a medically necessary benefit or a quality of life benefit?
    General McConville. Cryopreservation of eggs and sperm was 
announced by the Secretary of Defense on January 29, 2016 as a Force of 
the Future initiative, focused on improving the Quality of Life for 
Servicemembers and their families while improving the overall mission 
effectiveness and the strength and health of our teams. According to 
Army medical experts, this is a quality of life benefit.
    Admiral Moran. Because I am not a medical professional, I defer to 
the Surgeon General of the Navy on the medical aspects of 
cryopreservation. But I can certainly see that many servicemembers and 
their families may consider it a quality of life benefit, in addition 
to any medical necessity there may be for the practice.
    General Brilakis. When cryopreservation of eggs and sperm is viewed 
in relation to postponing child birth due to operational or career 
demands, it may be considered a quality of life benefit. The question 
is more complex when viewed in relation to the remote possibility of 
losing fertility due to combat injuries. There are a host of legal, 
moral, ethical, and social impacts that must be analyzed and resolved 
prior to determining if this procedure, regardless of the reason, 
should become a service member benefit.
    General Grosso. Air Force cannot provide an official response to 
this question as it warrants a Department of Defense (DOD) response 
since this is a Secretary of Defense initiative.
    Recommended Response for DOD: This investment will provide greater 
flexibility for our troops who want to start a family, but find it 
difficult because of where they find themselves in their careers. The 
military understands the demands upon our servicemembers and wants to 
help them balance commitments to force and commitments to family.
                               __________
          Questions Submitted by Senator Kirsten E. Gillibrand
                   combat integration implementation
    2. Senator Gillibrand. Now that the decision is made to open all 
military positions, including those in combat, to service by any 
individual, man or woman, who can meet the occupational standard, what 
is the way ahead for each of your services in implementing that 
decision, and how will you work toward ensuring success in this effort?
    General McConville. Upon receiving Secretary of Defense's approval 
of the Army's implementation plan, we will execute a detailed, 
incremental, and methodical approach by publishing an execution order. 
The Army will focus on gender-neutral standards, and a leader's first 
approach, meaning that female infantry and armor leaders (officers or 
noncommissioned officers) would be assigned prior to the assignment of 
female enlisted soldiers being assigned. The Army will continue to 
assess the execution of its implementation plan through continued 
studies to ensure successful gender integration.
    Admiral Moran. We will apply lessons learned from previous 
integration into ships and submarines and will follow approved 
implementation plans, while upholding validated, operationally-
relevant, gender-neutral, occupational standards. We will select only 
the best, fully-qualified candidates for entry into each profession, 
including those involving combat roles.
    General Brilakis. The Marine Corps began executing the Integration 
Implementation Plan upon approval by the Secretary of Defense. The plan 
has five phases: Setting the Conditions; Recruiting; Entry-Level 
Training; Assignment; and Sustainment. The first two phases have 
already begun and the subsequent phases will begin when female recruits 
demonstrate an interest in formerly closed ground combat arms 
specialties and successfully pass the gender-neutral physical screening 
and entry-level training requirements, along with their male peers. The 
Integration Implementation Plan uses physical screening tests, well-
defined occupational specialty standards, as well as teaming and 
training cohort assignments, for integration implementation success.
    Education and assessment elements are critical components of the 
Integration Implementation Plan. The Education Plan will commence in 
May 2016 and run through all phases. It will use subject matter experts 
and a train-the-trainer approach to educate every Active Duty marine by 
October 2016 and Selective Marine Corps Reserve Marine by the end of 
January 2017. It will ensure marines understand relevant details of the 
Integration Implementation Plan, address misconceptions, and prepare 
marines and units for further female integration. The Assessment Plan 
will be the mechanism by which integration is evaluated and will inform 
in-stride policy adjustments as necessary. Data related to integration 
issues will be collected and analyzed to help identify opportunities to 
further improve the process and mitigate problems. Ultimately, 
assessment will result in refined policies that improve outcomes.
    General Grosso. The way ahead, per our Air Force Implementation 
Plan for Full Integration, includes opening and managing all military 
positions using the Air Force's existing life cycle processes 
(recruiting, accessions, training, and assignment processes). The Air 
Force Integration plan also pays special attention to seven integration 
emphasis areas highlighted by the Secretary of Defense's (Transparent 
Standards; Population Sizes; Physical Demands and Physiological 
Differences; Conduct and Culture; Talent Management; Operating Abroad; 
Assessment and Adjustment). Successful gender integration will take 
time and requires a focus on standards, policy, education and engaged 
leadership across the Total Force.
    Our integration plan provides several deliberate steps to assist 
with integration to ensure we have created the best opportunities and 
environment for success. We have female cadre assigned in the training 
pipeline and being appointed in operational units to assist with 
integration. While we are not mandating any cohort size or holding up 
any training until a critical mass in reached, our plan values the 
benefits of mixing new airmen with more seasoned airmen where possible 
to help during integration and training. Our plan further includes 
education and communication tools and provides for periodic review, 
data tracking, and continuous assessments to allow incorporation of 
lessons learned and best practices as we move forward. Finally, our 
plan leverages existing Air Force education and training on culture and 
climate to ensure our Air Force standards for dignity and respect are 
practiced at all levels.

    3. Senator Gillibrand. How are you working with your squad and unit 
level leaders to ensure successful integration?
    General McConville. Once the Army receives Secretary of Defense's 
approval of its implementation plan, we will publish an execution order 
that will address an education, training, and communication strategy 
that will be focused on squad and unit-level leaders.
    Admiral Moran. Active, consistent, and committed leadership and 
professionalism will set and maintain a fair and equitable environment 
for successful integration. Additionally, we will ensure success by 
expanding female staff representation at Naval Special Warfare training 
sites, providing instructor training, conducting leadership exchanges 
with integrated Special Operations Forces partners, and direct 
engagement with the force.
    General Brilakis. Our education plan uses a train-the-trainer 
approach that organizes the entire Marine Corps into four tiers based 
on leadership level. Squad leaders and all more junior marines are part 
of the fourth tier and they will receive instruction from their platoon 
commanders and platoon sergeants (tier 3) who, in turn, receive 
education from their company commanders and first sergeants (tier 2). 
Tier 1 individuals will be the designated command representatives from 
every O-6/O-5-level command in the Marine Corps who receive their 
education from the Integration Education Plan subject matter experts 
directly.
    Through the Integration Education Plan, marines will learn the 
accurate details of the Integration Implementation Plan, dispel 
misconceptions, and prepare marines, both female and male, for the 
responsibilities associated with integrated units and specialties.
    General Grosso. Leaders at all levels are vested in successful 
integration. We are receiving continuous assessment and feedback from 
leaders at the squadron and unit level to ensure successful 
integration. We have kept in close contact with the Air Force 
Recruiting Service, Air Force Personnel Center and Career Field 
Managers on potential accessions. When we have females enter the 
training pipeline and then assigned to operational units, leadership, 
working closely with their female support cadre, will provide monthly 
assessment reports to Air Staff which provide the status on integration 
best practices, lessons learned, issues and mitigation efforts. Our 
initial assessment of facilities, equipment, supplies and medical 
support proved adequate for integration, but we will continue to 
monitor and readdress as required. In addition, we have planned for the 
Air Force Inspector General (IG) to review and conduct continued 
assessment that standards are in compliance with public law and track 
and address any IG complaints related to integration.

    4. Senator Gillibrand. General McConville and General Brilakis, are 
you developing predictive tests at the recruit stage to provide better 
outcomes for those servicemembers who seek to join the ground combat 
Forces and if so, can you describe the process being used to develop 
those tests?
    General McConville. The Army this year completed a Physical Demands 
Study and developed a four-event Occupational Physical Assessment Test 
(OPAT), which will allow the Army to screen applicants for their 
propensity to succeed in their assigned specialty prior to entry into 
training. All Army applicants, Officer and Enlisted, will be subject to 
screening with the OPAT. The OPAT is expected to be in place next month 
and to be used for screening later this fiscal year.
    General Brilakis. Applicants seeking a Ground Combat Arms (GCA) 
military occupational specialty (MOS) must meet the following gender-
neutral Initial Strength Test (IST) standards prior to shipment to 
recruit training: 3 pull-ups; 1.5 mile run in 13:30; 44 crunches in 2 
minutes; and 45 Ammo can lifts. The IST is the first step in the 
physical screening process for an enlisted applicant to be eligible for 
a service in GCA MOSs. Meeting the IST standards provide reasonable 
assurance an applicant has the physical strength and stamina to 
successfully complete recruit training and meet the GCA MOS 
Classification Standards (MCS), a requirement to attend MOS specific 
training following graduation from recruit training.
    GCA MOS Classification Standards (MCS) are more rigorous and must 
be met by each recruit who possesses a GCA contract prior to MOS 
classification toward the end of recruit training. The MCS are: 6 pull-
ups; 3 mile run in 24:51; Movement to Contact within 3:26; 60 Ammo can 
lifts within 2 minutes; and Complete Maneuver Under Fire within 3:12. 
Our research indicates that recruits, who can meet these MCSs, have a 
reasonable assurance of performing the GCA MOS-Specific Physical 
Standards, are less likely to sustain physical injury in training, and 
are more likely to successfully complete the MOS qualification course.

    5. Senator Gillibrand. What steps are you taking to prevent 
injuries?
    General McConville. Readiness remains the Army's number one 
priority, and preventing injuries of our soldiers is paramount to that 
goal. Over the past few years, the Army conducted multiple scientific 
studies and research to help us establish a deliberate, methodical, and 
standards based approach for putting the right soldiers in the right 
jobs.
    US Army Medical Command (MEDCOM) and the US Army Research Institute 
of Environmental Medicine (USARIEM) conducted a comprehensive Physical 
Demands Study to analyze the physiological requirements of combat 
occupations. The study led to the development of a physical screening 
test called the Occupational Physical Assessment Test (OPAT), which 
beginning June 1, 2016, will help the Army select applicants for 
occupations which they are physically capable of performing to 
standard.
    Furthermore, the Army believes the OPAT will help improve 
performance, reduce attrition, decrease lost training time, improve 
retention, reduce injury, improve overall satisfaction, and improve 
total health.
    Admiral Moran. A Naval Special Warfare (NSW) Human Performance 
Program was developed to address long-term physical human performance 
development and sustainment of NSW Active Duty personnel by providing 
the highest levels of musculoskeletal care and human performance 
enhancement. The program is designed to optimize personnel readiness 
while sustaining and extending each participant's operational career 
through state-of-the-art sports medicine, rehabilitation, physical and 
mental performance enhancement, and nutritional programs.
    NSW continues to conduct studies with Ohio State University, 
University of Pittsburgh, Naval Postgraduate School, and Center for 
Naval Analyses to reduce musculoskeletal injury and improve physical 
readiness. NSW will continue to track injury rates for all candidates, 
and injury rates among female candidates will be compared with those of 
their male counterparts, to identify whether the need for program 
changes is indicated.
    Additionally, NSW Injury Prevention and NSW Rehabilitation Program 
guides are provided to prospective candidates for injury prevention and 
training pipeline preparation. The guides have been reviewed by medical 
personnel of the NSW community to ensure all policies, processes and 
practices are gender-neutral.
    General Brilakis. The Marine Corps has developed a series of 
physical screens to try to minimize the likelihood of injuries for both 
male and female marines. First, prospective marines competing for 
ground combat specialties must complete the ground combat arms initial 
strength test and MOS Classification Standards. These tests will ensure 
that those individuals with a likelihood of succeeding in these 
specialties are assigned appropriately.
    Subsequently, to maintain a physically-intense MOS, marines will 
need to pass the MOS Continuation Standards during their service in the 
operating Forces. The physical performance of non-ground combat arms 
MOS marines will be evaluated against the load-bearing ground combat 
arms (GCA) unit assignment criteria; those non-GCA MOS marines who are 
likely to succeed are assigned to load-bearing units. This will help 
prevent injuries among the non-GCA MOS marine population serving in 
load-bearing units (infantry, reconnaissance, special operations).
    Finally, the Marine Corps is undergoing a comprehensive review of 
fitness throughout the Corps, led by our Training & Education Command. 
This includes potential modifications to the physical fitness test and 
combat fitness test that would incentivize greater fitness and make 
marines more resistant to injuries.
    General Grosso. The Air Force continues to pursue injury prevention 
methods for all airmen. We refined our injury prevention efforts and 
plan to introduce human performance optimization resources into the 
Battlefield Airmen Training. Injury prevention begins with education; 
on proper utilization of body mechanics, use of medically approved 
health supplements (such as iron for women), and preventive physical 
care/exercise/nutrition to strengthen the resilience of the 
musculoskeletal system. The Air Force will surveil to identify physical 
and mental injuries sustained by our Battlefield Airmen, to include 
over use, load bearing and technique driven injuries such as shallow 
water blackout or mental adaptive coaching. Prevention strategies are 
optimized to training and operational mission requirements. Some 
training and operational Battlefield Airmen units have programs that 
embed rapid rehabilitative capabilities along with preventive assets. 
These multidisciplinary teams include: physical therapists, strength 
and conditioning coaches, operational psychologists, athletic trainers, 
and sports medicine physicians. These multi-disciplinary teams have 
proven to increase physical and mental resilience, speed recovery from 
injury, and increase unit/mission readiness for the Battlefield Airmen.

    6. Senator Gillibrand. Have you started to recruit women for combat 
arms positions, and if so, when do you expect the first assignments to 
be made?
    General McConville. The Army has initiated gender neutral training 
for all occupations and plans to train female leaders first for the 
newly opened specialties, followed by recruiting and training the first 
junior enlisted women. The Army has already received applications for 
several dozen female officers, US Military Academy, ROTC and Officer 
Candidate School cadets/candidates to branch in the Infantry and Armor. 
These officers will begin training in the summer of 2016 and expected 
to reach their new units in early 2017. Beginning in April 2016, the 
Army plans to begin enlisting females for Infantry and Armor 
specialties and schedule them for One Station Unit Training (OSUT) 
classes that would allow them to arrive in their first assignments 
after the arrival of female leaders in the same specialties to the same 
units.
    Admiral Moran. We have officially opened Special Warfare Officer 
(113X) and Special Operations Officer (114X) designators, and Special 
Warfare Operator (SEAL) and Special Warfare Combatant-craft Crewman 
(SWCC) enlisted ratings to all qualified applicants. Recruiters and the 
Naval Special Warfare officer and enlisted community managers are 
actively engaging with potential candidates interested in the program. 
Assignments occur upon graduation from SEAL and SWCC pipeline courses.
    General Brilakis. Yes, the Marine Corps commenced recruiting and 
contracted over 70 women into select combat arms positions on 1 October 
2014 following repeal of the 1994 Direct Ground Combat Definition and 
Assignment Rule by the Secretary of Defense. Some have completed 
training and are in the Operating Forces. On 15 March 2016, upon 
approval of the Marine Corps Force Integration Plan by the Secretary of 
Defense, the Marine Corps opened all remaining combat arms positions to 
women. Recently two female officers did request and were granted the 
change of MOS to Artillery while stationed at The Basic School, and are 
currently training at Fort Sill. The USMC has also received two lateral 
move requests from female enlisted marines who participated in the 
GCEITF. However, to date, no female enlisted recruit has either 
volunteered or qualified to be contracted by Marine Corps Recruiting 
Command into one of the newly opened load-bearing MOSs.
    General Grosso. Yes, the Air Force started to recruit women for 
combat arms positions on Jan 4, 2016. As with recruitment of men, there 
are unique challenges in finding women with the motivation, mental and 
physical prowess required for these special operations related career 
fields. While we have had some initial interest, female candidates have 
yet to enter any of the training pipelines.
    Once we have a qualified candidate, Technical training for these 
career fields can run from 6 months to over two years. Due to this 
lengthy timeline, any woman qualifying for a combat position in 2016 
will not be expected to finish training until 2017 or later.

    7. Senator Gillibrand. How are you working with SOCOM to recruit 
and train women to compete for special operations positions?
    General McConville. Army Recruiting Command's Special Operations 
Recruiting Battalion (SORB) works closely with the United States Army 
Special Operations Command (USASOC) to determine recruiting goals and 
requirements for specific units and military occupational specialties. 
USASOC continues to remain fully integrated with gender integration 
efforts at HQDA and SOCOM. Since the inception of the Women in Service 
Review in January 2013, USASOC actions have been synchronized and 
consistent with both HQDA and SOCOM. As the title 10 force providing 
headquarters, USASOC is responsible for training, manning, and 
equipping Army Special Operations Forces (SOF) operators for employment 
across the Geographic Combatant Commands. Current USASOC recruiting and 
training standards are gender neutral, operationally relevant, and 
designed to build and maintain the most qualified Army SOF operator; 
they mirror the Office of the Secretary of Defense-approved standards 
outlined in the Army and SOCOM implementation plans for gender 
integration. All infrastructure and administrative requirements have 
been met to receive female ARSOF candidates beginning on April 1, 2016.
    Admiral Moran. Naval Special Warfare (NSW) is synchronizing 
integration efforts with U.S. Special Operations Command (USSOCOM) by 
conducting working groups and through scheduled weekly interactions 
among working group counterparts. NSW continues to coordinate 
integration efforts with accession and training pipeline partners at 
Navy Recruiting Command, Recruit Training Command and Naval Service 
Training Command.
    General Brilakis. The Marine Corps does not routinely work with 
SOCOM to recruit and train men and women for service in Special 
Operations; however, Marine Corps Forces Special Operations Command 
(MARSOC) has its own Recruiting & Advertising Branch. This branch 
educates the marines through multiple awareness platforms to include 
but not limited to Headquarters Marine Corps MARSOC Screening Team 
visit program, Manpower Management Command visit program, command 
sponsored local area visits, area canvassing, direct e-mail program, 
MARSOC recruiting website (www.marsoc.com), and informational handouts 
(posters, brochures and command pamphlets). Additionally, marines are 
provided a 10-week workout program in preparation for Assessment and 
Selection (A&S). MARSOC is working closely with Headquarters, Marine 
Corps to ensure that recruiting efforts are screening and assigning 
candidates with the requisite abilities and attributes that have the 
greatest potential for completing the training pipeline.
    MARSOC is now actively screening female marines who volunteer for 
A&S. The next scheduled A&S begins August 2016, and has qualified 
candidates. Upon successful selection at A&S, marines will be slated 
for a school seat in an upcoming Individual Training Course (ITC). The 
next ITC begins in January 2017. MARSOC has ensured a two female cadre 
will be in place at ITC and is prepared for the arrival of female 
candidates who complete A&S. ITC is the MOS producing school for the 
Critical Skills Operator and Special Operations Officer. MARSOC 
primarily recruits Corporals, Sergeants, 1st Lieutenants and Captains 
who meet prerequisite standards listed within the Military Occupational 
Specialty Manual and the Marine Corps Force Integration Implementation 
Plan.
    General Grosso. The Air Force is working with SOCOM to recruit and 
train women to compete for special operations positions. For officer 
positions, SOF operators visit the AF Academy and select Air Force ROTC 
detachments to engage, inform and recruit male and female cadets into 
the SOF/BA career fields. We also have permanent party SOF 
representatives at the Air Force Academy who provide leadership, assist 
with recruiting, and provide guidance on training during the initial 
screening phase (to prepare cadets to pass the entry requirements 
broken into three phases for entry to SOF/BA career fields). For our 
enlisted positions, working with our Air Force recruiters, current and 
past SOF operators assist in informing and recruiting when they engage 
with members via phone or email about the career field, or when they 
visit base and community events and functions. In addition, the Air 
Force has contractors, who were previous SOF/BA operators, who are 
mentors and assist in developing and training candidates to help 
prepare them for success in meeting entry and training requirements.

    8. Senator Gillibrand. General Brilakis, will the Marine Corps 
integrate all levels of training and if not, why not?
    General Brilakis. Marine Corps recruit training is combined. Only 
during the initial phase is training accomplished separately. Recruit 
training is designed to transform civilians into marines. The initial 
separation of our recruits removes potential distraction and allows 
recruits to focus on their individual transformation to a marine. This 
sets our female marines up for success because it allows them to 
improve their physical fitness, to be led by female drill instructors, 
and to have female officers as role models. Recruit training gets more 
and more combined as recruits proceed through the recruit training 
syllabus and, once recruits graduate as marines, all Marine Corps 
training is fully combined. We believe the current training process, 
honed over decades of experience, enables recruits to succeed. It has 
proven, during war and peace, the best way to build marines.

    9. Senator Gillibrand. General Brilakis, I noticed that the Marine 
Corps integration plan includes assigning women in cohorts. What size 
would those cohorts be and what will you do if only one woman passes an 
MOS school?
    General Brilakis. The Integration Implementation Plan has two goals 
associated with the assignment of females to previously closed units. 
First is the ``teaming'' concept. The Marine Corps will seek to assign 
females in teams of at least two (ideally of the same military 
occupational specialty). Second is the ``cohesive cohort'' concept. 
Under the cohesive cohort concept, the Marine Corps will seek to assign 
female ground combat arms MOS marines to ground combat arms units along 
with male and female members of their training cohort from their entry-
level MOS school. Male and female ground combat arms MOS marines who 
have trained together at MOS school have already observed each other's 
performance and can vouch for their respective abilities.
    If only one woman passes a given MOS school then, in accordance 
with our assignment goals, she would be assigned to the unit with at 
least one other junior female of another MOS along with male members of 
her training cohesive cohort at the MOS school.

    10. Senator Gillibrand. General Brilakis, I'm pleased to see that 
the Marine Corps established gender neutral standards for combat MOSs. 
How did you devise these standards? For example, the ground combat arms 
initial strength test requires 25 ammo can lifts; why 25?
    General Brilakis. For clarification, the gender-neutral Initial 
Strength Test (IST) for applicants seeking a Program Enlisted For Code 
associated with a ground combat arms MOS consists of 3 Pull-ups; 1.5 
mile run in 13:30 minutes; 44 Crunches in 2:00 minutes; and 45 (vice 
25) Ammo Can Lifts in 2:00 minutes. Collectively, research efforts from 
2012-2015 identified and validated MOS-specific gender-neutral tasks 
and correlated these tasks to the Service Physical Fitness Test and 
Combat Fitness Test events, enabling development of physical standards 
for IST for MOS Screening and MOS Classification Standards (MCS) for 
MOS Classification. The IST and MCS for ground combat arms MOSs are 
based on the 95th percentile of collected performance data, providing a 
confidence level that 95 percent of those marines who screen through 
the IST would be able to meet the MOS Classification Standards by the 
end of recruit training. Meeting the MSCs in turn provides reasonable 
assurance that marines can perform MOS Specific Physical Standards 
(MSPS) necessary to achieve occupation qualification at the MOS 
Schools. As of 30 September 2015, gender-neutral occupational standards 
have been in use at all Marine Corps MOS-producing schools. As with all 
training, the Marine Corps will continue to review and update 
occupational standards to ensure mission effectiveness across the range 
of military operations.

    11. Senator Gillibrand. General Brilakis, how many marines met 
these standards in the research phase?
    General Brilakis. All of them. Every individual--male and female--
met the minimum occupational standard for their participation in the 
research. No unqualified individuals were used in the research. For 
example, female 0311 subjects had to graduate from the Infantry 
Training Battalion 0311 course. Additionally, all combat arms female 
marines had to meet a minimum male 17-26 year old Physical Fitness Test 
(PFT) and Combat Fitness Test (CFT) passing score, the same as male 
participants.

    12. Senator Gillibrand. General Brilakis, can you tell me what 
percentage of the men and of the women met the standards in the 
research phase?
    General Brilakis. All of them. Every individual--male and female--
met the minimum occupational standard for their participation in the 
research. No unqualified individuals were used in the research. For 
example, female 0311 subjects had to graduate from the Infantry 
Training Battalion 0311 course. Additionally, all combat arms female 
marines had to meet a minimum male 17-26 year old Physical Fitness Test 
(PFT) and Combat Fitness Test (CFT) passing score, the same as male 
participants.

    13. Senator Gillibrand. General Brilakis, in your testimony you 
stated, in regards to combat integration: ``The framework of our 
research was--and continues to be--viewed through three interrelated 
lenses: first and foremost, the combat effectiveness of our marine 
units; second, the health and welfare of our individual marines; and 
finally, with an eye toward the best talent management of our total 
force--both today and into the future. I continue to have concerns in 
all three areas, but am confident that our assessment and subsequent 
adjustments during implementation will help us find the best way 
forward.'' Can you expound on your concerns, and how would you address 
each of them?
    General Brilakis. Our study showed that female marines are capable 
of performing physically demanding tasks. However, across all ground 
combat occupational specialties, the gender integrated teams, squads, 
or crews demonstrated somewhat lower performance in the time to 
complete physically-intense tasks, especially under load. This occurred 
despite the fact that our female volunteers were considered to be an 
above-average to well-above-average representation of the PFC-Sergeant 
female population, and had successfully met the physical and academic 
requirements to graduate from their ground combat arms MOS-producing 
school. I believe that clear and occupationally-relevant physical 
performance standards at different points in the accessions and entry-
level training continuum will help mitigate this risk.
    The associated risk is directly linked to the physiological 
differences between males and females, and the risk lies in the 
cumulative impact of this physiological disadvantage over the course of 
regular, recurring and increasingly more challenging dismounted 
movements under load in the operating Forces. The disparity in injury 
rates between males and females at the Infantry Training Battalion and 
during the conduct of our assessment provides an early indicator to 
that effect. We will try to combat injury risk through physical 
training preparation and equipment enhancements.
    In regard to talent management, we have worked to increase the 
number of female accessions, both officer and enlisted, to 
unprecedented levels in the past few years. The Marine Corps does risk 
losing talented female marines prematurely due to injury and the 
extreme physical demands of the combat arms occupations. An 
inextricable linkage exists between physical capacity and job 
performance, especially in the early stages of a young marine's career. 
The possibility of a female marine being less competitive in these 
occupations may adversely impact our ability to retain females into 
more senior ranks. This would be a tremendous loss for our Corps.
                              retaliation
    14. Senator Gillibrand. Admiral Moran, you said that there is one 
case of retaliation that was prosecuted in the Navy. Can you please 
provide information about this case including the ranks of the offender 
and victim, whether there was a supervisory relationship between 
offender and victim, the court-martial forum, whether the member was 
tried by panel or judge-alone, the punishment adjudged, the punishment 
approved, and whether there was a plea agreement in the case?
    Admiral Moran. Senator, to clarify, while the offender was held 
accountable there was no prosecution under the Uniform Code of Military 
Justice in this case. The offender was a senior chief petty officer (E-
8), and the victim a petty officer third class (E-4). The senior chief 
was not the victim's direct supervisor, but was in her chain of 
command.
    In February 2011, the victim initiated a protected communication 
under title 10, United States Code, section 1034, specifically, by 
filing, with the Command Managed Equal Opportunity Advisor, an informal 
sexual harassment complaint against another member of the command. A 
review by the Inspector General of the Navy found that the senior chief 
was aware of the protected communication and had committed reprisal 
against the victim by failing to forward her Officer Candidate School 
(OCS) application for consideration by the chain of command.
    Following the Inspector General's findings, the completed 
investigation was forwarded to commander, U.S. Naval Forces Central 
Command, for administrative or disciplinary action against the 
offender. The commander determined that court-martial was 
disproportionate to the offense, and flag-level formal administrative 
counseling was the appropriate action against the offender. The 
commander informed the Assistant Secretary of the Navy (Manpower and 
Reserve Affairs) of his determination and that the flag-level 
counseling had been completed.
    The investigation was also forwarded to me for corrective action on 
behalf of the victim; unfortunately, I was unable to take corrective 
action. The victim had informed the Inspector General that she no 
longer wished to be considered for commission as a naval officer. I 
informed the Assistant Secretary of the Navy (Manpower and Reserve 
Affairs) of this result. However, I ordered that an appropriately 
redacted copy of the Inspector General's investigation be inserted in 
the senior chief's Official Military Personnel File and, following 
appropriate due process procedures, I subsequently disapproved the 
senior chief's advancement to master chief petty officer (E-9), which 
will also be documented in his record.
                               __________
               Questions Submitted by Senator Bill Nelson
      survivor benefit plan offset by death indemnity compensation
    15. Senator Nelson. General McConville, Admiral Moran, General 
Brilakis, General Grosso, currently eligible survivors of Active Duty 
personnel and veterans who have died due to causes connected with their 
military service have Survivor Benefit Plan (SBP) annuities they 
receive reduced dollar-for-dollar by the amount of Death Indemnity 
Compensation (DIC) they receive (the SBP/DIC offset). Given that the 
SBP is a voluntary insurance program that military retirees pay 
premiums into, do you think it is acceptable that eligible survivors 
are denied full payout of this purchased annuity plan based on the 
receipt of a separate entitlement?
    General McConville. As part of the Congressional review of the 
Compensation Reform we are aware of the legislative proposal aimed at 
adjusting the compensation under SBP and DIC. The intent of this 
proposal is to improve Survivor Benefits by granting servicemembers the 
option of purchasing additional SBP coverage, not offset by DIC. This 
would provide servicemembers both an increased choice as well as 
financially increased benefits.
    Admiral Moran. There has been a shift in recent years, most 
noticeably since the 9/11 terrorist attacks, away from original 
Congressional intent to provide a total benefit composed solely of SBP, 
solely of DIC, or of a combination of the two which would equal the 
full SBP benefit. While the emerging view suggests that the DIC offset 
reduces the survivor benefit, that view is inconsistent with original 
Congressional intent.
    I believe we can never do enough for our service men and women, our 
veterans, and their families. If it were affordable, and could be 
funded within the overall President's budget without sacrificing other 
critical readiness priorities, changing the law to provide concurrent 
receipt of full SBP and DIC, without an offset, would be well-received 
by military surviving family members. But, I fully appreciate the 
persistent challenge of finding and establishing the right balance 
between applying increasingly austere resources to readiness costs and 
personnel costs.
    General Brilakis. The Department of Defense has consistently 
opposed proposals to eliminate the offset between Survivor Benefit Plan 
(SBP) annuities and Dependency and Indemnity Compensation (DIC) at 
Government expense primarily because both programs have the same goal--
to provide a continuing annuity to the survivors of military members or 
former members--and both benefits are subsidized by the Federal 
Government. DOD also notes that allowing concurrent receipt of SBP and 
DIC would create a group of survivors receiving two Government-
subsidized survivor annuities, whereas survivors of most military 
retirees and survivors of veterans who did not serve to retirement 
would receive only one. Finally, eliminating the SBP offset for all 
survivors entitled to DIC would cost the Military Retirement Fund more 
than $7 billion over 10 years. The Marine Corps defers to DOD on any 
change in position on this issue.
    Admiral Grosso. No, it is not. The Air Force fully supports the 
submission of OLC DESIGNATOR S.979 to repeal the requirement for 
reduction of survivor annuities under the SBP by DIC.
                  special survivor indemnity allowance
    16. Senator Nelson. General McConville, Admiral Moran, General 
Brilakis, General Grosso, currently the Special Survivor Indemnity 
Allowance (SSIA) is payed to eligible survivors whose SBP annuities are 
offset in part or in whole by the DIC they receive--in effect 
offsetting the offset, at least partially. The SSIA provision expires 
at the end of fiscal year 2017. In the absence of a repeal of the SBP/
DIC offset, do you think it is appropriate to extend SSIA, and if so, 
for how long?
    General McConville. According to the DOD Office of the Actuary, the 
SSIA provision was temporary and was therefore not included as part of 
the DOD budget. The DOD never budgeted as a permanent benefit for this 
provision and currently there are no plans to extend the SSIA past the 
end of fiscal year 2017. While this benefit would assist survivors by 
mitigating the SBP-DIC offset issue, it ultimately would run counter to 
the Department's efforts to control the costs of entitlement programs, 
achieve efficiencies and reduce the deficit.
    Admiral Moran. I support the Department of Defense position not to 
extend SSIA beyond fiscal year 2017.
    General Brilakis. Currently there are no plans to extend the 
Special Survivor Indemnity Allowance past the end of fiscal year 2017. 
The program is not budgeted and will sunset on 30 September 2017. SSIA 
was enacted by Congress and is administered by DOD, so the Marine Corps 
defers to those entities on the appropriateness of extending the 
program.
    General Grosso. In the absence of a repeal to the SBP/DIC offset, 
extending SSIA would certainly benefit the survivors of military 
retirees who participate in SBP. As you can imagine, survivors now 
count on this additional money as income. Removing it totally could 
potentially cause hardship for many. The cost of a total repeal would 
cost the Military Retirement Fund more than $7 billion over 10 years. 
The SSIA extension would provide some relief to survivors as the 
discussion to end the SBP/DIC offset continues. The initial legislation 
for SSIA allowed payments for 8 years with incremental increases, and 
should continue for the foreseeable future.

                                 <all>
</pre></body></html>
